iv

TABLE OF APPENDICES
Order of The Supreme Judicial Court for the Commonwealth
of Massachusetts Denying Application for Further
Appellate Review (May 13, 2021)......................................................

.App 1

Memorandum and Order Pursuant to Rule 23.0 of The
Commonwealth of Massachusetts Appeals Court(February 19,
2021).................................. ............................................................................

App 4

Notice of Entry to the The Supreme Judicial Court
for the Commonwealth of Massachusetts for an
Application for Direct Appellate Review(November 22, 2019)
Denied on the record; Petitioner has no
notice of Denial..................................................................................
App 18
Memorandum
County, MA
Motion for
60(b) (1) (3)

and Order of The Superior Court for Norfolk
on Defendant Michelle J. Smith's
a New Trial Pursuant to Mass. R. Civ. P.
(4) (6); (September 18, 2019)..................................

App 19

Notice of Denial of The Superior Court for Norfolk
County, MA on Motion for Judgment Not Withstanding
Verdict (July 24, 2018)..........................................................

App 34

Verdict Slip of The Superior Court for Norfolk County,
MA (June 15, 2018).............................................................................

App 3 5

Jury Instructions of The Superior Court for Norfolk
County, MA (June 15, 2017; mistake on year should
be 2018).............................................................................................

App 3 8

Memorandum of Decision and Order of The Superior Court
for Norfolk County, MA on Defendants Special
Motion to Dismiss All Counts of Plaintiff's Complaint
Pursuant to the Anti-Slapp Statute, G.L. c. 231, 59H
(October 16, 2017)..............................................................................

App 62

Notice of Denial from The Superior Court for Suffolk
County, MA on Defendants Motion to Dismiss for Improper
Venue (January 28, 2014)....................................................................

App 6 9

Original Complaint- Suffolk County Civil #13-3032B
Transferred to Norfolk County Civil #1482CV00639....

App 7 0

V.

Subject Letter of Lawsuit addressed to MA Amateur
Softball Association (ASA)/USA Softball; The National
Governing Body of Softball(NGB)
(August 24, 2010).................................... .........................................

App 7 6

Notice of Receipt of Subject Letter from MA ASA/
USA Softball; The National Governing Body of Softball
(NGB) (September 14, 2010)............................................................

App 7 8

Notice of Hearing from MA ASA/USA Softball; The
National Governing Body of Softball(NGB)
(October 6, 2010)................................................................

App. 7 9

Notice of Ruling and (5) Year Suspension of
Plaintiff; Coach Martin French, from MA ASA/
USA Softball; The National Governing Body of Softball
(November 3, 2010)...........................................................................

App 80

Notice of Ruling; regarding Plaintiff Coach Martin
French's Appeal, Upholding his (5) Year Suspension
from MA ASA/USA Softball; The National Governing Body
of Softball (December 1, 2010)..................................................

App 8 2

The Commonwealth of Massachusetts Office of the
Attorney General correspondence to Bay State
Blaze, Inc. Softball (May 4, 2010)........................;...

App 8 3

The Commonwealth of Massachusetts Office of the
Attorney General electronic mail correspondence
regarding Bay State Blaze, Inc. (October 4, 2011)

App 84

Congress.Gov S.534- "Protecting Young Victims
from Sexual Abuse and Safe Sport Authorization Act"
Public Law No: 115-126 (enacted February 14, 2018)...

App 8 5

Congress.Gov S.2330- "Empowering Olympic,
Paralympic, and Amateur Athletes Act of 2020"
Public Law No: 116-189 (enacted October 30, 2020)

App 93

Article by Craig Lord "Great day for athlete
safety as U.S. House Matches Senate to pass
Empowering Olympic, Paralympic, and Amateur
Athlete Act(S2330)written: October 1, 2020....

App 127

Analysis by Gregory Love, Esq. "Abuse Prevention"

App 142

From: SJCCommClerk@sic.state.ma.
us
Subject: FAR-28148 - Notice:
FAR denied
Date: May 13,2021 at 3:07:02 PM
To: mjsmith0304@hotmail.com
Supreme Judicial Court for the
Commonwealth of Massachusetts
RE: Docket No. FAR-28148
NICHOLAS FRENCH, personal
representative,
vs.
MICHELLE J. SMITH & others
Norfolk Superior Court No. 1482CV00639
A.C.No. 2019-P-1572
NOTICE OF DENIAL OF APPLICATION FOR
FURTHER APPELLATE REVIEW
Aop. ±

Please take note that on May 13,2021, the
application for further appellate review was
denied.
Francis V. Kenneally Clerk
Dated: May 13,2021
To: Ann Pinheiro, Esquire
Michelle J. Smith
William Ameen
David Dickerman
Kelly Dickerman
Kevin F Fall

AoP

z

Sharon Hurley
Joseph Kelliher
Janet M. Lambert
Sean Reed

A pp3

E'jthibi'b A
NOTICE:
Summary decisions issued by the Appeals Court pursuant to M.A.C. Rule
23.0, as appearing in 97 Mass. App. Ct. 1017 (2020) (formerly known as rule 1:28,
as amended by 73 Mass. App. Ct. 1001 [2009]), are primarily directed to the parties
and, therefore, may not fully address the facts of the case or the panel's
decisional rationale. Moreover, such decisions are not circulated to the entire
court and, therefore, represent only the views of the panel that decided the case.
A summary decision pursuant to rule 23.0 or rule 1:28 issued after February 25,
2008, may be cited for its persuasive value but, because of the limitations noted
above, not as binding precedent. See Chace v. Curran, 71 Mass. App. Ct. 258, 26Q
n.4 (2008).

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT

.
19-P-1572

NICHOLAS FRENCH, personal representative,1
vs.
MICHELLE J. SMITH & others.2
MEMORANDUM AND ORDER PURSUANT TO RULE 23.0
The defendants, signatories to a letter to the Amateur
Softball Association (ASA) accusing the plaintiff, Martin D.
French, of various forms of misconduct, appeal from an amended
judgment after a jury trial for defamation, intentional
infliction of emotional distress, and interference with
contractual or prospective advantageous relations.

They also

appeal from an order denying their pro se motion for relief from

1 Of the estate of Martin D. French. During the pendency of this
appeal, Martin D. French died, and leave was granted for a
motion to be filed in the trial court regarding the appointment
of a substituted party for Martin D. French. The trial court
subsequently allowed a motion to substitute Nicholas French as
the plaintiff-appellee. We refer to the original plaintiff,
Martin D. French, as the plaintiff throughout this memorandum
and order.
2 Kevin F. Fall, William Ameen, William Kazanek, Joseph Kelliher,
Kelly Dickerman, David Dickerman, Sean Reed, Janet M. Lambert,
and Sharon M. Hurley.

Afp

l-f.

■8.2-8—(-1.9J-4-).

Finding no merit in their various claims of error, we affirm.
1.

Transfer of venue.

The lawsuit was originally filed in

Suffolk County, which was not a proper venue.

When the

defendants moved to dismiss for improper venue, a Superior Court
judge ordered that the matter be transferred to Norfolk County,
where there was proper venue.

When faced with a lawsuit filed

in the wrong venue, a judge has the discretion under G. L.
c. 223, § 15, to transfer the matter to the proper venue.
Generally, there is "no basis on which to dismiss the case as a
matter of discretion" simply because it was filed in the wrong
venue.
(2002) .

Cormier v. Pezrow New England, Inc., 437 Mass. 302, 307
Accordingly, we discern no abuse of discretion in the

judge's order of transfer.3
2.

Anti-SLAPP motion.

A special motion to dismiss

pursuant to the anti-Strategic Litigation Against Public
Participation law, G. L. c. 231, § 59H, must be "filed within
sixty days of the service of the complaint or, in the court's
discretion, at any later time upon terms it deems proper."
Here, the defendants waited until over three years from the
filing of the complaint, after discovery had closed, to file

3 Similarly, we see no indication in the record that the judge
was misled by the plaintiff's citation of irrelevant statutes in
his opposition to the motion to dismiss. The judge's order was
arguably the only one permitted under Cormier.

their anti-SLAPP motion.

The motion judge denied the motion as

untimely, concluding that "[b]oth parties have endured the
expense of litigation over the last three years since this case
was filed, and as such, the allowance of such a late motion in
this case would not serve the policy underlying the statute."
To conclude that the motion judge abused his discretion we
would have to find a "clear error of judgment in weighing the
factors relevant to the decision . . . such that the decision
falls outside the range of reasonable alternatives."

Spinosa v.

Tufts, 98 Mass. App. Ct. 1, 6 (2020), quoting L,L. v.
Commonwealth, 470 Mass. 169, 185 n.27 (2014).

As "[t]he purpose

of the anti-SLAPP statute is to provide 'a procedural remedy for
early dismissal' of meritless SLAPP suits . . . with a 'specific
goal of resolving "SLAPP" litigation quickly with minimum
cost,

I II

Blanchard v. Steward Carney Hosp., Inc., 483 Mass. 200,

211 (2019), quoting Office One, Inc, v. Lopez, 437 Mass. 113,
126 (2002); Duracraft Corp. v. Holmes Prods. Corp., 427 Mass.
156, 161 (1998), we discern no abuse of discretion in the motion
judge's decision. 4
3.

Exclusion of evidence of alcohol use.

The defendants

proposed to introduce evidence that, during a tournament trip to

4 As the anti-SLAPP motion to dismiss was properly denied, the
defendants' request for attorney's fees under G. L. c. 231,
§ 59H, is denied.
A f\n I/\
Af>p
^

^©^a-&o-uxLd tlie.

North Carolina,the plaintiff
players.

nor were
There was no mention of this in the letter,

otherwise communicated to the ASA.
any such allegations
"Relevant evidence is admissible unless unduly prejudicial, and,
[i]n weighing the probative value of evidence against any
prejudicial effect it might have on a jury, we afford trial
judges great latitude and discretion, and we uphold a judge s
decision in this area unless it is palpably wrong.

Bank v.

i n

638, 670 (2008), quoting
Thermo Elemental, Inc. , 451 Mass.
Commonwealth v. Arroyo, 442 Mass. 135, 144 (2004).

Here, the

evidence of alcohol use had no connection to the defamation
discretion in the trial judge s
case , and we discern no abuse of
determination that any probative value was outweighed by its
prejudicial effect.

See Masters v. Khuri, 62 Mass. App. Ct.

467, 471 (2004).
4.

Judicial bias.

judge exhibited bias
recusal during trial.

The defendants argue that the trial

but they made no objection or request for
"Substantial authority exists that

recusal motions filed after trial are presumptively untimely at
least absent a showing of good cause for tardiness."

Demoulas

543, 547 (1998).
v. Demoulas Super Mkts., Inc., 428 Mass.
defendants

The

"belated request suggests a tactical decision in the

face of an adverse ruling. "

Matterof a Care & Protection

Summons, 437 Mass. 224, 239 (2002).

Moreover, had the

A nQ n
Hff
1

discern no evidence of judicial bias.

Even where a judge

exhibits frustration with the unnecessarily slow pace of a
trial, "nothing the judge said or did would cause his
impartiality reasonably to be questioned, and so it was not an
abuse of discretion not to recuse himself."

Cooper v. Keto, 83

Mass. App. Ct. 798, 810 (2013).5
5.

Denial of motion for a directed verdict.

"[A] jury

verdict shall be sustained if 'anywhere in the evidence, from
whatever source derived, any combination of circumstances could
be found from which a reasonable inference could be made in
favor of the [nonmovant].'"

Filbey v. Carr, 98 Mass. App. Ct.

455, 461 (2020), quoting O'Brien v. Pearson, 449 Mass. 377, 383
(2007).

The defendants focus their argument on the claim of

defamation.

"To prevail on a claim for defamation, a plaintiff

must establish that (1) the defendant published a defamatory
statement of and concerning the plaintiff;

(2) the statement was

a false statement of fact (as opposed to opinion);

(3) the

defendant was at fault for making the statement, and any
privilege that may have attached to the statement was abused;

5 The defendants misunderstand the import of finding that a
witness is hostile. This is merely a finding that the witness's
interests are contrary to that of the party calling him or her
and allows counsel to ask leading questions on direct
examination.
See White v. White, 40 Mass. App. Ct. 132, 142 n.6
(1996).

a rpsnl t.. or the

and C*H Ihe pi's:

statement was of the type that is actionable without proof of
economic loss."

Lawless v. Estrella, 99 Mass. App. Ct. 16, 18-

19 (2020).
The statement in the letter accusing the plaintiff of
misappropriating funds had little basis.

William Ameen, Joseph

Kelliher, Sean Reed, Sharon Hurley, and William Kazanek
testified that they never saw the plaintiff taking or handling
money.

Kevin F. Fall testified that he handled the money the

first year.

Kelly Dickerman testified that she gave money to

Melissa Kelleher,6 never to the plaintiff, and "just assumed"
that the plaintiff was responsible,

Michelle J. Smith testified

that she gave money to Reed at one point and to Kelleher and the
plaintiff jointly at another point, contradicting earlier
deposition testimony that she gave money to the plaintiff,

The

plaintiff and Kelleher both testified that the plaintiff did not
handle the money.

The jury could reasonably have found that the

accusation that the plaintiff misappropriated funds was false
and that the defendants had no reasonable basis for making it.
Similarly, the jury could reasonably have found that the
statement in the letter that the plaintiff exposed himself to
players was knowingly false and that the suggestion that the

6 Joseph Kelliher and Melissa Kelleher have similar last names
but are not related.

basis.

The plaintiff denied ever exposing himself, being told

that he exposed himself, or even failing to wear underwear.
jury was entitled to believe this testimony.

The

See, e.g.,

Gyulakian v. Lexus of Watertown, Inc., 475 Mass. 290, 301 n.19
(2016)

("The jury, having observed the witnesses, were entitled

to credit [the plaintiff's] testimony").
Ameen, Kelliher, Kazanek, and Janet M. Lambert testified
that they never saw any exposure.

Reed testified to two

incidents of exposure, but neither occurred in front of "a lot
of girls in the organization" as the letter alleged.

Fall

testified to one of the incidents that Reed testified to, but
saw no exposure to female players.

David Dickerman also

testified to an incident of exposure but did not testify to any
specifics.
Kelly Dickerman and Hurley testified to seeing the
plaintiff expose himself to the softball players, but Karen
Bigley testified that Kelly Dickerman testified to the opposite
at the ASA hearing and that Hurley did not testify to the
exposure at the hearing.

Smith's testimony about exposure was

internally inconsistent; she testified that she saw him exposed
for two to three minutes, but also that she looked away
immediately.

i-f—t-h-e—j ury be-L-iev-ed—hha£—the—pXa4--n.tjX£..exposed.
himself, which they were under no obligation to do, there was no
evidence to support the allegation that the exposure might have
been knowing.

The Dickermans each testified that they thought

the exposure they witnessed was unknowing.

Smith testified that

she asked the plaintiff to change his shorts and that he
immediately did so and never exposed himself again.
Nonetheless, she justified alleging that the plaintiff may have
exposed himself knowingly saying, "I couldn't be definitively
sure that it was unknowingly, so I wrote knowingly."

The jury

was entitled to conclude that not being definitively sure that
someone did not commit the crime of indecent exposure was not
adequate cause to publicly accuse him of that crime.
Regarding the allegations that the plaintiff stated that
certain girls either would become, or already were, prostitutes
and exotic dancers, again the plaintiff denied doing so, and the
jury could have believed his testimony and thus concluded that
the defendants were lying.
301 n.19.

See, e.g., Gyulakian, 475 Mass, at

In this regard, the Dickermans, Ameen, Kelliher, and

Lambert never heard such statements.
The testimony of the defendants who purported to hear such
comments was remarkably inconsistent.

Reed described this as

happening at a bar with Kelleher and Arnie Milks.

Minutes

later, perhaps realizing that Kelleher would not corroborate

AfP 11

-t-bi-s-,—Re-ed-

tbob—Kel-L-e-he^?—w-a-s—t-he-re-*--- Fail—a»4-

Kazanek testified to being there, contrary to Reed's testimony.
Furthermore, the plaintiff fired Reed,7 and Reed formed a new
softball organization that competed with the plaintiff's, giving
Reed ample reason to lie to remove the competition unfairly.
Smith testified to hearing such a comment about her own daughter
at practice but then admitted that she left her daughter on the
team and that her husband later asked the plaintiff for a
recommendation for that daughter for another softball program.
In short, the jury could reasonably have concluded that the
defendants' testimony about hearing these comments was simply
false.
317

See, e.g., Glavin v. Eckman, 71 Mass. App. Ct. 313, 316-

(2008)

("The jury were free to disbelieve the [defendants']

testimony").
For these reasons, the defendants' argument that the
verdicts were against the weight of the evidence also fails.
"The judge should only set aside a verdict as against the weight
of the evidence when it is determined that the jury 'failed to
exercise an honest and reasonable judgment in accordance with
the controlling principles of law.

t I?

Parsons v. Ameri, 97 Mass.

7 In their brief, the defendants claim that Reed was not fired,
but that directly contradicts the testimony of Reed, not to
mention Ameen and the plaintiff. Indeed, it appears that one of
the reasons the ASA suspended the plaintiff was for failing to
fire Reed earlier.

App.

C±L

96,

in?

sn. 449 Mass, at 384.

Here, the evidence well supported the verdicts.
6.

Amendment of the judgment.

The original judgment

called for prejudgment interest beginning on May 6, 2014, when
the case was transferred to Norfolk County.

On the motion of

the plaintiff, the trial judge amended the judgment to include
prejudgment interest from August 23, 2013, the date on which the
complaint was filed in Suffolk County.
a verdict is rendered .

.

"In any action in which

. for pecuniary damages for personal

injuries to the plaintiff or for consequential damages,

.

.

there shall be added by the clerk of court to the amount of
damages interest thereon at the rate of twelve per cent per
annum from the date of commencement of the action."
c. 231, § 6B.

G. L.

This statute "provides that the clerk of the

court shall add interest to damages from the date of the
complaint to the date of judgment."

Gore v. Arbella Mut. Ins.

Co., 77 Mass. App. Ct. 518, 537 (2010).

Accord Salvi v. Suffolk

County Sheriff's Dep't, 67 Mass. App. Ct. 596, 610 (2006).
Although there is an exception for when the damages are not
incurred until after the filing of the complaint, see Bank, 451
Mass, at 662-663, here that exception is inapplicable.
Accordingly, the trial judge properly amended the judgment.
7.

Waived issues.

The defendants argue that they had

various defenses against the defamation claim — a privilege

13

-under the—EjU&sfc.

U-tiga.ti on pxi-V-i 1 £,g,e.;_tb.e_N.o_exx_z.

Pennington doctrine; and that the plaintiff was a public figure,
limited public figure, or the letter was on a subject of public
interest, such that the plaintiff had to show actual malice to
prevail.

None of these claims, however, were raised at trial.

"Issues not raised in the trial court are considered waived on
appeal."

Trapp v. Roden, 473 Mass. 210, 220 n.12 (2015).

Accord Zielinksi v. Connecticut Valley Sanitary Waste Disposal,
Inc., 70 Mass. App. Ct. 326, 335-336 (2007).
Similarly, the defendants neither objected to a juror being
excused on the third day of trial nor requested a mistrial on
the ground that the jury were then seven persons.

See G. L.

c. 234A, § 74 (error in juror procedure "shall not be sufficient
to cause a mistrial or to set aside a verdict unless objection
to such irregularity or defect has been made as soon as possible
after its discovery or after it should have been discovered and
unless the objecting party has been specially injured or
prejudiced thereby").

Accordingly, this is not a basis to

reverse the verdicts.

See Commonwealth v. Santa Maria, 97 Mass.

App. Ct. 490, 500-501 (2020). 8

8

Also not raised in the trial was the defendants' claim that
they "were forced to atone for a false charge" because the
complaint mislabels defamation per se as "slander per se." The
complaint properly described the defamation as libel in the
text, and the trial judge instructed the jury on defamation and
defamation per se. Similarly, the defendants raised no request

4

-Be-ai.aJ-- of mobi-an—for relief from judgment.

"The

resolution of motions for relief from judgment 'rests in the
discretion of the trial judge.

I If

Atlanticare Med. Ctr. v.

Division of Med. Assistance, 485 Mass. 233, 247 (2020), quoting
Wojcicki v. Caragher, 447 Mass. 200, 209 (2006).

"[A]n

appellate court will not reverse the motion judge's decision
'except upon a showing of a clear abuse of discretion.

1 ft

Stephens v. Global NAPs, 70 Mass. App. Ct. 676, 684-685 (2007),
quoting Tai v. Boston, 45 Mass. App. Ct. 220, 224 (1998).
In briefing, the defendants argue that the judge who ruled
on the motion, who was also the trial judge, should have granted
them a new trial because of the asserted incompetence of their
trial counsel.

Where a litigant has a constitutional right to

counsel such that the Commonwealth must appoint counsel if the
litigant is indigent, the litigant may seek relief on the basis
of ineffective assistance of counsel.

See, e.g., Poe v. Sex

Offender Registry Bd., 456 Mass. 801, 811 (2010); Commonwealth
v. Saferian, 366 Mass. 89, 96-97 (1974).

Here, however, the

defendants have no right to counsel to defend against a
defamation action, and "[w]here there is no constitutional right
to counsel there can be no right to effective assistance of

for a "[d]efamation by implication" instruction at trial, and
thus waived that issue. See, e.g., Matsuyama v. Birnbaum, 452
Mass. 1, 36 (2008).
£T

D

-counsel-,—

•Noe—v-,—Hn-i-t-ed—St-at-e-s-,—601 ■ F. 3d.78 4,—7-9-2—(-g-th—Gi-r-r

2010), quoting Pollard v. Delo, 28 F.3d 887, 888 (8th Cir.
1994).

The defendants chose their counsel and are now bound by

the results of that choice.
272-273 (1847)

Cf. Lewis v. Sumner, 13 Met. 269,

("a litigant party shall not be permitted to deny

the authority of his attorney of record, whilst he stands as
such on the docket.

He may revoke his attorney's authority, and

give notice of it to the court and to the adverse party; but
whilst he so stands, the party must be bound by the acts of the
attorney").
The defendants also argue that the verdicts were
inconsistent.

"Where, as here, a jury returns a special

verdict, an objection that verdicts on several counts are
inconsistent with each other must be taken at the time when the
verdicts are returned and before they are recorded, so that the
trial judge has an opportunity to correct the error if there is
one. "

Netherwood v. American Fed'n of State, County & Mun.

Employees, Local 1725, 53 Mass. App. Ct. 11, 21 n.ll (2001).
Here, there was no such objection, and the claim is waived.
In any event, "[t]o constitute inconsistent verdicts, it
must be shown that the verdicts are based on inconsistent
findings of fact."

Palriwala v. Palriwala Corp., 64 Mass. App.

Ct. 663, 672-673 (2005), quoting Technical Facilities of Am.,
Inc. v Ryerson & Son, Inc., 24 Mass. App. Ct. 601, 605 (1987).

JT-h-e—th-i-^d

.1 pthpr,

nn M.h-lr..h-±b.p. jury rnnrlnHpH

that the plaintiff did not prove defamation, was supported by
Smith's testimony that the plaintiff made about a derogatory
statement regarding a player other than Smith's daughter.

The

jury could reasonably have believed that the plaintiff made the
third statement while disbelieving the inconsistent testimony of
Reed, Fall, and Kazanek regarding the second statement in the
letter, on which the jury concluded that the plaintiff did prove
defamation.

There was no inconsistency in the jury verdicts.

See, e.g., Wodinsky v. Kettenbach, 86 Mass. App. Ct. 825, 836
n.28 (2015).9
Amended judgment and order
denying motion for relief
from judgment affirmed.
By the Court (Rubin, Neyman &
Ditkoff, JJ.10),

Clerk
Entered:

9

February 19, 2021.

The plaintiff's motion for attorney's fees is denied. Although
there is little in the defendants' brief that offered a
reasonable hope of reversal, we cannot say that the appeal is
frivolous, especially in light of the defendants' consulting
with appellate experts before proceeding. See Filbey, 98 Mass.
App. Ct. at 462 n.10, quoting Gianareles v. Zegarowski, 467
Mass. 1012, 1015 n.4 (2014) ("Although the appeal . . . is
unsuccessful, it is not frivolous").
10 The panelists are listed in order of seniority.

Sft

^6
^

a

C

COMMONWEALTH OF MASSACHUSETTS
NORFOLK, ss.

SUPERIOR COURT
Civil No. 14-639
MARTIN D. FRENCH
Plaintiff
vs.

W-VLS.

RECEWEOSHIH)

CLERK OF THE COURTS

Norfolk county

MICHELLE J. SMITH, & others1
Defendants
MEMORANDUM AND ORDER
ON DEFENDANT MICHELLE J. SMITH’S
MOTION FOR NEW TRIAL
In June 2018, a jury returned a verdict for plaintiff Martin D. French (“French”) on
claims of defamation, intentional infliction of emotional distress, and interference with
contractual or prospective advantageous relations, and awarded $69,250 to plaintiff against
defendants. With authorization from the Appeals Court, the case is now before me on a motion
by defendant Michelle J. Smith (“Smith”) for a new trial under Mass. R. Civ. P. 60(b).2 Smith

J

and the other defendants were represented by counsel at trial. Smith now files her motion pro se.
Plaintiff moves to strike certain exhibits Smith filed to support her motion. For the following
reasons, Smith’s motion is denied and plaintiffs cross-motion is denied as moot.3

i

Kevin F. Fall, William Ameen, William Kazanek, Joseph Kelliher, Kelly
Dickerman, David: Dickemian, Sean Reed, Janet M. Lambert and Sharon M. Hurley.
2

In Docket 2019-P-0133, the Appeals Court granted the defendants leave to file
for, and granted the trial court leave to consider, relief from judgment under Mass. R. Civ. P.
60(b). The Appeals Court denied defendants’ request to stay the appellate proceedings while
they pursued a Rule 60(b) motion. Although leave was granted to all defendants, only Smith has
filed a motion under Rule 60.
3

The parties have not sought a hearing under Superior Court Rule 9A(c)(2). I
presided over the trial, had a chance to assess the credibility of trial witnesses, and have reviewed
my trial notes and the parties’ filings. I do not require a hearing to resolve the pending motions.

i

BACKGROUND
A brief initial description of the case will suffice.
French, a sojfitball coach, filed this action after defendants signed or agreed to sign, and
distributed, a letter dated August 24, 2010 (“the 2010 Letter”), which contained a number of
statements of fact that French alleged were false and which raised serious questions about his
character, his financial ability to manage a softball team, and his suitability to be around young
1

girls playing competitive softball. At the time, French was involved with, and was one of the
softball coaches for a team in, the Baystate Blaze organization, a group of girls’ travel softball
teams, which played through and outside the Massachusetts chapter of the Amateur Softball
Association (“ASA”). French also coached women’s softball at Massasoit Community College
and gave private softball instruction. A reasonable jury could have found that, as a result of
defendants’ distribution of the 2010 Letter, French suffered a number of professional setbacks
and lost income from his work in and related to youth and college softball.
The case was originally filed in Suffolk Superior Court on August 23,2013, just before
the three-year statute of limitations expired. The Complaint named ten individual defendants,
see, supra, at 1 & n.l, plus a “Jane/John Doe” defendant. Returns of service filed on October 25,
2013, demonstrated timely service on the named defendants by September 30, 2013.
Defendants filed a motion to dismiss for improper venue under Mass. R. Civ. P. 12(b)(3),
arguing that none of the parties lived or worked in Suffolk County. See G.L. c. 223, § 1.
Plaintiff advanced a number of arguments in opposing the motion to dismiss, including a good
faith mistake and inclusion of the “Jane/John Doe” defendant still to be identified. After hearing,

I discuss other facts below as needed to address Smith’s claims under Rule 60(b).

the Court (Fahey, J) denied the motion on January 28,2014, ancTordered the case transferred to

j

Norfolk County “w/o prejudice to n seeking to retransfer to Suffolk after Jane and John Doe are
identified.” Defendants did not, seek reconsideration of the motion to dismiss.
Pursuant to {Judge Fahey’s order, in or about May 2014, the case was transferred to
Norfolk Superior Court. Defendants filed their Answer in the Norfolk Superior Court. In their
Answer, defendants did not raise improper venue or insufficient service of process as affirmative
defenses. Shortly thereafter, the Court (Brady, J.) dismissed the “John/Jane Doe” defendant for
plaintiffs failure to make service. The case was delayed a number of times due to discovery
disputes. At a Final Pretrial Conference in October 2016, the case was scheduled for trial in
April 2017.
On March 21, 2017, defendants filed a notice of intention to file a special motion to
dismiss under the anti-SLAPP statute, G.L. c. 231, § 59H. On April 4, 2017, they filed their

3>;

special motion to dismiss, in part based on the Supreme Judicial Court’s then-recent decision in
Cardno Chemrisk. LLC v. Fovtlin, 476 Mass. 479 (2017), which they characterized as
“expanding] its [the anti-SLAPP statute’s] application to the right of individuals to petition to
non-governmental entities.” Defendant’s Special Motion to Dismiss ... at 2 (Docket #24.0).
They argued that their actions petitioning for discipline by the ASA, Massasoit Community
College, and other, national softball organizations was protected under G.L. c. 231, § 59H. See
Memorandum of Law in Support of Defendants’ Special Motion to Dismiss ... at 5 (Docket
#24.1).
On April 5, 2017, the Court (Connors, J.) granted defendants’ motion to continue the trial
so the special motion to dismiss could be heard. In October 2017, Judge Connors heard and
denied the anti-SLAPP motion in a thoughtful decision that addressed both the timing and the

i

i

merits of the motion. On the merits, Judge Connors found the 2010 Letter “to the ASA did not
constitute petitioning activity alone because it was not made to influence, inform, or reach, either
directly or indirectly, governmental bodies”; “[t]he ASA and the other organizations the letter
was sent to, including the plaintiffs employer Massasoit [Community College] are not
legislative, executive, or judicial bodies and the letter was not submitted to affect consideration
in any governmental action.” Memorandum of Decision and Order ... at 5 (Oct. 16, 2017)
(Docket #27). On the record before him, Judge Connors found plaintiff had also shown the letter
to the Attorney General’s Office referenced in the 2010 Letter did not implicate the anti-SLAPP
statute because it “was devoid of reasonable factual or legal support.” Id. at 5-6.
The case was tried before a jury in June 2018 on claims of defamation,3 intentional
infliction of emotional distress, and interference with contractual or prospective advantageous
relations. The jury did not have to parse or apportion liability among the defendants because the
parties agreed that if any one defendant were liable, all defendants were liable.
Regarding the defamation claim, the jury had to consider four specific statements about
French in the August 2010 Letter. The jury found three of the four statements were false and
defamatory. Specifically, the jury found that the 2010 Letter (1) falsely implied that French was
responsible for thousands of dollars going missing from the BayState Blaze organization; (2)
falsely asserted that “Mr. French has on numerous occasions referred to a lot of the girls in the
organization in a sexual manner. He has stated with no basis that these girls will become

5

Count I, labeled “Slander Per Se - Injury to Personal Reputation,” identified parts
of the 2010 Letter jthat plaintiff alleged were “libelous” “assertion[s] of facts.” Complaint at 3
(Docket #1). Libel and slander are two forms of defamation. Ravnikar v. Bogojavlensky. 438
Mass. 627, 629 (2003). Smith does not contend that she objected to the defamation claim being
submitted to the jury because of a defect in the pleadings. There is no merit to Smith’s current
argument that the label on Count I entitles her to a new trial. See Mem, at 13.

‘strippers and pole dancers’, he has said that a few of the 13 year old girls will be pregnant byy
age 16, he has said hat a few of the girls ‘are already walking the streets’ doing unspeakable ■
acts.”; and (3) false y asserted that “Mr. French has also exposed himself, either knowingly or
unknowingly, to a lot of girls in the organization as well as other coaches and parents.”6 The
jury did not have to credit defendants’ testimony and never heard from any of the players on
French’s team. The jury had sufficient evidence to support its conclusions, including that these
were statements offact, not. opinion; they were knowingly false or made in reckless disregard of
whether the statement was true or false; and plaintiff suffered damages as a result. The jury
awarded $44,250 in damages on the defamation claim.
The jury also found for plaintiff on the claim of intentional infliction of emotional
distress and awarded an additional $25,000. Although the jury found defendants liable on the
claim of interference with contractual or prospective advantageous relations, it awarded nothing
more as damages on that claim.
After the jury’s award, I denied defendants’ motion for judgment notwithstanding the
verdict. Defendants appealed. Smith now seeks a new trial under Mass. R. Civ. P. 60(b). After
discussing the standard that must be applied in deciding such a motion, I address Smith’s various
arguments to the extent I can distill them from her supporting memorandum.
DISCUSSION
I.

The Standard for Relief under Rule 60(b)
The trial court “may relieve a party ... from a final judgment... for the following

reasons:”

6

The jury found that plaintiff had not proved the statement that “Mr. French ...
said ‘she could have raised $1,500 lying on her back for one hour’” to be false and defamatory.

(1) mistake, inadvertence, surprise, or excusable neglect; (2) newly
discovered evidence which by due diligence could not have been
discovered in time to move for a new trial under Rule 59(b); (3)
fraud (whether heretofore denominated intrinsic or extrinsic),
misrjepresentation, or other misconduct of an adverse party; (4) the
judgment is void; (5) the judgment has been satisfied, released, or
discharged, or a prior judgment upon which it is based has been
reversed or otherwise vacated, or it is no longer equitable that the
judgment should have prospective application; or (6) any other
reason justifying relief from the operation of the judgment.
Mass. R. Civ. P. 60(b). The party against whom a judgment is entered must move for relief
under Rule 60(b) “within a reasonable time,” and if under clauses (1), (2), or (3), then “not more
than one year after ithe judgment... was entered.” Id.
Smith does, not bring her motion based on newly discovered evidence. Instead, as
discussed below, she fires off a blunderbuss of overlapping and severable alleged errors by her
trial counsel, plaintiff and his counsel, the court, and the jury. She seeks relief under Rule
60(b)’s clauses (1) (mistake or excusable neglect), (3) (fraud or misconduct by an adverse party),
(4) (a void judgment), and (6) (the catchall provision). The standard of proof for obtaining relief
under these sections is strict.
A defendant does not start with a clean slate when filing a Rule 60(b) motion, nor is Rule
60 a substitute for normal appellate review. See Jones v. Bovkan. 464 Mass. 285, 291 (2013).
Much that went before must be assessed to determine if a judgment should be set aside. For
example, to demonstrate “excusable neglect” under Rule 60(b)(1) “requires circumstances that
are unique or extraordinary[, not] any kind of garden-variety oversight.” Johnny’s Oil Co. v.
Eldavha. 82 Mass. App. Ct. 705, 708-709 (2012), quoting Feltch v. General Rental Co., 383
Mass. 603, 613-61 4 (1981). Asa result, a defendant “bears the considerable burden of showing
that the mistake was indeed excusable, and not due simply to its [or its counsel’s] own
carelessness.” Gath v. M/A-Com. Inc.. 440 Mass. 482, 497 (2003).

Rule 60(b)(3) allows relief from a judgment due to fraud, misrepresentation or
misconduct. “Fraud covered by Rule 60(b)(3) must be of such a nature as to have prevented the
moving party from presenting the merits of h[er] case.” Mass. R. Civ. P. 60, Reporter’s Notes
(1973). However, because “neither the fraud nor misrepresentation is presumed[,] the moving
party has the burdei of proving by clear and convincing evidence that the alleged fraud or
misrepresentation exists and that [s]he is entitled to relief.” Id. See also Pina v. McGill
Development Corn.. 388 Mass. 159, 165 (1983).
Under Rule; 60(b)(4), a judgment may be set aside as “void” if the court lacked subject
matter over the dispute or personal jurisdiction over a party, or if the court’s processes did not
conform to due process requirements as, for example, where an indigent parent was deprived of
counsel before termination of parental rights. See In re Adoption of Rory. 80 Mass. App. Ct.
454, 457(2011).
A motion under Rule 60(b)(6) will only be granted “in extraordinary circumstances,
which are not presented when the allegedly aggrieved party could have reasonably sought relief
by means of direct appeal.” In1 re Georgette. 54 Mass. App. Ct. 778, 788 (2002). “To secure
relief under rule 60(b)(6) requires a showing of extraordinary circumstances. ... If cases are to
have finality, the operation of rule 60(b) must receive extremely meager scope. ... Rule 60 is to
litigation what mo ith-to-mouth resuscitation is to first aid: a life-saving treatment, applicable in
desperate cases.” Bowers v. Board of Appeals of Marshfield. 16 Mass. App. Ct. 29, 33 & n.5
(1983) (internal quotations and citations omitted).
II.

Smith’s Arguments for a New Trial
In convoluted and repetitive fashion in her Memorandum of Law and Facts (“Mem.”),

Smith advances numerous arguments to justify a new trial. Having carefully reviewed her

filings, I find no merit to her arguments. Although it is difficult to address all of the arguments

j

and characterizations in Smith’s papers,71 attempt to address the most significant arguments
Smith asserts as a basis for relief under Rule 60(b).
A.

Alleged Errors by Defendants’ Counsel

Smith argues that the 2010 Letter submitted to ASA was privileged, and not subject to a
defamation claim. Mem, at 1, 2, 3,4, 7, 8. She argues that her counsel, Edward Joyce, “failed to
perform even a cursory amount of legal research” regarding the privileged nature of the 2010
Letter to ASA, neglected to file an anti-SLAPP motion in a timely manner, failed to investigate
and argue that the ASA and Massaoit were under the jurisdiction of the U.S. Olympic Committee
and U.S. Board of Education, and neglected to argue that plaintiff‘s claim presented a federal
question that could not be decided in the state court.8 See Mem, at 2,4,16-19. These arguments
do not rise to the level of excusable neglect and do not present a basis for me to grant a new trial.
Smith contends that she was aware of these arguments and had requested her counsel to conduct
this research and file an anti-SLAPP motion “at the onset of this lawsuit.” Mem, at 16. She fails
to explain why, with full access to the public record, she failed to pursue the issue further, failed
to change counsel/ or otherwise seek recourse from the court.
9

7
Throughout her papers, Smith colorfully attacks plaintiff’s motives and his
counsel’s actions, describing the case, for example, as motivated by “malicious and vexatious
intentions,” “merrtless,” designed “to harass” and “to intimidate,” the product of “underhanded,
bad faith tactics,” an “abuse of process and malicious prosecution,” an “assault on our judicial
system,” and an “affront on not only Defendant’s physical, psychological and societal health but
on the overall health of the Public.” See Mem. at 1, 3, 4, 9. Smith’s unrestrained invective and
indignation adds no persuasiveness to her arguments.
8

Smith also seems to argue the Court erred in failing to dismiss the claim on a
defense assertion of privilege. Either way, the argument fails.
9

Smith concedes that she had “proposed thoughts of retaining the Boston law firm
of Todd and Weld to defend me instead.” Mem, at 18.

i

!

More to the point, there is no merit to Smith’s claim that her statements, if false (as found

;

by the jury), were not actionable. The First Amendment does not insulate a person from a valid
defamation claim. See, e.g., King v. Globe Newspaper Co., 400 Mass. 705, 708-209 (1987)
(“there is no constitutional value in false statements of fact”), quoting Gertz v. Robert Welch.
Inc., 418 U.S. 323, 339-340 (1974). Nor, as Judge Connors found, can Smith find protection in
the anti-SLAPP statute, even on her proposed additional evidence.10 The anti-SLAPP statute
protects a “party’s exercise of its right of petition,” which is defined to mean a statement
made before or submitted to a legislative, executive, or judicial
bod^, or any other governmental proceeding; ... made in
conjunction with an issue under consideration or review by a
legislative, executive, or judicial body, or any other governmental
proceeding;..., reasonably likely to encourage consideration or
review of an issue by a legislative, executive, or judicial body or
any other governmental proceeding;... reasonably likely to enlist
public participation in an effort to effect such consideration; or...
falling within constitutional protection of the right to petition
government.
G.L. c. 231, § 59Hj para. 1,6. The mere fact, if true, that at the time ASA was subject to the
U.S. Olympic Committee, or that Massasoit Community College was subject to U.S.
Department of Education regulations, does not render either organization a “legislative,
executive or judicial body,” nor has Smith cited any authority to suggest otherwise. The 2010
Letter did not address, nor was it designed to influence or precipitate, “any other governmental
proceeding.” Smith could not have fairly sought protection from tort claims arising out of the
2010 Letter under the anti-SLAPP statute. If Smith believes her counsel was negligent, she may

10

Much of plaintiffs proposed new information is well after the 2010 Letter. As
such, it says little about the organizational structure or regulatory oversight in place in 2010.
Even if it were considered as fairly suggesting what oversight existed in 2010, it would not
convert the ASA or Massasoit Community College into a governmental agency.

;

pursue a claim in that regard, but her arguments do not suggest the type of unique or
|

extraordinary neglect that warrants a new trial.
B.

Alleged Misconduct by Plaintiff or His Counsel

Smith argues plaintiffs counsel was able falsely to portray plaintiff as a victim who lost
his reputation in the community, but, in fact, he continued to participate in the community.11
Mem, at 3-4. Smith similarly claims plaintiff and his counsel provided insufficient evidence,
asserted things that jwere not true, and misconstrued or misrepresented the facts or inferences that
could be drawn from the facts. See generally, e.g., Id. at 3-4,13-15. Any facts in this regard
were known or knowable to defendants at trial and were or could have been brought out to the
jury. Indeed, defense counsel argued extensively that plaintiff had not suffered, or had failed to
prove that he had suffered, damages as a result of the defendants’ publication of the 2010 Letter,
argued that defendants (not plaintiff) should be deemed credible, and argued contrary inferences
that could be drawn from the evidence.
Smith argues the procedure of the trial was unfair because plaintiff called Smith as a
witness in plaintiffs case, forcing her to testify “against myself without being advised by
counsel that it was. my right under the 5th Amendment to refrain without penalty from testifying
for the Plaintiff.” Mem, at 6. This argument fails for a number of reasons.12 First, a plaintiff
may call an opposing party in the plaintiffs case-in-chief. See G.L. c. 233, § 22; Mass. R. Civ.
P. 43(b) (“A partymay call an adverse party...”). Second, the Fifth Amendment to the United
States Constitution does not bar a defendant from testifying for a plaintiff at trial. Instead, it

n
No; ably, Smith does not contend that any of this information constitutes newly
discovered evidence under Mass. R. Civ. P. 60(b)(2).
12

It is immaterial whether Smith claims this was misconduct by plaintiffs counsel,
a failing by her own counsel, or an error by the court to act sua sponte.
J
i

allows a defendant toot to testify in a civil case if doing so would tend to incriminate her with
respect to criminal,1 wrongdoing; and it generally would allow a fact-finder in a civil dispute to
i

draw an adverse inference against the defendant who so fails to testify. See, e.g., Lentz v.
Metropolitan Prop. & Cas. Ins. Co., 437 Mass. 23, 26 (2002). Here, Smith does not provide any
evidence to sugges: that her testimony would tend to incriminate her in any criminal conduct.
She simply has not shown any valid Fifth Amendment right not to testify.
Smith argues plaintiffs former counsel, Karen Bigley, testified as a witness for plaintiff,
while acting as an advocate for plaintiff during the trial in violation of an attorney’s ethical
obligations. See Mass. R. Prof. Cond. 3.7(a) (generally “lawyer shall not act as advocate at a
trial in which the lawyer is likely to be a necessary witness”).13 She argues Ms. Bigley was still
plaintiff’s lawyer c uring the trial because she took notes in the courtroom and was “sharing with
‘

i

Plaintiff.” Mem, at 6, 9, 15. The argument that Ms. Bigley was plaintiff’s advocate is factually
unsupportable and; does not justify relief. First, Ms. Bigley, who represented French before the
ASA, did not act as plaintiffs advocate in this case. At trial, plaintiff was represented by Ann
Pinheiro, as he was since 2013 when the case was filed. Ms. Bigley did not file an appearance in
the case. She made no statements to the jury (other than as a witness, testifying largely about her
familiarity with French and the ASA process), did not interrogate any witnesses, or otherwise
represent plaintiff before the Court. Notetaking, and talking with plaintiff, does not constitute
lawyering. Ms. Bigley simply did not act as an advocate in this case. Nothing in the ethical
rules barred Ms. Bigley, as plaintiff’s former counsel, from testifying at trial. Nor has Smith
demonstrated any reason to set aside the verdict even if a violation of the attorney ethical rules

13

Although Smith also cites to Mass. R. Prof. Cond. 1.9(b)(2), (c)(1), and (c)(2),
Mem, at 6, she provides no facts or argument to suggest that Ms. Bigley previously represented
anyone involved in the case other than French or that she transgressed any of these rules.

had occurred. She does not point to any way in which she was adversely impacted'byMs:
Bigley’s conduct during the trial.
I

Smith seeks a new trial under Rule 60(b)(3) with the argument that plaintiffs counsel
misled the court related to the motion to dismiss for improper venue, including by citing to G.L.
c. 223, § 13, and G. L. c. 260, § 32. Mem, at 10-13. From all appearances, the first statute is
inapplicable to this case. It deals with cases where the court finds that a party “cannot, by reason
of local prejudice or other cause, have an impartial trial in the county where the action or
proceeding was commenced.” G.L. c. 223, § 13. The second statute Smith says was cited in
error, G.L. c. 260, § 32, relates to the way in which an action may be refiled after being
dismissed.14 As an initial matter, Smith argues that the statute is inapplicable because the action
|

was not “duly commenced” within the time authorized under Chapter 260. This argument
misconstrues what; is required for tolling the statute of limitations. An action is commenced (and
the limitations period tolled) upon filing; service need not be completed within the limitations
period. See, e.g., Ahem v. Warner. 16 Mass. App. Ct. 223, 227 (1983). French filed this case in
Suffolk Superior Court on August 23, 2013, which was within the three-year limitations period
for tort actions. G.L. c. 260, § 2A. Even if the two statutes were inapplicable, the mere citation
of a inapplicable s

latute does not constitute misconduct, nor does it render the court’s decision to

transfer venue unlawful or an abuse of discretion.

14

G.L. c. 260, § 32, states: “If an action duly commenced within the time limited in
this chapter is dismissed for insufficient service of process by reason of an unavoidable accident
or of a default or neglect of the officer to whom such process is committed or is dismissed
because of the death of a party or for any matter of form, or if, after judgment for the plaintiff,
the judgment of any court is vacated or reversed, the plaintiff or any person claiming under him
may commence a new action for the same cause within one year after the dismissal or other
determination of the original action, or after the reversal of the judgment; and if the cause of
action by law survives the executor or administrator or the heir or devisee of the plaintiff may
commence such new action within said year.”

'

:

More importantly, in opposition to the motion to dismiss, plaintiff argued far more than

1

I

;

just citing the two statutes plaintiff claims are inapt, and Judge Fahey appears to have decided ■

the motion to dismiss (and transferred the case to Norfolk) on other grounds. Even if there were

1

merit to Smith’s arguments, and I find that there is not, all of the arguments she advances were
known or available, to Smith and her counsel for the entirety of this litigation. Smith never asked
Judge Fahey to reconsider her decision on defendants’ venue motion. Moreover, the issue of an
improper change of venue may be presented, on appeal. It can hardly be said to “be of such a
nature as to have prevented [Smith] from presenting the merits of h[er] case,” Mass. R. Civ. P.
60, Reporter’s Notes (1973), and is not a basis to set aside the jury’s verdict under Rule 60(b)(3)
for fraud or misconduct.
C.

Alleged Judicial Errors

Smith argues her anti-SLAPP motion was denied improperly. Mem, at 2. 3. I have
addressed this argument above. See, supra, at 8-10.
Smith argues that the Court erred in failing to provide the jury with a copy of the ASA
decision confirming plaintiff’s five-year suspension, which the jury requested during
deliberations. She contends the ASA decision was part of the record with her anti-SLAPP
motion, and therefore should have been provided to the jury in response to its inquiry. Mem. |at
4-5. This argument misapprehends how evidence is admitted during a trial. Much information
comes before the court prior to trial, which is never admitted during a trial. Only evidence

.

admitted during the trial may be put before the jury. The ASA decision was not admitted at trial
for good reason. There was no error in not providing the ASA decision to the jury on its request;
indeed, it may have been reversible error to have given the decision to the jury.

j

Smith argues “defamation by implication” was not explained to thejury, and therefore
the jury did not apply the law correctly to the question of whether the 2010 Letter was false and
defamatory when it implied that Mr. French was responsible for “thousands of dollars of missing
funds from the BayState Blaze organization.” Mem, at 7. 14. See Verdict Slip at 1 (Docket
#43.0) (Question 1 A). Smith cites no law in Massachusetts suggesting any separate standard for

J

a defamatory statement made by implication as opposed to one made directly. Thejury was
properly instructed on the applicable principles of law relevant to French’s defamation claim.
Thejury could have reasonably found based on the preponderance of the evidence that the
answer to Question 1A was “Yes.”
D.

Alleged Juror Errors

Smith argues at length that her intentions were good, that she had no doubt about the
truth of the statements in the 2010 Letter, and that she had “a moral and civic duty” to safeguard
the well-being of tne young girls interacting with plaintiff. See Mem, at 5, 8, 9-10. This
argument amounts ‘to a claim that the jury got it wrong, or that the jury should have found
defendants credible, should have found the statements in the 2010 Letter to be “opinions,” should
have concluded that those “opinions were protected under 1st amendment rights of free speech
and right to petition,” and should have found French did not suffer resulting damages. Mem, at
i

3, 5, 7, 8. I disagree. The jury was specifically instructed on the law regarding defamation and
the distinction between statements of fact and opinion. The jury’s decision finding certain
statements to have; been false and defamatory was sufficiently supported by the evidence.
Smith argxi'es that the jury “misunderstood preponderance of the evidence.” Mem, at 6.
Smith does not argue that there was any error in the court’s instructions on the standard of proof,
and does not challenge the principle that “[jJuries are presumed to follow the judge’s

instructions.” Commonwealth v. Imbert. 479 Mass. 575, 587 (2018). Instead, Smith essentially

I

|

argues the jury must have misunderstood the standard if it found against her.15 Again, I disagree.
!

There was nothing inconsistent in the jury’s verdict, as Smith suggests at Mem. 5, 6, 8. The jury
found that plaintiff had not proved false and defamatory the statement that plaintiff “said ‘she
could have raised $ ,500 lying on her back for one hour,”’ but found for plaintiff with respect to
the statement that “Mr. French has on numerous occasions referred to a lot of the girls in the
organization in a sexual manner ...” Compare Verdict Slip at 1, Questions IB and 1C (Docket
#43.0). There is nothing inconsistent between the first finding which relates to a statement as to a
single person (“she”), and the finding as to the second, which relates to statements “on numerous
occasions” and referring “to a lot of the girls in the organization.”
Smith also complains that the jury did not “reach their decision by clear and convincing
evidence” or find “actual malice.” Mem, at 7, 8, 9. The “clear and convincing” standard does
not apply in a civil! tort case, including one for defamation against a private person. See, e.g.
Massachusetts Superior Court Civil Jury Instructions § 6.2 at 6-2 (3d ed. 2018). Nor does malice
have to be proved outside the context of statements about public officials.
ORDER
Pro Se Defendant, Michelle J. Smith’s Motion for Relief from Judgment Pursuant to
Mass.R.Civ.P. 60(b)(l)(3)(4)(6) (Docket #64.0) is DENIED. In light of this ruling, plaintiffs
cross-motion to strike certain of defendant’s exhibits is DENIED as moot.

Dated: September 18, 2019

15

tf*eter B. Krupp/V///
Justice of the Superior Court

Throughout her papers, Smith argues the evidence was insufficient to support the
verdict. See, e.g., Mem, at 6-7, 8, 9, As I found in denying the motion for judgment
notwithstanding the verdict, and as I have indicated above, there was sufficient evidence to
support the verdict.

I
I

DOCKET NUMBER

CLERK'S NOTICE

t

Trial Court of Massachusetts
The Superior Court

1482CV00639

CASE NAME:

Walter F. Timilty, Clerk of Courts

Martin D French vs. Michelle J Smith et at

COURT NAME & ADDRESS

TO:

Ann M Pinheiro, Esq.
The Law Office of Ann Pinheiro, PC
One State St Suite 1500
Boston, MA 02109

t
5

Norfolk County Superior Court
650 Hiqh Street
Dedham, MA 02026

You are hereby notified that on 07/24/2018 the following entry was made on the above
referenced docket:
Endorsement on Motion for judgment not withstanding verdict (#44.0): After review, DENIED
(dated 7/24/18) notice sent dl

1

Judge: Krupp, Hon. Peter B

!
!

•t

*

/
/

;

\

i

DATE ISSUEO

/
/

ASSOCIATE JUSTICE/ ASSISTANT CLERK
i

07/24/2018

Hon. Peter B Krupp

App-^

i

\
\

\

SESSION PHONES

<

<v

COMMONWEALTH OF MASSACHUSETTS
NORFOLK, ss.

SUPERIOR COURT
Civil No. 14-639
MARTIN D. FRENCH
Plaintiff
vs.

MICHELLE J. SMITH, KEVIN F. FALL, WILLIAM AMEEN,
WILLIAM KAZANEK, JOSEPH KELLIHER,
KELLY DICKERMAN, DAVID DICKERMAN, SEAN REED,
JANET M. LAMBERT and SHARON M. HURLEY
Defendants

/
(

(

\
(

VERDICT SLIP
Defamation
1.

X

X

{

i
V.
(

(

No

“Mr. French... said ‘she could have raised $1,500 lying on her back for
one hour.’”
Yes

/

v

No

“Mr. French has on numerous occasions referred to a lot of the girls in the
organization in a sexual manner. He has stated with no basis that these
girls will become ‘strippers and pole dancers’, he has said that a few of the
13 year old girls will be pregnant by age 16, he has said that a few of the
girls ‘are already walking the streets’ doing unspeakable acts.”
Yes

C.

f
f

An implication that Mr. French was responsible for “thousands of dollars
of missing funds from the BayState Blaze organization.”
Yes

B.

<
(

Did Martin D. French prove by a preponderance of the evidence that any of the
following statements in the August 24,2010 letter were false and defamatory and
of and concerning Mr. French?
A.

(

(
t

1

No
(

D.

“Mr. French has also exposed himself, either knowingly or unknowingly,
to a lot of girls in the organization as well as other coaches and parents.”
Yes

X

No

(Ifyou answered “Yes ” to Questions 1A, IB, 1C or ID, please proceed to
Question 2. Ifyou answered “No, ” to Questions 1A, IB, 1C and ID, please
proceed to Question 6.)

i
t

1
x
i

V

2.

Did Martin D. French prove by a preponderance of the evidence each element of
the claim for defamation?
Yes

X

No

(Ifyou answered "Yes" to Question 2, please proceed to Question 3. Ifyou
answered "No, " please proceed to Question 4.)
3.

What amount of money will fairly and reasonably compensate Martin D. French
for the damages he sustained from the defamation you found in response to
Question 2?
Amount in figures:

$

Amount in words:
(Please proceed to Question 4.)

Intentional Infliction of Emotional Distress
4.

Did Martin D. French prove by a preponderance of the evidence each element of
the claim for intentional infliction of emotional distress?
Yes

No

(Ifyou answered "Yes" to Question 4, please proceed to Question 5. Ifyou
answered "No, ” please proceed to Question 6.)
5.

What amount of money will fairly and reasonably compensate Martin D. French
for the damages he sustained from the intentional infliction of emotional distress
you found in response to Question 4?
Amount in figures:

$

ZfriOD.

$3

/ (fd/krs

Amount in words:
(Please proceed to Question 6.)

m3<o

I

.**

1 '

V

I
\

Interference with Contractual or Prospective Advantageous Relations
6.

Did Martin D. French prove by a preponderance of the evidence each element of
the claim for interference with contractual or prospective advantageous relations?

t

<

Yes

No

i

(Ifyou answered "Yes" to Question 6, please proceed to Question 1. Ifyou
answered "No, "your deliberations are complete; please sign this document and
inform the court.)
7.

What amount of money will fairly and reasonably compensate Martin D. French
for the damages he sustained from the interference with contractual or prospective
advantageous relations you found in response to Question 6?
Amount in figures:
Amount in words:

\

(

v.

$

7&ro do/fif .S

<

I certify that the above are the answers of at least 5/6 of the deliberating jury (6 out of 7).

/
!

s

Date:
*

Time:

XT

[

\
\

f. ftzrocv) tUt

r>u

i

^

Ca UA/

cL^cL

rV\

&dJbi:o'Sl*( to ^ Cx<MCKy^f-

Ants' ^3

h

'I

cs

H

(Xv/hc'^, #31?

^ mzr*

1

<

gfe AdJ.'f:cv.fi f ^ ^

m
!

j

V

r

COMMONWEALTH OF MASSACHUSETTS
NORFOLK, ss.

;

SUPERIOR COURT
Civil No. 14-639
MARTIN D. FRENCH
Plaintiff
vs.

(
(

MICHELLE J. SMITH, KEVIN F. FALL, WILLIAM AMEEN,
WILLIAM KAZANEK, JOSEPH KELLIHER,
KELLY DICKERMAN, DAVID DICKERMAN, SEAN REED,
JANET M. LAMBERT and SHARON M. HURLEY
Defendants

(

JURY INSTRUCTIONS

\_

(
r

c

■4!

(
4

V

My instructions will be in three parts: (1)1 will give you some instructions

f
(

that apply to most civil jury cases; (2) I will instruct you about the law specific to

(

V

this case, that is, what the plaintiff must prove to make his case; and (3) I will

(
<

provide guidelines for your deliberations.

I
<

I.

GENERAL INSTRUCTIONS

(
s

A.

Role of the Participants

First, a reminder of our different roles. My job has been to see that this trial
was conducted fairly. I ruled on what you may consider as evidence, and now I

t

(
{

t

t
instruct you on the law. You must follow the law as I state it to you, whether you
agree with it or not. You should consider my instructions as a whole. You may

i

1
i

not ignore any instruction, or give special attention to any one instruction.
j

/

App 3$

The lawyers’ role is to present evidence to you. They also are supposed to
object when the other side offers evidence that that lawyer believes was not
admissible under our rules of evidence. You should not hold it against any party
that an attorney objected to any question. Nor should you be influenced by my
ruling on any objection.
Your function is to decide the fact issues in this case. You decide what
evidence to believe and how important any evidence is that you do believe. You
also decide what conclusions to draw from all the evidence.
You must fairly consider the evidence and decide the case based on the
evidence. You must be completely fair and impartial, and may not be swayed by
prejudice or sympathy, by bias or anger. As I told you during jury selection on
Monday, everyone has feelings, assumptions, perceptions, fears and stereotypes
that we may not be aware of that are sometimes referred to as “implicit biases.”
These hidden thoughts can impact what we see and hear, how we remember what
we see and hear, and how we make important decisions. You are not to decide the
case based on “implicit biases.” You must evaluate the evidence carefully to resist
jumping to conclusions based on personal likes or dislikes, generalizations, gut
feelings, prejudices, sympathies, stereotypes, or biases. You must not be
influenced by the nature of the claims or by personal likes or dislikes toward either
side. The law demands that you return a just verdict based solely on your

evaluation of the evidence, your reason and common sense, and my legal

I

instructions.
I have no opinion about how you should decide this case. If you believe I
have an opinion about the facts of this case, you must disregard it.

i\
i

B.

What is Evidence
1.

Forms of Evidence

To decide the fact issues in the case, you should consider all the evidence
that was presented to you. But what exactly counts as evidence? Just three things:

{

(
(
(\

(

1.

The witnesses’ answers to questions asked by the lawyers and
presented to you here in court;

2.

The exhibits, that is, the documents that I admitted; and

3.

The factual stipulations of the parties, and as to the stipulations, you

(
f
(
(

f
(
(

will take the stipulated facts as true.
Here are things that are not evidence:
1.

Your guesses, suspicions, and gut-feelings are not evidence.

2.

Any information that you heard about the case outside of the

1
\
i

courtroom is not evidence.
3.

My instructions to you and any other comments I made are not
evidence.

(
*
<

4.

Answers that I struck from the record or told you to disregard are not
evidence.

5.

The lawyers’ opening and dosing statements and any comments they
may have made are not evidence.

6.

Any item that was not admitted as an exhibit is not evidence.

7.

Finally, any notes you took are not evidence. They are just an aid to
your memory.

When you think about the evidence you have seen and heard, you must
decide what to believe and how much weight to give it. When I refer to the weight
of the evidence, I mean its importance or persuasive force. The law does not give
i

witness testimony greater or lesser weight than exhibits.
As you try to remember what each witness said, your memory of it might be
different from the lawyers’ -- that is, what a lawyer might have said in closing
argument. If this happens, you must follow your memory of the evidence.
2.

Direct and Circumstantial Evidence

We can think about evidence in two other ways -- what we call direct and
circumstantial evidence. When a witness testifies about something that he or she
*

saw or heard, that is direct evidence. If a witness says she saw a mailman put mail

in her mailbox, this is direct evidence that a mailman delivered her mail. With

\

i

direct evidence, you have to decide if you find the witness’ testimony credible.
t

i

t

!

I

The other type of evidence is called indirect or “circumstantial” evidence. If
a witness says that she saw her mailbox empty when she left the house and full of

(
(

mail when she came home, this is indirect evidence the mailman delivered mail. It
{

is indirect because she did not actually see or hear him deliver it. You have to

(

infer the mailman came from other information. With indirect evidence, you have

(

to decide two things: (i) whether you find the witness’ testimony credible, and (ii)

(
(

whether you draw an inference from that testimony.
With indirect evidence, you can reach the same conclusion as with direct
evidence, but you have to make an inference — or draw a conclusion ~ to get there.

(
(
(
(

f

Many people think indirect evidence is weaker than direct evidence. This is not

{
(

true. It makes no difference whether evidence is direct or indirect to establish the
facts of a case. Both types of evidence can be used to prove a fact issue in dispute.

(
(
(

You may make an inference - or draw a conclusion — even if it is not

(
(

necessary or inescapable, so long as it is reasonable and warranted by the evidence.
Any inferences or conclusions you draw must be reasonable based on your
common sense. If you need to use surmise, conjecture or guesswork to reach an

(
/
\

inference, then you are prohibited from making the inference.
3.

Assessing Witness Credibility

So how are you to analyze the evidence? In deciding a case, you have to
decide which witnesses to believe - or to believe in part - and how much weight to

C
(
{

l

Afpyz

I

give their testimony. You may believe everything a witness said, some of it, or
none of it.
You bring all your common sense to jury service. You should use it in
evaluating the evidence. You may consider the probability or improbability of the
witness’ testimony. You may ask yourself whether the witness had a reason to lie
or whether the witness could be affected by the outcome of the case and be
influenced by that. Simply because a witness has an interest in the outcome of the
case does not mean the witness is not trying to tell the truth as he/she recalls it, but
a witness’ interest in the case is a factor you may consider in deciding whether the
witness is telling the truth. Sometimes it may be how a witness testifies that might
give you a clue about whether to accept that witness’ testimony.
You may also consider whether a witness made an earlier statement different
from his/her in-court testimony. The earlier statement is admitted solely for you to
evaluate the witness’ credibility or believability. If you find that a witness’ earlier
statement is different from a statement the witness made in court, you may decide
the witness’ credibility or believability is or is not affected, but that is the only
purpose for which you may use the earlier statement. You may not consider the
earlier statement as proof of the truth of any fact in the earlier statement.
Inconsistencies in the testimony of a witness, or between different witnesses,
may or may not cause you to discredit the testimony of one or more witnesses. But

I

<

I

remember, people may forget things or get confused or remember an event
differently. In weighing such discrepancies, you should consider whether they
involve important facts or only minor details.
You are not required to accept a witness’ testimony even if that testimony is
uncontradicted. You may decide such testimony is not worthy of belief because of
the witness’ bearing and demeanor, the inherent probability or improbability of his
or her testimony, or for other reasons sufficient to you. Or, if you are satisfied that
some or all of a witness’ testimony was credible, you may accept that testimony
and consider it, along with all of the other evidence.
C.

Burden of Proof

Now I will talk about the burden of proof, that is, what the plaintiff must do
to succeed in this case. Because this is a civil case, the plaintiff has the burden to

i
t

f
i
(
(
(
<
<
(
(
(
(

prove his claim by a preponderance of the evidence. To establish a preponderance
(

of the evidence means to prove that something is more likely so than not so; more

(
{

likely true than not true. As I told you on Monday, the standard of proof beyond a

(

reasonable doubt is a higher standard that applies only in criminal cases. It does
not apply in a civil case like this one. Here, plaintiff must prove the elements of
each of his claims by a preponderance of the evidence, that is, he must show that
each element is more likely true than not true.

f
(

r

<
t

!

I
You have probably seen Lady Justice, holding the scales. The plaintiff must
provide proof that is

convincing enough to tip the scale, however slightly, toward

the plaintiffs version of the facts in your eyes. For example, on any of plaintiff s
claims, if the scale tips towards the plaintiff on the claim even a little bit, then he
T-

has proven the claim by a preponderance of the evidence. If, however, the scales
remain exactly balanced, or tend toward the defendant’s side at all, then the
plaintiff has not proven the claim by a preponderance of evidence.

IL

a gi7.spr.cinr instructions
I will now

The

turn to the instructions on the specific claims you must decide.

plaintiff, Martin French, brings claims against the defendants for defamation,

intentional infliction of emotional distress, and interference with contractual or
prospective advantageous relations. Each claim is brought against each of the
defendants individually, but the parties agree as to each claim that if any one
defendant is

found liable, then all will be liable. I will now describe the elements

of each claim.
A.

Defamation

Mr. French brings a defamation claim against the defendants based on the
letter of August 24,2010, which was admitted as Exhibit 1. Specifically, he
contends that the following statements in that letter were defamatory: (i) the
implication that he was responsible for thousands of dollars of missing funds from

I

the Bay State Blaze organization; (ii) the statement that “Mr. French has on
numerous occasions referred to a lot of the girls in the organization in a sexual
manner. He has stated with no basis that these girls will become ‘strippers and
pole dancers’, he has said that a few of the 13 year old girls will be pregnant by age
16, he has said that a few of the girls ‘are already walking the streets’ doing

>
(

unspeakable acts.”; (iii) the statement that “Mr. French ... said ‘she could have

(
(

raised $1,500 lying on her back for one hour.’”; and (iv) the statement that “Mr.
French has also exposed himself, either knowingly or unknowingly, to a lot of girls
in the organization as well as other coaches and parents.”

(
(
(
f

To prove a claim for defamation, Mr. French must prove by a preponderance
of the evidence each of the following three elements:
1.

2.

f\

One or more of the defendants published a false and defamatory

(

statement (or statements) of and concerning the plaintiff to a

(

third party;

(
/

The defendant (a) knew that the statement was false; (b) acted

(
(

in reckless disregard as to whether the statement was tme or
false; or (c) acted negligently in failing to ascertain whether the

(

t

(

V

statement was true or false before publishing it and the
statement was not conditionally privileged; and

(

K
{ '

3.

The defamatory statement either caused the plaintiff economic
loss or was of the type that is actionable without proof of
economic loss.

I will instruct you on each of these elements.
As to the first element, to prove the statements were “published,” the
plaintiff must prove that a defendant communicated the statements to some thirdparty other than the plaintiff. There is no requirement that the statements be
communicated to a large number of people. A person who republishes a
defamatory statement without privilege is just as liable as if he had originally
published it. The defendant need not be the actual person who publishes the
statement. It is enough that the individual defendant made the statement with the
intention that another person would publish the statement, and the statement was
actually published by the other person.
A statement is “defamatory” if it tends to hold the plaintiff up to scorn,
hatred, ridicule, or contempt - or otherwise discredits the plaintiff - in the minds of
any considerable and respectable segment of the community. The statement can
also be defamatory if it tends to so harm the reputation of the plaintiff as to lower
him in the estimation of the community or to deter third persons from associating
or dealing with the plaintiff. In making this determination, the statement must be
interpreted in light of the totality of the circumstances in which it was made and

I

!
<
(

the common sense meaning that the statement generally conveys. Strained and
unnatural interpretations of statements do not make a statement defamatory. As

\

such, you should consider all of the words used, not merely a particular phrase or
sentence. You may also consider whether individuals who read the statement

f
(

interpreted it to be defamatory.

(

A statement is false if in substance it is not true. If you find that the
jendant-has proved to you by a preponderance of the evidence that the
defamatory statements of and concerning the plaintiff are true or substantially true,
then this constitutes an absolute defense and you must return a verdict for the

\

<
(

<
i

defendant. A false statement is generally one that would have a different effect on
the mind of the reader from that which the truth would have produced. As a result,

l.
(

minor inaccuracies do not constitute falsity if the substance or the gist of the

v

statement is true.

v

(
/
(

Mr. French must also show that the defendant’s statements were “of and
concerning” him. Mr. French may show that the statement was “of and

t

v
(

concerning” him by proving either: (1) the defendant intended his/her words to
t

refer to the plaintiff and that they were so understood by a third person other than

i

i.

l

the plaintiff; or (2) the defendant’s words could reasonably be interpreted to refer
to the plaintiff, and the defendant was negligent in publishing the words in a way
which could reasonably have been interpreted to refer to the plaintiff.

App 4?

i

i
i

Defamatory statements of fact may be actionable, but pure opinions are not.
The law does not allow recovery for merely stating one’s opinion, regardless of
how ridiculing, contemptuous, derogatory or unjustified the opinion may be.
Under the First Amendment, there is no such thing as a false opinion.
You must decide whether the statement at issue is one of fact or opinion. In
making this determination, you must examine the statement in the totality of the
circumstances in which it was published. This includes whether the statement is
verifiable; and the medium in which the statement appeared and the audience to
which was directed. You must consider all of the words used, not merely a
particular word, phrase or sentence. You should also consider any cautionary
terms used by the defendant in publishing the statement. The context of the
statement is important because a statement of fact in one context can be a
statement of opinion in another.
For example, where potentially defamatory statements are published in a
setting in which the audience may anticipate efforts by the parties to persuade
others as to their position by the use of epithets, fiery rhetoric or hyperbole,
language which generally might be considered as statements of fact may be seen as
statements of opinion. It is for you to decide if the statement can reasonably be
construed as a statement of fact in light of all the circumstances.

Defamatory statements of fact may be actionable, but pure opinions are not.
The law does not allow recovery for merely stating one’s opinion, regardless of
how ridiculing, contemptuous, derogatory or unjustified the opinion may be.
Under the First Amendment, there is no such thing as a false opinion.
You must decide whether the statement at issue is one of fact or opinion. In
making this determination, you must examine the statement in the totality of the
circumstances in which it was published. This includes whether the statement is
verifiable; and the medium in which the statement appeared and the audience to
which was directed. You must consider all of the words used, not merely a
particular word, phrase or sentence. You should also consider any cautionary
terms used by the defendant in publishing the statement. The context of the
statement is important because a statement of fact in one context can be a
statement of opinion in another.
For example, where potentially defamatory statements are published in a
setting in which the audience may anticipate efforts by the parties to persuade
others as to their position by the use of epithets, fiery rhetoric or hyperbole,
language which generally might be considered as statements of fact may be seen as
statements of opinion. It is for you to decide if the statement can reasonably be
construed as a statement of fact in light of all the circumstances.

exchange of relevant information among those engaged in a common enterprise or
activity and permit them to make appropriate internal communications and share
consultations without fear of suit. A common interest does not encompass a
general interest such as safety across an entire industry. The burden is on the
defendants to prove by a preponderance of the evidence that any statements you
find to have been false and defamatory were conditionally privileged.
If the defendants demonstrate their statements were conditionally privileged,
the burden shifts back to the plaintiff to prove by a preponderance of the evidence
that the conditional privilege was lost. A conditional privilege may be lost if the
defendant abused the privilege by (1) engaging in an unnecessary, unreasonable, or
excessive publication of the defamatory statement; (2) publishing the defamatory
statement knowing it was false or with reckless disregard for its truth or falsity; or
(3) publishing the defamatory statement with actual malice. “Malice” means the
defamatory statement was not published in furtherance of the common interest
which created the conditional privilege, but out of some base ulterior motive,
intending to injure the plaintiff.
If you find the defendants’ statements were conditionally privileged, and that
the conditional privilege was not lost in any of the ways I have described, then you
shall find for defendants on the defamation claim. If you find that no conditional

Af^i

\

i

i

I
privilege existed, or that a conditional privilege applies but has been lost in one of
the ways I have described, then you must consider the third element of damages.
As to the third element, Mr. French must prove by a preponderance of the
evidence that the defamatory statement either caused him economic loss or was of

1
(

the type that is actionable without proof of economic loss. Statements that are

(
r

*

actionable as defamatory without proof of economic loss include statements that
i

are false or defamatory that were made in writing, statements that charge a plaintiff
with a crime, statements that allege a plaintiff has certain diseases, and statements

(
!V
(

that may prejudice a plaintiffs profession or business. If the defamatory statement

(

falls into one of these categories, the plaintiff may recover non-economic losses.

K

If you find the plaintiff has proven each of these elements that I have
described for you, Mr. French is entitled to recover money damages. The purpose

(
(
/
(

of money damages is to compensate a plaintiff for the actual loss caused by the
wrong of another. Thus, in order to obtain damages, Mr. French must prove to you
by a preponderance of the evidence that he suffered actual injury as a result of the
defendant’s defamatory statement(s). Actual injury includes not only out-of-

\
t

(
!

pocket loss, but also impairment to the plaintiffs reputation and standing in the

>
I

community, emotional distress, personal humiliation, shame and disgrace, and
mental suffering caused by the defamation.

{

\
i
1

1
If the plaintiff proves by a preponderance of the evidence that he suffered
specific losses having an economic value, he is also entitled to recover for those
additional special damages. Special damages may include the loss of an existing
advantage, such as wages from a job, employment benefits, or business clients. It
may also include loss of a future advantage, such as an inability to get a new job.
The plaintiff must prove that the defamatory publication was a cause of these
economic losses. In other words, the plaintiff must prove that but for the
defamatory publication, the plaintiff would not have suffered these losses.
You may not award damages to the plaintiff to punish the defendant. You
must consider what amount of money would be full, fair and reasonable based on
all the evidence. As a result, you should award damages only for harm caused by
the defendant’s wrongful conduct, and damages should not be duplicative. The
amount of damages should be based on just and reasonable inferences, even though
there may be an element of uncertainty in your determination.
B.

Intentional Infliction of Emotional Distress

Mr. French brings a claim of intentional infliction of emotional distress
based on the distribution of defamatory statements in the letter of August 24,2010.
If Mr. French has failed to prove by a preponderance of the evidence that the
August 24,2010 letter contained defamatory statements, you will not reach this

!
V

claim. To prove a claim for intentional infliction of emotional distress, Mr. French
must prove by a preponderance of the evidence the following four elements:
1.

One or more of the defendants either intended to inflict
emotional distress or knew or should have known that
emotional distress was likely to result from the defendant’s

(
(
(

2.

conduct;

(

The defendant’s conduct was extreme and outrageous, was

(

beyond all possible bounds of decency, and was utterly

I

(
<

intolerable in a civilized society;
(

3.

The defendant’s conduct caused plaintiff emotional distress;
(

and
4.

(

Plaintiffs emotional distress was severe and of a nature that no
reasonable person could be expected to endure it.

(
(
/
(

These elements are fairly clear, but a few warrant some explanation.
To prove the first element, Mr. French must prove that one or more of the
defendants either acted with the desire or knowledge that emotional distress would

(
{

1

i
result from their conduct or should have known that their conduct would cause Mr.

<
«

French to suffer emotional distress.
“Extreme and outrageous” conduct is more than just workaday insults, hurt
feelings from bad manners, annoyances, or petty oppressions. “Outrageousness”

O

H

i
{

means a high order of recklessness, ruthlessness or deliberate malevolence. As
such, “extreme and outrageous” encompasses particularly reprehensible conduct.
What is extreme and outrageous is for you to consider given all of the facts. For
instance, outrageous behavior may be found by a repeated series of incidents, or a
pattern of conduct, even if those incidents, when taken individually, might not be
sufficiently extreme. Also, conduct otherwise reasonable may give rise to liability
when it is directed at a person known to the speaker to be particularly susceptible
to emotional distress because of some physical, emotional, or other vulnerability.
The defendant’s conduct can be said to cause the plaintiffs emotional
distress if the emotional distress would not have occurred absent the defendant’s
conduct. In other words, if the plaintiffs emotional distress would have happened
anyway, the defendant is not liable. It is not necessary for the party bringing a
claim for intentional infliction of emotional distress to prove that physical injury
resulted from the severe emotional distress.
If you find the plaintiff has satisfied each element of the claim for intentional
infliction of emotional distress, you must consider the issue of damages. Damages
are awarded to provide the equivalent in money for the actual loss caused by the
wrong of another. You must consider what amount of money would be full, fair
and reasonable compensation for the emotional distress suffered based on all the
evidence, no more and no less. The amount of damages should be based on just

and reasonable inferences, even though there may be an element of uncertainty in
your determination.
C.

Interference with Contractual or Prospective
Advantageous Relations

t
f

Mr. French claims in this case that he had an existing contractual
relationships with Massasoit Community College and with the Amateur Softball
Association, and that he had prospective advantageous business relations with
them and others; and that the defendants improperly interfered with their

s

t
f
/

performance of their obligations under those contracts and interfered with Mr.
f

French’s prospective advantageous relations. To prevail on this claim, Mr. French
must prove the following four elements by a preponderance of the evidence:
1.

Plaintiff had a binding contract or a prospective business

(
(

relationship with another entity;
(

2.

One or more of the defendants knew about the contract or
i

prospective business relationship, and intentionally induced or
persuaded the other entity not to perform its obligations under

/
(

that contract, or not to enter into or continue the prospective
i

relationship, or prevented the plaintiff from acquiring or
continuing the prospective relationship;
3.

The defendant’s interference with the other entity’s
performance of its obligations, or interference with plaintiffs

!

I
t

1
J
s
t

4.

prospective business relationship, was improper in motive or in

!

means; and

I

Plaintiff was harmed as a result.

The plaintiff must prove by a preponderance of the evidence that he and a
third party had a valid contract in force and effect at the time of the actions
complained of, which contract was breached by the third party due to the
defendant’s conduct; or that there were prior dealings between the plaintiff and a
third party from which the plaintiff had a reasonable expectation of future
economic benefit.
A contract is simply an agreement between two or more persons, called
“parties,” to do or not to do a certain thing for “consideration”, or a thing of value.
Mutual promises to do or not to do a certain thing in the future are sufficient
consideration for each other. For example, an agreement to employ a person for a
particular purpose at a particular salary or wage is a contract.
A contract may be oral or in writing. It may also be express or implied. An
“express contract” is one actually stated or written in words. An implied contract
is one which is not expressly stated but which, from the sense of the agreement as a
whole, or the parties’ actions, was intended by the parties to be a contract. A
contract is considered to be in full force and effect if, at the time in question, the
agreement was in effect between the parties.

L

i

To show the reasonable expectation of a “prospective business relationship,”
the plaintiff must show the expected benefit with some degree of specificity,
demonstrating that it was a realistic expectation, but need not show reasonable
expectation of future economic benefit with certainty because prospective things that is, things to occur in the future - are necessarily uncertain. The law requires
more than a mere hope or optimism; what is required is a reasonable likelihood or
probability.
In determining whether a defendant acted improperly in interfering with any
contractual relationship or prospective business relationship that the plaintiff
enjoyed or reasonably expected, you should weigh both the defendant’s motive and
the means the defendant used to interfere. The plaintiff need only establish either
improper means or improper motive, not both, to sustain a claim for intentional
interference with contractual relations. In determining whether the motive or the
means was improper, you may consider (i) the nature of the defendant’s conduct,
(ii) the defendant’s motive, (iii) the interests of the third party with which the
defendant’s conduct interfered, (iv) the interests the defendant sought to advance,
(v) the social interests in protecting the freedom of the defendant and the
contractual interests of the other, (vi) the proximity or remoteness of the
defendant’s conduct to the interference, and (vii) the relation between the parties.

!

i

These factors are not determinative on their own and should be considered in light
5

of the specific circumstances.
If you find for the plaintiff on this claim, you may award the plaintiff
damages to compensate him for the profits or financial benefit he lost, if any, by
reason of the defendant’s conduct. In arriving at such a figure, you may consider
the plaintiffs past earnings in his business, together with all other evidence
concerning the general economic and competitive conditions that you find have a
bearing on the issue of lost profits. Such damages must be proved by a
preponderance of the evidence and may not be speculative in nature.
in.

CTO SING INSTRUCTIONS
Now I am about to submit the case to you so let me say a few words about

your deliberations. I know that I do not need to remind you that you have an
important responsibility.
Because this is a civil case, you are not required to reach a unanimous
verdict. All jurors need not agree. Whatever verdict you reach in this case must be
agreed to by at least 5/6* of the jury, which in this case is at least 6 of the 7 of you.
The same 6 jurors need not agree on each of the questions, but at least 6 of you
must agree on each question to reach a verdict.
You will be given a verdict slip specifying the questions that you must
answer. Each question must be considered separately, [verdict slip explained]

1

1

Your first job as a jury is to select a foreperson. The foreperson is a juror
f

like all of you with the same voice and the same vote except that she or he will also
act as a facilitator of your discussions and will speak for you in court. It will be the
foreperson’s responsibility to complete the verdict slip and to sign it once the jury
(

has reached a verdict
(

You should not start deliberations until you are all together in the jury room,
and should stop deliberating if any juror is not present in the room. You should not

(
<

communicate with anyone outside the jury room about the deliberations or about

<

anything concerning this case. There is one exception: if it becomes necessary

f

*

during your deliberations to communicate with me, you may send a note through
the court officer to me, signed by the foreperson, listing the time of the note. I will

t

(

t

consult with the attorneys regarding the appropriate response and will then respond
(

back to you. If possible, while you are waiting, please continue your deliberations.
t

No member of the jury should try to communicate with me except through a
signed note. If you do send me a note, do not disclose anything to me about the
content of your deliberations. Specifically, do not disclose to me (or to anyone)

t
t
1

«

(

how the jury stands, numerically or otherwise, until you have reached a verdict.

1
t

After you have reached a verdict, let the court officer know that you have
done so and he will bring you into the courtroom to announce it.

(
1
i

i

Now before you begin to deliberate I want to say a final word to you about
your process. I suggest you approach this task with mutual respect for your fellow
jurors; that you listen to each other’s views, and do not be afraid to change your
opinion if the discussion persuades you that you should. At the same time, each of
you must decide this case for yourself, so you should not surrender your honestly
held conclusions simply to arrive at a verdict.
Jury deliberations are not the time to be shy. They are not the time to be
overbearing. You have all heard the same evidence. You have all taken the same
oath. Bear in mind that you are not partisans, and you are not advocates. You are
the judges of the facts and that is a truly awesome responsibility.

Peter B. Kruj^V
Justice of the Superior Court

Dated: June 15,2017

Aff fcl
i

1

■ -s
yo*

*1

■W

EXHIBIT B
COMMONWEALTH OF MASSACHUSETTS
NORFOLK, ss

SUPERIOR COURT DEPARTMENT
CIVIL ACTION NO. 1482CV00639

MARTIN D. FRENCH,
PLAINTIFF
V.
MICHELLE J. SMITH, KEVIN F. FALL,
WILLIAM AMEEN, WILLIAM KAZANEK,
JOSEPH KELLIHER, KELLY DICKERMAN,
DAVID DICKERMAN, SEAN REED, JANET
M. LAMBERT, SHARON M. HURLEY, and
JOHN/JANE DOE,
DEFENDANTS

RECEIVED & TILED
CLERK OF THE COURTS
NORFOLK COUNTY

MEMORANDUM OF DECISION AND ORDER ON DEFENDANTS
SPECIAL MOTION TO DISMISS ALL COUNTS OF PLAINTIFF’S COMPLAINT
PURSUANT TO THE ANTI-SLAPP STATUTE, G. L. c. 231, § 59H
This action arises out of complaints made by the defendants, a group of parents whose
children play on the BayState Blaze softball team, against the team’s coach, the plaintiff Martin
French. The plaintiff brings claims for slander, intentional or reckless infliction of emotional
distress, intentional interference with advantageous and contractual business relations, and
interference with prospective business relationships. The matter is currently before the Court on
the defendants’ special motion to dismiss all claims alleged against them under the
Massachusetts Anti-Strategic Litigation Against Public Participation (anti-SLAPP) statute,
G. L. c. 231, § 59H, and for leave to file an affidavit for attorney’s fees.
After a hearing, and for the reasons set forth below, the special motion to dismiss is
Denied.

EXHIBIT B
Legal Standard

“

The Massachusetts anti-SLAPP statute, G. L. c. 231, § 59H, is directed at ‘“meritless
suits’ that use litigation to ‘intimidate opponents’ exercise of rights of petitioning and speech.”
Vittands v. Sudduth, 49 Mass. App. Ct. 401,413 (2000), quoting Duracraft Corp. v. Holmes
Products Corp., 427 Mass. 156, 161-64 (1998). To prevail on such a special motion to dismiss,
the moving party “must make a threshold showing through pleadings and affidavits that the
claims against it are based on the petitioning activWesalone and have no substanttef-basfe~other than or in addition to the petitioning activities.” Fustolo v. Hollander, 455 Mass. 861, 865
(2010). If the movant is able to make such a threshold showing, the burden shifts to the
nonmoving party to show, “by a preponderance of the evidence, that the special movant’s
petitioning activity was devoid of any reasonable factual or legal support and that it caused the
nonmoving party actual injuiy.” Cardno ChemRisk, LLC v. Foytlin, 476 Mass. 479,484 (2017).
If the nonmoving party cannot make such a showing, it may still meet its burden and defeat the
special motion to dismiss by demonstrating that each of its claims were not brought “to chill the
special movant’s legitimate petitioning activities” but rather to seek damages for personal harm
caused by the movant’s actions. Blanchard v. Steward Carney Hospital, Inc., All Mass. 141,
160(2017).
Factual Background
The following facts are alleged in the plaintiffs complaint. The plaintiff worked as a
youth softball coach/trainer and manager of the Bay State Blaze Softball Organization, as a
softball coach for Massasoit Community College (Massasoit), and as a private trainer in pitching
for minors and adults. In August 2010, the defendants sent a letter to the Massachusetts Amateur

%M

EXHIBIT B
icemi

laintm.

submitted a complaint to the Massachusetts Attorney General’s Office concerning thousands of
dollars of missing funds from the Bay State Blaze organization. Further, it detailed several
occasions in which the plaintiff allegedly had made sexual remarks to the players on the team and
had bullied them. A copy of the letter was also sent to Massasoit, to the National Softball
Associations, and to the National Junior Athletic Association. As a result of the allegations made
in the letter, the plaintiff lost his position as Massasoit as well as his other employment and
volunteer positions coaching softball.
Ruling
The defendants contend that the letter they sent to the ASA and to other organizations
about the plaintiffs interactions with the players on the team constitutes petitioning activity and
therefore, that claims against them based on the letter are subject to dismissal under the
anti-SLAPP statute. The plaintiff asserts that the special motion to dismiss should be denied
because it is untimely.
A special motion to dismiss may be filed of a right under the anti-SLAPP statute within
sixty days of the service of the challenged claims. See G. L. c. 231, § 59H. A court, however,
has discretion under the statute to allow such a motion to be filed “at any later time upon terms it
deems proper.” Id. The purpose of § 59H is to permit anti-SLAPP suits to be “resolved quickly
with minimum cost” by establishing “a procedural remedy for early dismissal.” Duracraft, All
Mass, at 161. Such a motion was designed to be heard before discovery is completed. 0 ‘Gara
v. St. Germain, 91 Mass. App. Ct. 490,494 (2017).

EXHIBIT b
—-defendantslanti-SI^APp

“motion was filed
over three years after the
plaintiff ft Je<j his
complaint and after the close of discov
eiy. Both parties have
endured the expense of Iitiga(ion
over the last three years since thi
is case was filed, and as such, the allow
ance of such a late
motion in this case would not se
rve the policy underlying th
e statute. Nevertheless, the
defendants argue that the Court sho
old allow their late motio
n, contending that the Supreme
Judicial Court ’s recent decision, Cardno Che
mr*sk> LLC v. Foytlin, 476 M
ass. 479(2017),
changed the law b
7 expanding the anti-SLAPP statute’
s scope of petitioning activities such that
the letter now falls within the
protected activity under the statute.
The Court disagrees.
Petitioning activity under G.
L- c. 231, §59H, includes:

legisIativnSutiv"!^ °r Submitted

a

proceeding; [2] any written or oral statement ajly,oAer governmental
an issue under consideration or review bv” ,m®dfIn connection with
judicial body, or any other governmental nrn eJSatlve> executive, or
reasonably likely to
^ Went
a legislative, executive, orjudickhZT30 °rreviewof an issue by
proceeding; [4] any statern^
participation in an effort to effect ' ,°nably ,,kely to enlist public
statement falling wiuTcSS
petition government.
In Cardno Chemrisk, LLC,

Protection of the right to

(he Supreme Judicial Court considered whether a blog posting by

environmental activists which criticiz
assessed the effects of an oil spill

ed the past activities of a sci
scientific consulting finn that had

constituted petitioni
omng activity under the statute.
The Court,
noting that the blog posting was intended to i
influence governmental bodi
ies by increasing the
amount and changing the tenor
of coverage regarding the envi
ronmental conse quences of the oil
spiH, ruled that it qualified
as pelitloninS activity under the anti-SLAPP
statute because it was a
statement reasonably likely t
0 enl,sl Pubhc participation.”
id. at 485-486; See G.
L- c. 231,

Ap f

exhibit b

§ 59H. Such an interpretation provided no fundamental change in governing law that would
warrant a late filing in the factual circumstances at issue in the ins,,,,, case.
Even if this Court were to consider this late-filed motion, it would fail on the merits. The
letter to the ASA did not constitute petitioning activity alone because it was not made to
influence, inform, or reach, either directly or indirectly, governmental b
477 Mass, at 149. The ASA and the other organizations the letter was

odies. See Blanchard,

sent to, including the

plaintiff s employer Massasoit, are not legislative,
:, executive, or judicial bodies-and-the letter was
not submitted to effect consideration in any other governmental action. For that reason, the letter
cannot properly be considered petitioning activity within the meaning of § 59H.
Chemrisk, LLC, supra at 485-486; Blanchard, All Mass, at 151

See Cardno

-152 (e-mail message sent from

hospital president to employees had no plausible nexus to hospital’s efforts to sway a
government licensing agency).
To the extent that the complaint to the Attorney General's Office regarding the finances
of the Bay State Blaze could be considered apart and independently from the lette
not be subject to dismissal under the anti-SLAPP statute,

r, it still would

It is true that the defendants’ complaint

to the Attorney General’s Office falls squarely within § 59H

s definition of petitioning activity.

However, under the anti-SLAPP statute, on the parties' submissions the plaintiff could still
defeat the special motion to dismiss by showing that the petitioning activity was devoid of any
reasonable factual or legal support and that it caused him

actual injury. See Fabre v. Walton, 436

Mass. 517, 520 (2002); G. L. c. 231, § 59H (“the court shall consider the pleadings and
supporting and opposing affidavits stating the facts

upon which the liability or defense is based”).

V

EXHIBIT B
In this case, because of the timing of the anti*SLAPP motion, the parties have a fully

documents for the Bay State Blaze list only an individual named Melissa Kelleher as the agent
and officer for the organization. Furthermore, in opposition to the motion, the plaintiff has
submitted an affidavit that indicates that he had no involvement in any impropriety concerning
the missing funds. It states that the plaintiff assisted Kelleher with the organization of the Bay
Stafe Blaze and that Kelleherherself opened a bank account for theorganizarion: Bank - documents in the record indicate that Kelleher was the sole signatory on that bank account and
that the plaintiff had no authority to withdraw funds or to write checks from the account.
Notably, the plaintiff also avers and documents in the record confirm that one of the defendants,
Kevin Fall, himself performed accounting activities for the Bay State Blaze and had opened a
bank account under his own name for depositing money collected from the players and from
fundraising activities. In response, the defendants have produced no evidence which contradicts
these statements. Cf. Benoit v. Frederickson, 454 Mass. 148, 154 n.7 (2009) (determining that
petitioning activities had reasonable factual support where moving parties provided “evidence
that, if believed, would support a finding in [their] favor”). Accordingly, the plaintiff has
demonstrated that the defendants’ petitioning activity directed to the Attorney General was
devoid of reasonable factual or legal support. See Vittands, 49 Mass. App. Ct. at 414-15
(non-moving party’s affidavits demonstrated that she had obtained all the necessary permits
before her neighbors commenced a declaratory action against her).
The plaintiff has also demonstrated that he has suffered actual injury. The plaintiff
asserts in his affidavit that as a result of the defendants’ accusations of harassment and financial

EXHIBIT B
impropriety, he has lost his employment at Massasoit as well as another potential position at a
l€-

.-rig;

■ntv

evidcnce to contradict this assertion. See id. at 415. (non-moving party met burden of'
establishing actual injury by averring that she suffered both financial and personal injuries due to
the neighbors' petitioning activity); Gillette Co. v. Provost. 91 Mass. App. Ct. 133. 139 (2017)
(non-moving party showed actual injury by allegations in complaint of lost investors and
distribution partners). Thus, the plaintiff has satisfied his burden under the anti-SLAPP statute to
defeat the special motion to dismiss.
Order
For the foregoing reasons, it is hereby ORDERED that the Defendants’ Special Motion
✓

to Dismiss (paper no. 24) is DENIED.

October 16. 2017
Thomas A. Connors
Justice of the Superior Court

I ATTEST THAT THIS DOCUMENT IS A
CERTIFY PHOTOCOPY OF AN ORIGINAL

E § IF §
COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS

SUPERIOR COURT

- <1^
■■

)
^ !
“r

C ^

MARTIN D. FRENCH,
Plaintiff,

)
)
)

V.

)

i w-

A. P.
E. M. J..JR.
N. & J,

.

$5^
^

Nr^s-,1^, \

)

Nj

c

go

C=3

Or:

Cc

e>

o

\'

:=o

Co

)

MICHELLE J. SMITH, KEVIN F. FALL, jWILLiAM AMEEN, WILLIAM KAZANEK,
* <»> §
’4
JOSEPH KELLIHER, KELLY DICKERMAN,
o
i,
JdAVID DICKERMAN, SEAN REED,
i.^
JANE M. LAMBERT, SHARON M. HURLEY,
~X<L. e ^%nd JOHN/JANE DOE,
■'—i

Notice sent
1/29/2014

o
(sc)

)

" >(

rUS

sr:

)

J

CD-

2q;-

)

iP
'■

)
)

~

■*o

DEFENDANTS’ MOTION TO DISMISS FOR IMPROPER VENUE
3

^

H"FG

NOW COME the Defendants, Michelle J. Smith, Kevin F. Fall, William Ameen, William

c-Kazanek, Joseph Kelliher, Kelly Dickerman, David Dickerman, Sean Reed, Jane M. Lambert,

-

rJ -o t/and Sharon M. Hurley, and hereby respectfully move this Honorable Court, pursuant to
• A'-i

^ ^^Mass.R.Civ.P. 12(b)(3), 365 Mass. 755 (1974), to dismiss this matter for improper venue. As
Ai

grounds for this Motion, Defendants state that per M.G.L. c. 223, §1 venue is improper in
xj '2ss ^
rx /Suffolk Superior Court as none of the parties in this “transitory action...lives or has their usual
SI. ^

place of business” in Suffolk County.
■ In further support of this Motion, the Defendants attach their Memorandum of Law.

Q
{

3

fa

^ c u l i v c u & r 111:;

'■ 8Y

imm-s ah!i: C3
CLERK OF THE COlttiS
NORFOLK C0UN1Y

\ IsW ^

C©MM0NWEA±fTH_OF‘MAsSACHUSETTS

^ |j £

S? ^ vfe SUFFOLK COUNTY, SS

If*

II

"

SUPERIOR COURT JJx^O^tP)
CIVIL ACTION

Martin D. French,
Plaintiff,

14
^

/ v

^

^ 'Qvl
<3 J J
ft S ^
Bfc ^ i .

{g

V.

COMPLAINT

Michelle J. Smith, Kevin F. Fall,
Wi^iam Ameen, William Kazanek
Joseph Kelliher, Kelly Dickerman/
uavia uickerman, Sean Reed,
Janet M Lambert, Sharon M. Hurley
And John/Jane Doe
Defendants.

rr,>Z3pn
—S. CD

j>co

Co
in.
CT

*

rrt

'.-3

CP
o

CD

j5
n'-D
ri-O

'~'~
-V

PARTIES
1. Plaintiff, Martin French at all times relevant
was a resident of Rockland, Plymouth
County, Massachusetts.

Ms 3'

C^,aMZ2X« “rSelerntbe,ief was a

4'

was

5. Defendant William Kaszanek (herein known
belief was a resident of East Bridgewater.
relevant.

nes

Hap

04
n

<V)

j> 5- j?
•

)

>

L';ri

S3 CD

if 4m
15 ? 5

)

.V:£

| Sr

p]

>

~ sc

ri,

[V

£D^

• 4.-'

<3J ss

ti

-•H=

61.?.
^

r

■dj

o£p

hpp *1 &

)

'

)
>

•

)
\
)

was
7.

belief was

)
)

.“T^aT

8.

belief

)
)

^

9-

ion

>

and belief, was a
relevant.

)
>

, was a

)
)
)
)
)
)
)
)

11. Sharon M. Hurley, (herein known as “
Lambert”), upon information and belief
resident of Kingston, Plymouth Co
was a
unty, Massachusetts at all times relevant.
12. The true
such defeSTbf sd“™ES” *" f"0™ * ™ who
consequently sue
such fidlious names
sues those defendants by
- to amend their Complaint to state
s^DeSMmeSWhenSUChhaVebeen ascertained.
At all times mentioned herein,
were

)

FACTS

)
)

13. Plaintiff had worked and volunteered

as a Softball Coach for approximately 30 years.

)
>

>

15. Plaintiff was not an Officer of an
y youth softball organization or the Bay State Blaze, Inc.
in 2010.

)
>

16. Plaintiff was gainfully employed by M

>

coach.
17. Plaintiff was employed
as a training coach for mino
and pitching.
rs and adults in the field of Softball

>

ass asoit Community College as its softball

)
)

18. Plaintiff was a volunteer coach and trainer for softball teams.

)
)
)
)
)
)
)
>

_
ry rumors to third
lamtiff s employer, Massasoit

>
>
> •

D

S35^«asaa«as

>

20. Plaintiff lost his position
coa ching/training positions, mi loa UsX'hing0™^^ proSJ°St all volunteer

)

COUNTr

>

SLANDER PER SE - INJURY TO PERSON4L REPUTATION

)
)

21-

18 °f 1116 C“ “ ^ —ted by reference as if s«.

)
)
>

22. The statements by defendants concerned the plaintiff and the stat

ements were false.

)
)
)
>

’•■ES

)
>

)
)
)

D
)

5
>

mmmsm

26. The above written statements are an assertion of facts, not opinions.

27’ P? letter signed by defendants was seen and read on or about August 24 901 n k

t;

)
>

D
)
)
)

28' ti: of Ms TepuP“ St °f ^ ?°VtdeSCribed
nerves and neLus system endS^d’^TtCffm^?

)
)
)
)

)

t0

body’

e"”sro,ionaI distress'loss “f-p%-,,rLes „f“:”Tiosrof

>

)

Pontiff suffered the

App U

)
)•
)

29. WHEREFORE, plaintiff Martin French demand judgment against defendants in a sum
exceeding thejurisdictional minimum of this Court, exclusive of interest and costs and
whatever and further relief this Court or jury deems just.

\
)
)

COUNT II

)

mTENTIONAL OR RECKLESS INFLICTION OF EMOTIONAL DISTRESS

)
)
)
)
)
)
)

30. Paragraphs 1 through 18 and Count I of the complaint are
hereby incorporated by
reference as if set forth fully herein.
31. Defendants’ statements and publication of the attached letter were extreme and
outrageous.
32. Defendants knew and intended that plaintiff would suffer
severe emotional distress as a
result of their statements and publication.

)
)
)

33. Defendants’ statements were intentional and malicious. In the alternative, they
were
negligent.

)

34. As a result of defendants’ extreme and outrageous conduct, Martin French was, is and
wi a high degree oi likelihood, will continue to be emotionally distressed due to5
defendants’ defamation of him

D

35. As a result of defendants’ extreme and outrageous conduct, Mr. French has suffered and

)

)

and humiliation

^ 311(1

S6Vere emotionaI tauma, embarrassment,

)

)
)

36. The defendants’ actions were done intentionally and recklessly, and their conduct
was
Tr/8?US fnd bey°nd a11 bounds of decency> excuse or justification and
™
d-!fendant
or should have known that such conduct would, and in fact
did, cause Mr. French emotional distress.
3?’

)

D
)
)

Ul' °f'he abOTe-desCTited Publication, plaintiff suffered the
ZLf b , rePutatl0n m the commumty, shame, mortification, injury to mind, body
nerves and nervous system, endured and will in the future endure extreme mental pain
d suffering, emotional distress, loss of employment and loss of earning capacity.

38 ^EJEF?1RE- Pla!ntiff Martbl French demand judgment against defendants in a sum
exceeding the jurisdictional minimum of this Court, exclusive of interest and costs and
whatever and further relief this Court or jury deems just.

)
)
)
)
)
)
)
)

h?PW

?•
>
))

countin

)

— INXENTIQjN[-ALi
——■—;----------—
ADVENTAGEOIIS ANT) rONTRACTl[A). BUSINFSS RPI jtiamc

)

39'

Count 11 of ,he complaint are hereby 1

incorporated

)
)
)

4°. Martin French had an advantageous business relationship with Massasoit Community
proS.
S
organizations and softball training and pitching instructional

)
)
)

4L

* Co1^ - “

)
)

42. Defendants with improper motive and/or through the use of

)

organizations.

)
>
)
)
)
)

44’

--SKBSKsa^jssa^ *
°fth? ab0V,e;described Publication, plaintiff suffered and

)

and pro“

)
>
)
)
)
)

45 exceeding'^[artin French demand judgment against defendants i
exceeding the jurisdictional minimum of this Court, exclusive of interest and in a sum
costs and
whatever and fiirther relief this Court or jury deems just.

COUNT IV

)

interference with prospective

)

BUSINESS REUATTONSmpe

)
)

complaint are hereby

)
)
)

47. Martin French had an advantageous business relationship with Massasoit

)
)
)
>
)
)

App ri 4

Community

)
)
)

-

prog^S voIunteer softba11 organizations and softball training and pitching

instructional

)

)
>

48. Defendants knew that plaintiff wns-an^mployce-of-Mnssasoit^ommtinity-eolieR^n
active volunteer coach and trainer in the sport of Softball.
g ,
49. Defendants
i
• , ,. ...with r improper
motive and/or through the use of improper meanc

)
)
)

5

50' w
and pro^imate result of the above-described publication, plaintiff suffered the
loss of his reputation m the community, shame, mortification, injury to mind body

)
)
)

and

)
>

diLss md menWsuffiAg

"d 01te ,0SSK

)
)
)

5
)
)

7? 11artmFrench demandjudgment against defendants i
exceeding the jurisdictional minimum of this Court, exclusive of interest and in a sum
costs and
whatever and fiirther relief this Court or jury deems just.
PLAINTIFF DEMANDS TRIAL BY JUDGE
ON ALL COUNTS OF THIS COMPLAINT ’

)

Respectfully submitted,
MARTIN FRENCH
B: 53s attorney, / J

)
)
)

^

■

Ann Pinheko, Esq. (BBO #667^54)
The Law Office of Ann Pinheiro, PC
6 Pleasant Street
Taunton, MA 02780
Teh 781-888-0307
Fax: 401-725-2223
apinheiro@ven'9:on.nef
)

Dated: August 21, 2013

)
>
)
)
)
)
)
)

WK

EXHIBIT C
August 24, 2010
MA - ASA Softball

265_WlrorStrSuire~3'03’
Burlington, MA 01803
RE: complaint against softball coach, Martin French
To Whom it May Concern,
We would like to file a complaint against softball coach, Martin French. He is the head
softball coach for Massasoit Community College in Brockton, MA, he is the assistant
softball coach for Weymouth High School, Weymouth, MA, and he is the direcior of the
BliiiwC, AAU souuaii organization as well as the UI6 head coach for this
organization. The BayState Blaze Organization is registered with the ASA and as a
registered team we would appreciate to have the ASA address and take action in this
matter.
We are a group of concerned parents from the BayState Blaze organization. We have
already filed a complaint with the Massachusetts Attorney General’s office concerning
thousands of dollars of missing funds from the BayState Blaze organization. The
complaint that we would like to have on record with your Association is that of serious
misconduct by Martin French. His organization. The BayState Blaze, consists of girls
ages 12-17. Mr French has on numerous occasions referred to a lot of the girls in the
organization in a sexual manner. He has stated with no basis that these girls will become
“strippers and pole dancers”, he has said that a few of the 13 year old girls will be
pregnant by age 16, he has said that a few of the girls “are already walking the streets”
doing unspeakable acts. He is a 52 year old man who should not be thinking of girls in
his organization in this way. The most disturbing comment was about a 14 year old girl.
This girl had raised $1,000 with 3 other girls for a tournament that they were participating
in. When the money was given to Mr. French and he was told who got credit for the
money, he singled out this particular girl and said “ she could have raised $ 1,500 lying on
her back for one hour.’ This is complete filth and a 52 year old man should not be
thinking of any girl in this way but especially «■* year old. 1? i.; compkic*./ l«.wd and
inappropriate. Mr. French has also exposed himself, either knowingly or unknowingly, to
a lot of girls in the organization as well as other coaches and parents. Regardless if he *
knew or not, when you are a person of authority in any situation you take the appropriate
precautions to ensure that you are not exposed. Martin French also uses his position as
the girls coach to intimidate and bully them to stay with him. He has told a number of
girls and their parents that if they leave the Blaze organization “the girls’ softball careers
will be over..they will never play with another organization or in college and he will
make sure of it.” He is a classic bully who unfortunately has had the platform to exercise
these unsavory traits. He needs to be stopped for the safety of all of these girls and future
girls who just want to play softball!
Please look into this very unfortunate situation.

EXHIBIT C

Thank you for your time and consideration.
£mGer-eiyT
The undersigned parentsfaf Baystate Blaze softball players.

Mi/blhJl

Ifl'tftiS'lhft

it. |l| {.)/lb i)

- Caa£K iml^ckrtA
nj r r.o(xdo^i

ojc#yK.
-of"

‘V.

<—-=>■

|IkO______

a

jpa/lvah l^O______
jjteriyih 1 io O
pQi/lYlt Ik n
ubo.XMjlL

foario /y (J /prvv/r>t

Contact Infonnation: 40 High Pines Dr.
Kingston, MA 02364
(781)953-7682

ifcO

.T/J

■

\

?u»J

iS.

,'c^

a

WL

MASS. M
l
•• / WftbWii
A

fel

;

..*. >>>.

• ’' ..Mass. ASA Softball

;&:•

dWiliss^jfet. suite Sob
*

f '■■

■

'SsS#,

• Burlington, MA 01803

•y
•VA
h*l

*.
September 14, 2010

£

THE NATIONAL GOVERiNING BODY
’ or SOFTBALL

•;

Mrs. Michelle Smith
4CrHigK Pines Dr.
Kingston, MA 02364

:

/• ■

•

Mrs. Smith,

X

V

'< l

i-

i

l

We, ^re in receipt of your letter of,complaint regarding Mr. Martin French. The ASA National Office has
also received the copy you have mailed to them as well. In speaking with the Executive Director of the
ASA, vje have one small problem with ybur.letter prior to taking action; you have.not specifically . .;
identified the ASA as one of the organizations to which the Blaze belongs.
Haye no question, the Blaze IS registered; but for us to address this issue, your letter must state you're
asking the ASA to take action because you're a registered team: It's quite alright that you mentioned *"
the AAU, High School, and College, but We icatl only proceed on your addressing the ASA specifically.
Any questions please contact the
undersigned
at 1-800-931-6148
ext.- 501.
«.
r* T l "i
.*
♦

.

^Respectfully,
'a

Commissioned

»*:?

\

r

Mass. ASA Sbftball

. *• *:

App ^
:

Visit our web-site at www.Mass-ASAsoftban.rnm
Call us at 1-800-931-6148

J,

*}.

Mass. ASA Softball
265 Wirin St. Suite 303
Bu^ington, MA 01803

fcT

WFmms-

:t

■<

.

r

V

sM-Mi

m:sm'

y

&J

ii
■

’J**
- ••.vr

October 6th, 2010

■'jm

THE KAlioRAi. GOVERNING BODY
• Df SdFT&ALL
• _

r

•4‘-

Dear Ms. Smith:

*

■

You (along with your other sfetories) have requested that the ASA take action against Mr. Martin French for
listed complaints, in followingjthe ASA code (found online at httD://www.asasoftball.com/3bout/as3
code.asP).
We haV£ ^K‘led 3 heariri^ October 13th 2010 at 7:00p.m at the address listed above.

S88i

This heanng will only concern the issue of whether Mr. French will be permitted to continue to participate in
ASA sctivities.
1

(
t

4

The hearing panel will hear from any person who chooses to provide information concerning the general issues
i raised by the Complainants.

\

You, the other signatories, and any witnesses you choose to bring will have the opportunity to present
testimony when caijed upon during the hearing. You (et al) will have the opportunity to have your legal counsel
present, if you so choose.

(

The hearing will be closed to the public. The only people allowed to hear testimony will be Mr. French (and
counsel if he so chooses), the hearing panel, myself, and any person who is, a$he time, providing information
as a witness to the hearing panel.
Witnesses will attend the hearing only during the times they are providing information to the hearing panel.

(

(
/

t

t
4

The Complainants will put forth their witnesses first. Each witness will provide whatever information he/she
desires to the hearing panel, then the hearing panel will have an opportunity to ask questions of the witness,
and then Mr. French (or counsel) will have an opportunity to ask questions of the witness.

f\
\

i
A decision will not be rendered immediately. You will be notified within 14 days after the hearing.
1_____

i

Sincerely, ‘
/

\
jdje Alfonse
Commissioner
Mass. ASA Softball
* v •*-

(

--Cj

Mv 1

Q

. --X: --vi;

: .■

. .

v

• :

j '■'• /•'. -ii-Vi

Mass. ASA Softball
265WW,St;Sui)!®3

Ci

WFiWm:%

l3
■

Burlington, MA 01803

:

3 November 2010
Mr. Martin French
35^-Tralfagar Ct.
S. Weymouth, MA 02190
Mr. French,

•'*
:

mm
■§sm*
mm
THE NATIONAL GOVERNING BODY
OF SOFTBALL '
_

#
%S’:’

m

After conductlnjfa hearing on October 26, 2010 (in which you were present) and allowing 7 days for
further documentation from both you arid the complainants, the panel has reconvened this date and
reached the following ruling:
That effective this date, you are hereby suspended from all ASA activities for a period of five (5)
years ending.2 November 2015.
You were found ip violation of the following ASA Code items:
Article(s) 505 A 6 and A 7.
Most specifically in regards to these violations, the board has found that you have acted
in conflict with:
Article 103 (D) "... establish principles for ethical behavjor and matters..."
Article 104 (E) "Shall take seriously their responsibility as a role model and
encourage competitiveness in a positive manner."
Testimony from the complainants as well as you was considered in making this decision in regards to
all of the facts mentioned below.
In reaching its determination, the panel considered the following as significant facts put forth before
the hearing panel;
a. You have admitted to refusing to provide financial information to team parents.
b. You have admitted to making degrading comments regarding one of your youth players in
front of other players. To quote: "There's your all-star" upon watching an error in the •
outfield.
c. You have admitted to smoking in front of the youth players on your team whether around
the bench as well as in a team van during a tournament.
d. You have admitted to arguing with parents when youth players were nearby in a manner
contrary to what is considered a role model.

Visit our web-site at
Mass-ASAsoftbali.com
Cali us at 1-800-931-6148

&i

A .

.r
e. You have admitted sending text messages to your youth players without oar^H's aps^fovdi
to contact the players using this manner.
■'
~

;

.

i

.4,—You-have,admittedjtoJceeping.as4Dartof.your.program.coaches.workingior_you that.were_____
not keeping the best interests of the ASA in mind. The board does acknowledge that you
did remove these coaches at later times during the season, but feels it should have been
handled much sooner.
g. You have provided conflicting irifdrmation in regards to Who actually was running thW Blaze v
program, starting With you were the sole owner; to co-owner, then finding out that a third
party was the sole person listed on the filed documentation with the State of Mass.

!

(
Whereas the panel has imposed this 5 year suspension you have the right to appeal in accordance with
Article 505B(5) of the ASA code. As stated in said paragraph, you have fourteen (14) days to appeaii’n
writing to the Executive Director or their desigriee, whose decision shall be final. The Executive
Director must render a decision on any appeal within fourteen (14) days.
If you have any questions as to how to submit your appeal, please feel free to contact the undersigned
Please be aware though, that now that this decision has been made, the appeal authority is now in the
hands solely of the Executive Director or their designee.

(
t
r

\i
i

Respectfully submitted:

!

V

Joseph Alfonse
Commissioner
Mass. ASA Softball

(

4

nff

Visit our web-site at wwwMass-ASAsoftbnll com
Cali us at 1-800-931-6148

t — ~p=
i.^ii

SarfjgZalC
the

NATIONAL (SOVEr^in^ BODY
OF SOFTBALL

wdof^^2^^^®™»iTnn5A softball
(405,424-3855
efc.com

December 1: 2010
Karen Semier Bigley
38 Comfort St
Bridgewater, MA 02324
Re:

Appeal - Martin French

Dear Ms. Bigley:
MM?F«nciDft™°^f

f^?7 Cons“iered the appeal presented on beWf rf

ass-—-

i

This decision does

participation m ASA rthfoea!SeySf«ATa,aref5OUfr
nse to this action to anyone outside the ASA offices.

^

'

,sc osed ^ complaint thai g ave

Sincerely,

RON RADIGONDA
Executive Director,
Amateur Softball Association of America

USA

nUP

Msnrber. U.S dffmpfcGomiTftttce

.v-i

Itke Cumm ONW:BALTH OV MASSACHUSETTS
Office of the Attorney General

mm

0

=5*

Okh AsKBURTOX ?L/.C£

••

Boston. Massachusetts OllCS ■

• •

Marti <a CoaklcV
.Attd=j4=y G=m=sal'

.

-

i'oiT) 727-2200

:

May 4,2010
^•ieluass. K&ilehsr. President
Bay Stale Blaze. Inc.
68 Hansuff Street P.ear
RocEhnd: MA G237G

$

Dear Ms. KeUeher:
C'Divisioir)hasreceived mfeCTasimteB^v

..
.

"WW“^ ofevfe* faa*
^M««Igu,gtod!Btok.-wXjSb^*SK.i^<Itll'aSDi?Si00

10

i““i b'!°I it5s#)‘Pen!i'4i«|i f» rase fun* ST™

mb«iBb*^ Massactoe*

'

:;;w ffid tobe w ,

-e copy ofyuiir oy-.uv.-v.
^fam5SS ^ ^d'«ves of your cAent board members: •
A copy of any uv-e.<=ru?j de&nmsalien letter issued*::-? the £>§•
3uuij.-rornrP£-and 550 registration fee:----------------—M J-

"s&^SSSgapa;-

' fee

oerufisdjubifcKKrur^itaisoBquTea.

aaatmSag
0

86

> «
•' V
i

t

Green., Jonathan (AGO!

i

From;
Sent:
To:
Subject:

f

Melisss KeOeher [mefissa.kelieher@gmaii com]
Tuesday. October 04 20116:i2PM
Green. Jonathan (AGO)
Re: Bay State Blaze •

t

(
/

HcIJo Jonathan.

.email;, n„ longer operaion & my accommnt whom 1 was working avith acmally pas^f
'
'M *
a-^av
in
April.
Perhaps you can help me with any logistics thus forth.

<

AJ so.

<

t

of ,he Bte an<i ""re ^w*
9pm “d

<Wed»**>>' 10/5) from lpm-9pm. Ut mi know Lhe bcsl

way to

(
(

Thank you.
Melissa Kelleher

(

°n t°CJ 4‘2?'1 4:28 PX1 "°Tecnd Jotialhan (AGO)" <ionaihan .streei,u7;slnie n» ,k
Ms. Kelleher:
------ —^ =• wrote:

(

(

'* I have tried ic reach you by phone regarding the Bay Stale Blazc:
a public charity of which you are. titc
. resident attci I reasurer. Please get in touch with me
as soon as possible. Mv contact infonnatiori is below.
>
Sincerely,
- Jonathan C. Green
> Assistant Attorney General
Ollice ol ihe Attorney Genera!
Non-Prntii Organizations/
*> Public Charities Division
> One Ashburton Place
> Boston, MA 02! OS
-•'Phone: 617-963-2919
•- Pax: 617-727-2920
- ywwjnass goy/3go<hn p:.vwww.mass pm/non.>

(
(
f

<\
(
(
(
(
(
(
V

*
{

i
{

?L|
f

CONGRESS*GOV
Authorization Act of 2017
115th Congress (2017-2018)
Sponsor:
Sen. Feinstein. Dianne fD-CAl (Introduced 03/06/2017)
Committees:
Senate - Judiciary
Latest Action:
02/14/2018 Became Public Law No: 115-126. (TXT | PDF) (All Actions)
Roll Call Votes: There has been 1 roll call vote
Tracked: Introduced
Passed Senate
Passed House
Resolving Differences

imary(2)

Text{6)

Actions(26)

There are 6 versions:

Titlss(6)

Amendments(l)

Cosponsors{29)

Committees(l)

To President

Became Law

Related 6ills(2)

Public Law (02/14/2018)

Text available as:
TXT
PDF

Showrl Here:

Public Law No: 115-126 (02/14/2018)

[115th Congress Public Law 126]
[From the U.S. Government Publishing Office]

[[Page 317]]
PROTECTING YOUNG VICTIMS FROM
SEXUAL ABUSE AND SAFE SPORT
AUTHORIZATION ACT OF 2017
[[Page 132 STAT, 318]]
Public Law 115-126
115th Congress
An Act

To prevent the sexual abuse of minors and amateur athletes by requiring
the prompt reporting of sexual abuse to law enforcement authorities, and
for other purposes. «N0TE: Feb. 14, 2018 - [S. 534]»
Be it enacted by the Senate and House of Representatives of the
United States of America in Congress assembled, «N0TE: Protecting Young
Victims from Sexual Abuse and Safe Sport Authorization Act of 2017.»
SECTION 1. SHORT TITLE; TABLE OF CONTENTS.
rl'hvl/'JVW'Ai cuMras

nrul'ri!i1 ~rr ~r m.nroci;1;ha

:A n 1

A iH

(a) «NOTE: 36 USC 101 note.» Short Title.—This Act may be cited
as the ''Protecting Young Victims from Sexual Abuse and Safe Sport
Authorization Act of 20171 1 .
(b) Table of Contents.—The table of contents of this Act is as
follows:
Sec. 1. Short title; table of contents.
TITLE I—PROTECTING YOUNG VICTIMS FROM SEXUAL ABUSE
Sec. 101. Required reporting of child and sexual abuse.
Sec. 102. Civil remedy for personal injuries.
TITLE II—UNITED STATES CENTER FOR SAFE SPORT AUTHORIZATION
Sec. 201. Expansion of the purposes of the corporation.
Sec. 202. Designation of the United States Center for Safe Sport.
Sec. 203. Additional requirements for granting sanctions for amateur
athletic competitions.
Sec. 204. General requirements for youth-serving amateur sports
organizations.
TITLE I—PROTECTING YOUNG VICTIMS FROM SEXUAL ABUSE
SEC. 101. REQUIRED REPORTING OF CHILD AND SEXUAL ABUSE.
(a) Reporting Requirement.—Section 226 of the Victims of Child
Abuse Act of 1990 (34 U.S.C. 20341) is amended—
(1) in subsection (a)—
(A) by striking ''A person who l i and inserting the
following:
''(1) Covered professionals.—A person who11; and
(B) by adding at the end the following:
''(2) Covered individuals.—A covered individual who learns
of facts that give reason to suspect that a child has suffered
an incident of child abuse, including sexual abuse, shall as
soon as possible make a report of the suspected abuse to the
agency designated by the Attorney General under subsection
(d). " ;
(2) in subsection (b), in the matter preceding paragraph
(1), by striking "subsection (a)1’ and inserting ''subsection
(a)(1)";
[[Page 132 STAT. 319]]
(3) in subsection (c)—
(A) in paragraph (7), by striking ''and I l at the
end;
(B) in paragraph (8), by striking the period at the
end and inserting a semicolon; and
(C) «N0TE: Definitions.» by adding at the end the
following:
''(9) the term 'covered individual1 means an adult who is
authorized, by a national governing body, a member of a national
governing body, or an amateur sports organization that
participates in interstate or international amateur athletic
competition, to interact with a minor or amateur athlete at an
amateur sports organization facility or at any event sanctioned
by a national governing body, a member of a national governing
body, or such an amateur sports organization;
"(10) the term 'event1 includes travel, lodging, practice,

competition, and health or medical treatment;
"(11) the terms 'amateur athlete1, 'amateur athletic
competition1, 'amateur sports organization1, 'international
amateur athletic competition1, and 'national governing body1
have the meanings given the terms in section 220501(b) of title
36, United States lode; ana
—
"(12) the term 'as soon as possible1 means within a 24-hour
period.11;
(4) in subsection (d), in the first sentence, by inserting
''and for all covered individuals t l after ''reside’1;
(5) in subsection (f), in the first sentence—
(A) by striking "and on all" and inserting "on
all11; and
(B) by inserting ''and for all covered
individuals l i after ''lands,11;
(6) in subsection (h), by inserting "and all covered
individuals, l t after "facilities,"; and
(7) by adding at the end the following:
"(i) Rule of Construction.—Nothing in this section shall be
construed to require a victim of child abuse to self-report the
abuse. l »
(b) Penalty for Failure To Report.—Section 2258 of title 18, United
States Code, is amended by inserting ''or a covered individual as
described in subsection (a)(2) of such section 226 who, l i after
''facility,1 1.
SEC. 102. CIVIL REMEDY FOR PERSONAL INJURIES.
Section 2255 of title 18, United States Code, is amended—
(1) by striking subsection (a) and inserting the following:
''(a) In General.—Any person who, while a minor, was a victim of a
violation of section 1589, 1590, 1591, 2241(c), 2242, 2243, 2251, 2251A,
2252, 2252A, 2260, 2421, 2422, or 2423 of this title and who suffers
personal injury as a result of such violation, regardless of whether the
injury occurred while such person was a minor, may sue in any
appropriate United States District Court and shall recover the actual
damages such person sustains or liquidated damages in the amount of
$150,000, and the cost of the action, including reasonable attorney's
fees and other litigation costs reasonably incurred. The court may also
award punitive damages and such other preliminary and equitable relief
as the court determines to be appropriate.";
[[Page 132 STAT. 320]]
(2) «N0TE: Deadlines.» in subsection (b), by striking
''filed within t i and all that follows through the end and
inserting the following: "filed—
"(1) not later than 10 years after the date on which the
plaintiff reasonably discovers the later of—
"(A) the violation that forms the basis for the
claim; or
"(B) the injury that forms the basis for the claim;
or
"(2) not later than 10 years after the date on which the
victim reaches 18 years of age."; and
(3) by adding at the end the following:
''(c) Venue; Service of Process.—
"(1) Venue.—Any action brought under subsection (a) may be
brought in the district court of the United States that meets
applicable requirements relating to venue under section 1391 of
title 28.
- is.

nr*

''(2) Service of process, —In an action brought under
subsection (a), process may be served in any district in which
the defendant—
L ‘ (A"l is an inhabitant; or
''(B) may be found.11.
TITLE II—UNITED STATES CENTER FOR SAFE SPORT AUTFiORIZATION
i

SEC. 201. EXPANSION OF THE PURPOSES OF THE CORPORATION.
Section 220503 of title 36, United States Code, is amended—
(1) in paragraph (13), by striking ' ; and'

semicolon^

and inserting a

by 5trlklng the perlod at the end and

inserting
and ; and
(3) by adding at the end the following:
. a
"(15) to promote a safe environment in sports that is tree
from abuse, including emotional, physical, and sexual abuse, o
any amateur athlete.’'.
SEC. 202. DESIGNATION OF THE UNITED STATES CENTER FOR SAFE SPORT.
■ I .

(a) In General.—Chapter 2205 of title 36
amended by adding at the end the following:

United States Code, is

"Subchapter III «N0TE: 36 USC 220541 prec.» —United States Center
for Safe Sport
"Sec. 220541. «N0TE: 36 USC 220541.» Designation of United
States Center for Safe Sport
"(a) In General.—The United States Center for Safe Sport
. shall
"(1) serve as the independent national safe sport
organization and be recognized worldwide as the independent
national safe sport organization for the United States;
"(2) exercise jurisdiction over the corporation, each
national governing body, and each paralympic sports organization
with regard to safeguarding amateur athletes against abuse,
including emotional, physical, and sexual abuse, in sports,
[[Page 132 STAT. 321]]
"(3) maintain an office for education and outreach that
shall develop training, oversight practices, policies and
procedures to prevent the abuse, including emotional, physical,
and sexual abuse, of amateur athletes participating in amateur
athletic activities through national governing bodies and
paralympic sports organizations;
"(4) maintain an office for response and resolution that
shall establish mechanisms that allow for the reporting,
investigation, and resolution, pursuant to subsection (c), o
alleged sexual abuse in violation of the Center s policies and
procedures; and
" (5) ensure that the mechanisms under paragraph
J
^ ^(4).. provide
fair notice and an opportunity to be heard and protect the
privacy and safety of complainants.
"(b) «N0TE: Applicability.» Policies and Procedures. The
policies and procedures developed under subsection (a)(3) shall apply
though they were incorporated in and made a part of sectio
this title.
"(c) Binding Arbitration.—
"(1) In general.—The Center may. in its discretion
utilize a neutral arbitration body and develop policies and

procedures to resolve allegations of sexual abuse within its
jurisdiction to determine the opportunity of any amateur
athlete, coach, trainer, manager, administrator, or official,
who is the subject of such an allegation, to participate in
amateur athletic competition.
"(2) Preservation of rights.—Nothing in this section shall
be construed as altering, superseding, or otherwise affecting
the right of an individual within the Center's jurisdiction to
pursue civil remedies through the courts for personal injuries
arising from abuse in violation of the Center's policies and
procedures, nor shall the Center condition the participation of
any such individual in a proceeding described in paragraph (1)
upon an agreement not to pursue such civil remedies.
''(d) Limitation on Liability.—
"(1) In general.—Except as provided in paragraph (2), an
applicable entity shall not be liable for damages in any civil
action for defamation, libel, slander, or damage to reputation
arising out of any action or communication, if the action arises
from the execution of the responsibilities or functions
described in this section, section 220542, or section 220543.
"(2) Exception.—Paragraph (1) shall not apply in any
action in which an applicable entity acted with actual malice,
or provided information or took action not pursuant to this
section, section 220542, or section 220543.
''(3) Definition of applicable entity.—In this subsection,
the term 'applicable entity' means—
" (A) the Center;
"(B) a national governing body;
"(C) a paralympic sports organization;
"(D) an amateur sports organization or other person
sanctioned by a national governing body under section
220525;
"(E) an amateur sports organization reporting under
section 220530;
''(F) any officer, employee, agent, or member of an
entity described in subparagraph (A), (B), (C), (D), or
(E); and
[[Page 132 STAT. 322]]
"(G) any individual participating in a proceeding
pursuant to this section.
"Sec. 220542. «N0TE: 36 USC 220542.» Additional duties.
"(a) In General.—The Center shall—
"(1) develop training, oversight practices, policies, and
procedures for implementation by a national governing body or
paralympic sports organization to prevent the abuse, including
emotional, physical, and sexual abuse, of any amateur athlete;
and
"(2) include in the policies and procedures developed under
section 220541(a)(3) —
''(A) a requirement that all adult members of a
national governing body, a paralympic sports
organization, or a facility under the jurisdiction of a
national governing body or paralympic sports
organization, and all adults authorized by such members
to interact with an amateur athlete, report immediately
any allegation of child abuse of an amateur athlete who
is a minor to—
"(i) the Center, whenever such members or
adults learn of facts leading them to suspect
♦ 1 V. ' T ->d L\*

reasonably that an amateur athlete who is a minor
has suffered an incident of child abuse; and
"(ii) law enforcement consistent with section
226 of the Victims of Child Abuse Act of 1990 (34
U.b.t. zui4i)l----------------------------------------- —--------"(B) a mechanism, approved by a trained expert on
child abuse, that allows a complainant to report easily
an incident of child abuse to the Center, a national
governing body, law enforcement authorities, or other
appropriate authorities;
"(C) reasonable procedures to limit one-on-one
interactions between an amateur athlete who is a minor
and an adult (who is not the minor's legal guardian) at
a facility under the jurisdiction of a national
governing body or paralympic sports organization without
being in an observable and interruptible distance from
another adult, except under emergency circumstances;
"(D) procedures to prohibit retaliation, by any
national governing body or paralympic sports
organization, against any individual who makes a report
under subparagraph (A) or subparagraph (B);
"(E) oversight procedures, including regular and
random audits conducted by subject matter experts
unaffiliated with, and independent of, a national
governing body or a paralympic sports organization of
each national governing body and paralympic sports
organization to ensure that policies and procedures
developed under that section are followed correctly and
that consistent training is offered and given to all
adult members who are in regular contact with amateur
athletes who are minors, and subject to parental
consent, to members who are minors, regarding prevention
of child abuse; and
"(F) a mechanism by which a national governing body
or paralympic sports organization can—
"(i) share confidentially a report of
suspected child abuse of an amateur athlete who is
a minor by a
[[Page 132 STAT. 323]]
member of a national governing body or paralympicsports organization, or an adult authorized by a
national governing body, paralympic sports
organization, or an amateur sports organization to
interact with an amateur athlete who is a minor,
with the Center, which in turn, may share with
relevant national governing bodies, paralympic
sports organizations, and other entities; and
"(ii) withhold providing to an adult who is
the subject of an allegation of child abuse
authority to interact with an amateur athlete who
is a minor until the resolution of such
allegation.
"(b) Rule of Construction.—Nothing in this section shall be
construed to limit the ability of a national governing body or
paralympic sports organization to impose an interim measure to prevent
an individual who is the subject of an allegation of sexual abuse from
interacting with an amateur athlete prior to the Center exercising its
jurisdiction over a matter.
"Sec. 220543. «N0TE: 36 USC 220543.» Records, audits, and
reports

''(a) Records.—The Center shall keep correct and complete records
of account.
''(b) Report.—The Center shall submit an annual report to Congress,
including—
-------'-Hr&

section 10101; and
''(2) a description of the activities of the Center.11.
(b) Conforming Amendment.—Section 220501(b) of title 36, United
States Code, is amended—
(1) by redesignating paragraphs (4) through (8) as
paragraphs (6) through (10), respectively; and
(2) «N0TE: Definitions.» by inserting after paragraph
(3), the following:
''(4) 'Center1 means the United States Center for Safe Sport
designated under section 220541.
''(5) 'child abuse1 has the meaning given the term in
section 212 of the Victims of Child Abuse Act of 1990 (34 U.S.C.
20302).''.
(c) Technical Amendment.—The table of contents of chapter 2205 of
title 36, United States Code, «N0TE: 36 USC 220501 prec.» is amended
by adding at the end the following:
''subchapter iii—united states center for safe sport
''220541. Designation of United States Center for Safe Sport.
''220542. Additional duties.
''220543. Records, audits, and reports.'1.
SEC. 203. ADDITIONAL REQUIREMENTS FOR GRANTING SANCTIONS FOR
AMATEUR ATHLETIC COMPETITIONS.
Section 220525(b)(4) is amended—
(1) in subparagraph (E), by striking "; and'1 and inserting
a semicolon;
(2) in subparagraph (F), by striking the period at the end
and inserting ''; and11; and
(3) by adding at the end the following:
''(G) the amateur sports organization or person
requesting sanction from a national governing body will
implement and abide by the policies and procedures to
prevent the abuse, including emotional, physical, and
child
[[Page 132 STAT. 324]]
abuse, of amateur athletes participating in amateur
athletic activities applicable to such national
governing body.1 1.
SEC. 204. GENERAL REQUIREMENTS FOR YOUTH-SERVING AMATEUR SPORTS
ORGANIZATIONS.
(a) In General.—Subchapter II of chapter 2205 of title 36, United
States Code, is amended by adding at the end the following:
''Sec. 220530. «N0TE: 36 USC 220530.» Other amateur sports
organizations
''(a) In General.—An applicable amateur sports organization shall—
''(1) comply with the reporting requirements of section 226
of the Victims of Child Abuse Act of 1990 (34 U.S.C. 20341);
''(2) establish reasonable procedures to limit one-on-one
rtlrf

«.

n r&ee- /-ii / 11 X -

h'.1 ~ ‘J *

A

Zfb'.

10-0/1

AM

interactions between an amateur athlete who is a minor and an
adult (who is not the minor's legal guardian) at a facility
under the jurisdiction of the applicable amateur sports
organization without being in an observable and interruptible
■distance Trom another adult, except under emergency '
circumstances;
''(3) offer and provide consistent training to all adult
members who are in regular contact with amateur athletes who are
minors, and subject to parental consent, to members who are
minors, regarding prevention and reporting of child abuse to
allow a complainant to report easily an incident of child abuse
to appropriate persons; and
''(4) prohibit retaliation, by the applicable amateur sports
organization, against any individual who makes a report under
paragraph (1).
''(b) Definition of Applicable Amateur Sports Organization.—In this
section, the term 'applicable amateur sports organization means an
amateur sports organization—
''(1) that is not otherwise subject to the requirements
under subchapter III;
''(2) that participates in an interstate or international
amateur athletic competition; and
''(3) whose membership includes any adult who is in regular
contact with an amateur athlete who is a minor. l t
([Page 132 STAT. 325]]
(b) Technical Amendment.—The table of contents of chapter 2205 of
title 36, United States Code «N0TE: 36 USC 220501 prec.» , is amended
by inserting after the item relating' to section 220529 the following:
''220530. Other amateur sports organizations.1’.
Approved February 14, 2018.
LEGISLATIVE HISTORY—S. 534 (H.R. 1973):
HOUSE REPORTS: No. 115-136, Pt. 1 (Comm, on the Judiciary) accompanying
H.R. 1973.
CONGRESSIONAL RECORD:
Vol. 163 (2017):
Nov. 14, considered and passed
Senate.
Vol. 164 (2018):
Jan. 29, considered and passed
House, amended.
Jan. 30, Senate concurred in House
amendment.
<all>

cai

- a.ioou - i tons

^yir-muj: empowering uiympic, pa... Amateur Atmetes Act ot 2U'^U l Congress.gov 1 Library of Congress

8/16/21, 12:58 AM

CONGRESS.GOV
S.2330 - Empowering Olympic, Paralympic, and 'Amateur Athletes Act of“2020-----115tn Congress (2019-2020)

Summary (5)

Text (5)

There are 5 versions:

Actions (20)

Titles (6)

Amendments (1)

| Public Law (10/30/2020)

’I

Cosponsors (16)

Committees (1)

Related Bills (5)

Text available as: TXT

Shown Here:
Public Law No: 116-189 (10/30/2020)
[116th Congress Public Lav/ 189]
[From the U.S. Government Publishing Office]

[[Page 134 STAT. 943]]
Public Law 116-189
116th Congress
An Act

To amend the Ted Stevens Olympic and Amateur Sports Act to provide for
congressional oversight of the board of directors of the United States
Olympic and Paralympic Committee and to protect amateur athletes from
emotional, physical, and sexual abuse, and for other
purposes. «f\IOTE: Oct. 30, 2020 - [S. 2330]»
Be it enacted by the Senate and House of Representatives of the
United States of America in Congress assembled, «N0TE: Empowering
Olympic, Paralympic, and Amateur Athletes Act of 2020. 36 USC 101
note.»
SECTION 1. SHORT TITLE.
This Act may be cited as the "Empowering Olympic, Paralympic, and
Amateur Athletes Act of 2020''.
SEC. 2. «N0TE: 36 USC 220501 note.» FINDINGS.
Congress makes the following findings:
(1) The courageous voice of survivors is a call to action to
end emotional, physical, and sexual abuse in the Olympic and
Paralympic movement.
(2) Larry Nassar, the former national team doctor for USA
Gymnastics, sexually abused over 300 athletes for over two
decades because of ineffective oversight by USA Gymnastics and
the United States Olympic Committee.
(3) While the case of Larry Nassar is unprecedented in
scale, the case is hardly the only recent incident of sexual

4i(> 13

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overviewJ

Page 1 of 34

abuse in amateur sports.
(4) Survivors of Larry Nassar's abuse and ati survivors of
abuse in the Olympic and Paralympic movement deserve justice and
redress for the wrongs the survivors have suffered.
(5) After a comprehensive congressional investigation,
ihcludiirgrtrttefviews and slalemgnts~fronr-srtrvi-vtrrs, former—aed—
current organization officials, lav/ enforcement, and advocates,
Congress found that the United States Olympic Committee and USA
Gymnastics fundamentally failed to uphold their existing
statutory purposes and duty to protect amateur athletes from
sexual, emotional, or physical abuse.
(6) USA Gymnastics and the United States Olympic Committee
knowingly concealed abuse by Larry Nassar, leading to the abuse
of dozens of additional amateur athletes during the period
beginning in the summer of 2015 and ending in September 2016.
(7) Ending abuse in the Olympic and Paralympic movement
requires enhanced oversight to ensure that the Olympic and
Paralympic movement does more to serve athletes and protect
their voice and safety.
[[Page 134 STAT. 944]]
SEC. 3. DEFINITIONS.
Section 220501(b) of title 36, United States Code, is amended—
(1) in paragraph (4), by striking "United States Center for
Safe Sport'' and inserting "United States Center for
SafeSport*';
(2) in paragraph (6), by striking "United States Olympic
Committee11 and inserting "United States Olympic and Paralympic
Committee'';
(3) by amending paragraph (8) to read as follows:
"(8) 'national governing body’ means an amateur sports
organization, a high-performance management organization, or a
paralympic sports organization that is certified by the
corporation under section 220521.'';
(4) by striking paragraph (9);
(5) by redesignating paragraphs (4), (5), (6), (7), (8), and
(10) as paragraphs (5), (6), (7), (8), (9), and (12),
respectively;
(6) by inserting after paragraph (3) the following:
''(4) 'Athletes' Advisory Council' means the entity
established and maintained under section 220504(b)(2)(A) that—
''(A) is composed of, and elected by, amateur
athletes to ensure communication betv/een the corporation
and currently active amateur athletes; and
"(B) serves as a source of amateur-athlete opinion
and advice with respect to policies and proposed
policies of the corporation,'1; and
(7) by inserting after paragraph (9), as so redesignated,
the following:
''(10) 'protected individual' means any amateur athlete,
coach, trainer, manager, administrator, or official associated
with the corporation or a national governing body.
"(11) 'retaliation' means any adverse or discriminatory
action, or the threat of an adverse or discriminatory action,
including removal from a training facility, reduced coaching or
training, reduced meals or housing, and removal from
competition, carried out against a protected individual as a
result of any communication, including the filing of a formal
https://www.congress.gov/t>ill/116th-congress/senate-bill/2330/text/pl?overvie

m <?4

Page 2 of 34

I CA l ~ 0.4JJU

i

iuiu

ounyic»5 \4uia-4U4u;. cmpuweitny

rd... aiiidieui miueies*

mci

ui zuzu j uongfess.gov | Liorary

ot

congress

tS/ID/ZI,

AM

complaint, by the protected individual or a parent or legal
guardian of the protected individual relating to the allegation
of physical abuse, sexual harassment, or emotional abuse, with—
''(A) the Center;
"(B) a coach, trainer, manager, administrator, or
official associated with the corporation;
"(C) the Attorney General;
"(D) a Federal or State law enforcement authority;
"(E) the Equal Employment Opportunity Commission;
or
"(F) Congress. 1 1.
SEC. 4. MODERNIZATION OF THE TED STEVENS OLYMPIC AND AMATEUR

SPORTS ACT.
(a) In General.—Chapter 2205 of title 36, «N0TE: 36 USC
220501 prec.» United States Code, is amended—
(1) in the chapter heading, by striking "UNITED STATES
OLYMPIC COMMITTEE and inserting "UNITED STATES OLYMPIC AND
PARALYMPIC COMMITTEE11;
(2) in section 220502, by amending subsection (c) to read as
follows;
[[Page 134 STAT. 945])
"(c) References to United States Olympic Association and United
States Olympic Committee.—Any reference to the United States Olympic
Association or the United States Olympic Committee is deemed to refer to
the United States Olympic and Paralympic Committee.'';
(3) in section 220503—
(A) in paragraph (3), by striking "and the PanAmerican Games l f each place it appears and inserting
"the Pan-American Games, and the Parapan American
Games''; and
(B) in paragraph (4), by striking "and Pan-American
Games1' and inserting "the Pan-American Games, and the
Parapan American Games'';
(4) in section 220504(b)(3), by striking "or the PanAmerican Games
and inserting "the Pan-American Games, or the
t

i

Parapan American Games'1;
(5) in section 220505(c) —
(A) in paragraph (3), by striking "and the PanAmerican Games I I and inserting "the Pan-American Games,

and the Parapan American Games'1;
(B) by amending paragraph (4) to read as follows:
"(4) certify national governing bodies for any sport that
is included on the program of the Olympic Games, the Paralympic
Games, the Pan-American Games, or the Parapan American Games;’1;
and
(C) in paragraph (5), by inserting "the Parapan

American Games, l i after "the Pan-American Games,1';
(6) in section 220506—
(A) in subsection (a)—
(i) in paragraph (1), by striking "United
States Olympic Committee1' and inserting "United
States Olympic and Paralympic Committee1';
<ii) in paragraph (2), by striking "3
TaiGeuks1' and inserting "3 Agitos1'; and
(iii) in paragraph (4), by inserting "
'Parapan American','' after " 'Pan-American',11;
(B) in subsection (b), by inserting "the Parapan
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overviewxclo

Page 3 of 34

American team,1’ after "the Pan-American team,' '; and
(C) in subsection (c)(3), by striking "or PanAmerican Games activity’' and inserting "Pan-American,
or Parapan American Games activity’’;
(7) in section 220509(a)—

(A) in the first sentence-,1 by inserting The
Parapan American Games,1’ after "the Pan-American
Games,’1; and
(B) in the second sentence, by striking "or the
Pan-American Games’’ and inserting "the Pan-American
Games, or the Parapan American Games’’;
(8) in section 220512, by striking "and Pan-American
Games’’ and inserting "Pan-American Games, and Parapan American
Games’’;
(9) in section 220523(a), by striking "and the Pan-American
Games i i each place it appears and inserting "the Pan-American
Games, and the Parapan American Games’*;
(10) in section 220528(c) —
(A) in subparagraph (A), by striking "or in both
the Olympic and Pan-American Games l i and inserting "or
in each of the Olympic Games, the Paralympic Games, the
[[Page 134 STAT. 946]]
Pan-American Games, and the Parapan American Games’’;
and
(B) by amending subparagraph (B) to read as follows:
"(B) any Pan-American Games or Parapan American
Games, for a sport in which competition is held in the
Pan-American Games or the Parapan American Games, as
applicable, but not in the Olympic Games or the
Paralympic Games.’1; and
(11) in section 220531, by striking "United States Olympic
Committee’‘ each place it appears and inserting "United States
Olympic and Paralympic Committee’’.
(b) Conforming Amendment.—The table of chapters for part B of
subtitle II of title 36, United States Code, «N0TE: 36 USC 101 prec.»
is amended by striking the item relating to chapter 2205 and inserting
the following:
"2205. United States Olympic and Paralympic
Committee.............. ................................................................... 220501’ ’.
SEC. 5. CONGRESSIONAL OVERSIGHT OF UNITED STATES OLYMPIC AND
PARALYMPIC COMMITTEE AND NATIONAL GOVERNING
BODIES.
(a) In General.—Chapter 2205 of title 36, United States Code, is
amended—
(1) by redesignating the second subchapter designated as
subchapter III «J\10TE: 36 USC 220541 prec.» (relating to the
United States Center for SafeSport), as added by section 202 of
the Protecting Young Victims from Sexual Abuse and Safe Sport
Authorization Act of 2017 (Public Law 115-126; 132 Stat.’320) as
subchapter IV; and
(2) by adding at the end the following:
"SUBCHAPTER V «N0TE: 36 USC 220551 prec.» —DISSOLUTION OF BOARD OF
DIRECTORS OF CORPORATION AND TERMINATION OF RECOGNITION OF NATIONAL
GOVERNING BODIES

m%

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overview =closed'

Page 4 of 34

icai

* a.xjau

"Sec.

iutii uunuimi liuio-iuiu/: cmpuwei my uiytnpic, ra... amateur aintetes «cx oi 2U2U | uongress.gov | Liorary 01 congress

8/16/21, 12:58 AM

«N0TE: 36 USC 220551.» 220551. Definitions

"In this subchapter, the term 'joint resolution* means a joint
resolution—
"(1) which does not have a preamble; and
''(2) for which—
"(A)(i) the title is only as follows: 'A joint
resolution to dissolve the board of directors of the
United States Olympic and Paralympic Committee*; and
"(ii) the matter after the resolving clause—
"(I) is as follows; 'That Congress finds that
dissolving the board of directors of the United
States Olympic and Paralympic Committee would not
unduly interfere with the operations of chapter
2205 of title 36, United States Code1; and
"(II) prescribes adequate procedures for
forming a board of directors of the corporation as
expeditiously as possible and in a manner that
safeguards the membership and voting power of the
representatives of amateur athletes at all times,
consistent with the membership and voting power of
amateur athletes under section 220504(b)(2); or
[[Page 134 STAT. 947]]
"(B)(i) the title is only as follows: 'A joint
resolution relating to terminating the recognition of a
national governing body*; and
''(ii) the matter after the resolving clause is only
as follows; 'That Congress determines that ________,
which is recognized as a national governing body under
section 220521 of title 36, United States Code, has
failed to fulfill its duties, as described in section
220524 of title 36, United States Code*, the blank space
being filled in with the name of the applicable national
governing body.
''Sec. 220552. «NOTE: Effective dates. 36 USC 220552.»
Dissolution of board of directors of
corporation and termination of recognition
of national governing bodies
''(a) Dissolution of Board of Directors of Corporation.—Effective
on the date of enactment of a joint resolution described in section
220551(2)(A) with respect to the board of directors of the corporation,
such board of directors shall be dissolved.
''(b) Termination of Recognition of National Governing Body.—
Effective on the date of enactment of a joint resolution described in
section 220551(2)(B) with respect to a national governing body, the
recognition of the applicable amateur sports organization as a national
governing body shall cease to have force or effect.*’.
(b) Technical and Conforming Amendments.—The table of sections for
chapter 2205 of title 36, United States Code, «NOTE: 36 USC
220501 prec.» is amended—
(1) by striking the second item relating to subchapter III
(relating to the United States Center for SafeSport), as added
by section 202 of the Protecting Young Victims from Sexual Abuse
and Safe Sport Authorization Act of 2017 (Public Law 115-126;
132 Stat. 320) and inserting the following:
"subchapter iv—united states center for safesport
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overview

Page 5 of 34

(2) by adding at the end the following:
"subchapter v—dissolution of board of directors of corporation and
termination of recognition of national governing bodies
"220551. Definitions.

"220552. Dissolution of board of directors of corporation and
termination of recognition of national governing bodies.'1.
(c) «N0TE: 36 USC 220551 note.» Effective Date.—The amendments
made by this section shall take effect on the date that is 1 year after
the date of the enactment of this Act.
SEC. 6. MODIFICATIONS TO UNITED STATES OLYMPIC AND PARALYMPIC
COMMITTEE.
(a) Purposes of the Corporation.—Section 220503 of title 36, United
States Code, is amended—
(1) in paragraph (9), by inserting "and access to t i after
"development of'';
(2) in paragraph (14), by striking "; and I i and inserting a
semicolon;
(3) in paragraph (15), by striking the period at the end and
inserting "; and1’; and
(4) by adding at the end the following:
[[Page 134 STAT.' 948]]
"(16) to effectively oversee the national governing bodies
with respect to compliance with and implementation of the
policies and procedures of the corporation, including policies
and procedures on the establishment of a safe environment in
sports as described in paragraph (15).''.
(b) Membership and Representation.—Section 220504 of title 36,
United States Code, is amended—
(1) in subsection (a), by inserting ", and membership shall
be available only to national governing bodies1' before the
period at the end;
(2) in subsection (b), by amending paragraph (2) to read as
follows:
"(2) amateur athletes who are actively engaged in amateur
athletic competition or who have represented the United States
in international amateur athletic competition, including through
provisions that—
"(A) establish and maintain an Athletes' Advisory
Council;
"(B) ensure that the chair of the Athletes'
Advisory Council, or the designee of the chair, holds
voting power on the board of directors of the
corporation and in the committees and entities of the
corporation;
"(C) require that—
" (i) not less than \l/3\ of the membership of
the board of directors of the corporation shall be
composed of, and elected by, such amateur
athletes; and
"(ii) not less than 20 percent of the
membership of the board of directors of the
corporation shall be composed of amateur athletes
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overview4cl

Page 6 of 34

iexi - j.iaou - 1 loin v^uiiyiess ;iui!j-iuzu|: cmpomaimg uiympic, Ka... Amateur Atmetes Act 01 zuzu | congress.gov | Liorary

ot

congress

S/1S/21, 12:58 AM

who—
"(I) are actively engaged in
representing the United States in
international amateur athletic
__________________ compel it ion.:_oj______________________
"(II) have represented the United
States in international amateur athletic
competition during the preceding 10-year
period; and
"(D) ensure that the membership and voting power
held by such amateur athletes is not less than \l/3\ of
the membership and voting power held in the board of
directors of the corporation and in the committees and
entities of the corporation, including any panel
empowered to resolve grievances;'1; and
(3) by adding at the end the following:
" (c) «NOTE: Time period.» Conflict of Interest.—An athlete who
represents athletes under subsection (b)(2) shall not be employed by the
Center, or serve in a capacity that exercises decision-making authority
on behalf of the Center, during the 2-year period beginning on the date
on which the athlete ceases such representation.
"(d) Certification Requirements.—The bylaws of the corporation
shall include a description of all generally applicable certification
requirements for membership in the corporation.11.
(c) Duties.—
(1) In general.—Section 220505 of title 36, United States
Code, is amended—
(A) in the section heading, by striking "Powers i i
and inserting "Powers and duties1'; and
(8) by adding at the end the following:
"(d) Duties.—
[[Page 134 STAT. 949]]
"(1) In general,—The duty of the corporation to amateur
athletes includes the adoption, effective implementation, and
enforcement of policies and procedures designed—
"(A) to immediately report to lav/ enforcement and
the Center any allegation of child abuse of an amateur
athlete who is a minor;
"(B) to ensure that each national governing body
has in place policies and procedures to report
immediately any allegation of child abuse of an amateur
athlete, consistent with—
"(i) the policies and procedures developed
under subparagraph (C) of section 220541(a)(1);
and
"(ii) the requirement described in paragraph
(2)(A) of section 220542(a); and
"(C) to ensure that each national governing body
and the corporation enforces temporary measures and
sanctions issued pursuant to the authority of the
Center.
"(2) Rule of construction.—Nothing in this subsection
shall be construed to preempt or otherwise abrogate the duty of
care of the corporation under State law or the common law.11.
(2) Conforming amendment.—The table of sections for chapter
https://www.congress.cov/bill/116th-congress/senate-bill/2330Aext/pl?overvie

MP W

Page 7 of 3r

| blUIUI j

wi

wuit^< ^ JJ

*->/ iuj4 i, i^>ju rvivi

2205 of title 36, United States Code, «N0TE: 36 USC
220501 prec.» is amended by striking the item relating to
section 220505 and inserting the following:
''220505, Powers and duties.1'.

(d) Restrictions.—
(1) Policy with respect to assisting members or former
members in obtaining jobs.—Section 220507 of title 36, United
States Code, is amended by adding at the end the following:
''(c) Policy With Respect to Assisting Members or Former Members in
Obtaining Jobs.—The corporation shall develop 1 or more policies that
prohibit any individual who is an employee, contractor, or agent of the
corporation from assisting a member or former member in obtaining a new
job (except the routine transmission of administrative and personnel
files) if the individual knows that such member or former member
violated the policies or procedures of the Center related to sexual
misconduct or was convicted of a crime involving sexual misconduct with
a minor in violation of applicable law.”.
(2) Policy with respect to terms and conditions of
employment,—
(A) In general.—Section 220507 of title 36, United
States Code, as amended by paragraph (1), is further
amended by adding at the end the following:
"(d) Policy Regarding Terms and Conditions of Employment.--The
corporation shall establish a policy—
''(1) not to disperse bonus or severance pay to any
individual named as a subject of an ethics investigation by the
ethics committee of the corporation, until such individual is
cleared of wrongdoing by such investigation; and
''(2) that provides that—
"(A) «N0TE: Determination.» if the ethics
committee determines that an individual has violated the
policies of the corporation—
[[Page 134 STAT. 950))
"(i) the individual is no longer entitled to
bonus or severance pay previously withheld; and
"(ii) the compensation committee of the
corporation may reduce or cancel the withheld
bonus or severance pay; and
"(B) «N0TE: Investigation.» in the case of an
individual who is the subject of a criminal
investigation, the ethics committee shall investigate
the individual. i 1
(B) «MDTE: 36 USC 220507 note.» Applicability.—
The amendment made by subparagraph (A) shall not apply
to any term of employment for the disbursement of bonus
or severance pay that is in effect as of the day before
the date of the enactment of this Act.
(e) Resolution of Disputes and Protecting Abuse Victims From
Retaliation.—Section 220509 of title 36, United States Code, is
amended—
(1) in subsection (a), in the first sentence, by inserting
"complaints of retaliation or” after "relating to”;
(2) by amending subsection (b) to read as follows:
https://www.congress.gOv/bill/116th-congress/senate-bill/2330/text/pl7overview:d

Page 8 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

"(b) Office of the Athlete Ombuds,—
''(1) In general.—The corporation shall hire and provide
salary, benefits, and administrative expenses for an ombudsman
and support staff for athletes.
"(2) Duties.—The Office of the Athlete Ombuds shall—
''(A) provide independent advice to athletes at no
cost about the applicable provisions of this chapter and
the constitution and bylaws of the corporation, national
governing bodies, international sports federations, the
International Olympic Committee, the International
Paralympic Committee, and the Pan-American Sports
Organization, and with respect to the resolution of any
dispute involving the opportunity of an amateur athlete
to participate in the Olympic Games, the Paralympic
Games, the Pan-American Games, the Parapan American
Games, world championship competition or other protected
competition as defined in the constitution and bylaws of
the corporation;
''(B) assist in the resolution of athlete concerns;
"(C) provide independent advice to athletes with
respect to—
"(i) the role, responsibility, authority, and
jurisdiction of the Center; and
"(ii) the relative value of engaging legal
counsel; and
''(D) report to the Athletes' Advisory Council on a
regular basis.
"(3) Hiring procedures; vacancy; termination,—
"(A) Hiring procedures.—The procedure for hiring
the ombudsman for athletes shall be as follows:
"(i) The Athletes' Advisory Council shall
provide the corporation's executive director with
the name of 1 qualified person to serve as
ombudsman for athletes.
"(ii) The corporation's executive director
shall immediately transmit the name of such person
to the corporation's executive committee.
"(iii) The corporation's executive committee
shall hire or not hire such person after fully
considering
[[Page 134 STAT. 951]]
the advice and counsel of the Athletes' Advisory
Council.
''(B) Vacancy.—If there is a vacancy in the
position of the ombudsman for athletes, the nomination
and hiring procedure set forth in this paragraph shall
be followed in a timely manner.
''(C) Termination,—The corporation may terminate
the employment of an individual serving as ombudsman for
athletes only if—
" (i) the termination is carried out in
accordance with the applicable policies and
procedures of the corporation;
"(ii) the termination is initially
recommended to the corporation's executive
committee by either the corporation's executive
director or by the Athletes' Advisory Council; and
https://www.congress.gov/bill/116th-eongress/senate-bill/233O/text/pl?overview=clbs0d

|0l

Page 9 of 3;

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

"(iii) the corporation's executive committee
fully considers the advice and counsel of the
Athletes' Advisory Council prior to deciding
whether or not to terminate the employment of such
individual, -----------------------------------------—-----—
"(4) Confidentiality.—
"(A) In general,—The Office of the Athlete Ombuds
shall maintain as confidential any information
communicated or provided to the Office of the Athlete
Ombuds in confidence in any matter involving the
exercise of the official duties of the Office of the
Athlete Ombuds.
"(B) Exception.—The Office of the Athlete Ombuds
may disclose information described in subparagraph (A)
as necessary to resolve or mediate a dispute, with the
permission of the parties involved.
"(C) Judicial and administrative proceedings.—
"(i) In general.—The ombudsman and the staff
of the Office of the Athlete Ombuds shall not be
compelled to testify or produce evidence in any
judicial or administrative proceeding with respect
to any matter involving the exercise of the duties
of the Office of the Athlete Ombuds,
(ii) Work product.—Any memorandum, work
product, notes, or case file of the Office of the
Athlete Ombuds—
"(I) shall be confidential; and
" (II) shall not be—
"(aa) subject to discovery,
subpoena, or any other means of
legal compulsion; or
"(bb) admissible as
evidence in a judicial or
administrative proceeding,
"(D) Applicability.—The confidentiality
requirements under this paragraph shall not apply to
information relating to—
" (i) applicable federally mandated reporting
requirements;
"(ii) a felony personally witnessed by a
member of the Office of the Athlete Ombuds;
"(iii) a situation, communicated to the
Office of the Athlete Ombuds, in which an
individual is at imminent risk of serious harm; or
"(iv) a congressional subpoena.
[[Page 134 STAT. 952]]
"(E) Development of policy.—
"(i) «NOTE: Deadline. Federal
Register, publication.» In general,—Not later
than 180 days after the date of the enactment of
the Empowering Olympic, Paralympic, and Amateur
Athletes Act of 2020, the Office of the Athlete
Ombuds shall develop and publish in the Federal
Register a confidentiality and privacy policy
consistent with this paragraph,
"(ii) «NOTE: Records.» Distribution,—The
Office of the Athlete Ombuds shall distribute a
copy of the policy developed under clause (i) to—
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/p!?overview:

Page 10 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

"(I) employees of the national
governing bodies; and
"(II) employees of the corporation,
"(iii) Publication by national governing
bodies.—Each national governing body shall—
"(I) «N0TE: Web posting.»
publish the policy developed under
clause (i) on the internet website of
the national governing body; and
"(II) communicate to amateur
athletes the availability of the policy.
"(5) Prohibition on retaliation.—No employee, contractor,
agent, volunteer, or member of the corporation shall take or
threaten to take any action against an athlete as a reprisal for
disclosing information to or seeking assistance from the Office
of the Athlete Ombuds.
"(6) Independence in carrying out duties.—The board of
directors of the corporation or any other member or employee of
the corporation shall not prevent or prohibit the Office of the
Athlete Ombuds from carrying out any duty or responsibility
under this section.'1; and
(3) by adding at the end the following:
"(c) Retaliation.—
"(1) In general.—The corporation, the national governing
bodies, or any officer, employee, contractor, subcontractor, or
agent of the corporation or a national governing body may not
retaliate against any protected individual as a result of any
communication, including the filing of a formal complaint, by a
protected individual or a parent or legal guardian of the
protected individual relating to an allegation of physical
abuse, sexual harassment, or emotional abuse.
"(2) Disciplinary action.—If the corporation finds that an
employee of the corporation or a national governing body has
retaliated against a protected individual, the corporation or
national governing body, as applicable, shall immediately
terminate the employment of, or suspend without pay, such
employee.
"(3) Damages.—
"(A) In general.—With respect to a protected
individual the corporation finds to have been subject to
retaliation, the corporation may award damages,
including damages for pain and suffering and reasonable
attorney fees.
"(B) Reimbursement from national governing body.—
In the case of a national governing body found to have
retaliated against a protected individual, the
corporation may demand reimbursement from the national
governing body for damages paid by the corporation under
subparagraph (A).1'.
[[Page 134 STAT. 953]]
(f) Reports'and Audits.—
(1) In general.—Section 220511 of title 36, United States
Code, is amended to read as follows:
"Sec. 220511. Reports and audits
" (a) Report.—
"(1) Submission to president and congress.—Not less
Page 11 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

frequently than annually, the corporation shall submit
simultaneously to the President and to each House of Congress a
detailed report on the operations of the corporation for the
preceding calendar year.
T5-1 to be included.—Each-T^port-r-eqtriT-ed—by-------paragraph (1) shall include the following:
"(A) A comprehensive description of the activities
and accomplishments of the corporation during such
calendar year.
''(B) «NOTE: Data.» Data concerning the
participation of women, disabled individuals, and racial
and ethnic minorities in the amateur athletic activities
and administration of the corporation and national
governing bodies.
"(C) A description of the steps taken to encourage
the participation of women, disabled individuals, and
racial minorities in amateur athletic activities.
''(D) A description of any lawsuit or grievance
filed against the corporation, including any dispute
initiated under this chapter.
''(E) The agenda and minutes of any meeting of the
board of directors of the corporation that occurred
during such calendar year.
"(F) A report by the compliance committee of the
corporation that, with respect to such calendar year—
"(i) identifies—
"(I) the areas in which the
corporation has met compliance
standards; and
"(II) the areas in which the
corporation has not met compliance
standards; and
'' (ii) «NOTE: Assessments. Compliance. Plan.»
assesses the compliance of each member of the
corporation and provides a plan for improvement,
as necessary.
"(G) A detailed description of any complaint of
retaliation made during such calendar year, including
the entity involved, the number of allegations of
retaliation, and the outcome of such allegations.
''(3) «MOTE: Web posting.» Public availability.—The
corporation shall make each report under this subsection
available to the public on an easily accessible internet website
of the corporation.
"(b) Audit.—
"(1) «NOTE: Deadline.» In general.—Not less frequently
than annually, the financial statements of the corporation for
the preceding fiscal year shall be audited in accordance with
generally accepted auditing standards by—
"(A) an independent certified public accountant; or
"(B) an independent licensed public accountant who
is certified or licensed by the regulatory authority of
a State or a political subdivision of a State.
[[Page 134 STAT. 954]]
''(2) Location.—An audit under paragraph (1) shall be
conducted at the location at which the financial statements of

mw

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overviewl

Page 12 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

the corporation normally are kept.
''(3) Access.—An individual conducting an audit under
paragraph (1) shall be given full access to—
___________ "'(A) all records and property owned or used hy thp
corporation, as necessary to facilitate the audit; and
"(B) any facility under audit for the purpose of
verifying transactions, including any balance or
security held by a depository, fiscal agent, or
custodian.
" (4) Report.—
"(A) In general.—Not later than 180 days after the
end of the fiscal year for which an audit is carried
out, the auditor shall submit a report on the audit to
the Committee on Commerce, Science, and Transportation
of the Senate, the Committee on the Judiciary of the
House of Representatives, and the chair of the Athletes'
Advisory Council.
" (B) Matters to be included.—Each report under
subparagraph (A) shall include the following for the
applicable fiscal year:
"(i) Any statement necessary to present
fairly the assets, liabilities, and surplus or
deficit of the corporation.
"(ii) «NOTE: Analysis.» An analysis of the
changes in the amounts of such assets,
liabilities, and surplus or deficit.
"(iii) A detailed statement of the income and
expenses of the corporation, including the results
of any trading, manufacturing, publishing, or
other commercial endeavor.
"(iv) A detailed statement of the amounts
spent on stipends and services for athletes.
"(v) A detailed statement of the amounts
spent on compensation and services for executives
and administration officials of the corporation,
including the 20 employees of the corporation who
receive the highest amounts of compensation.
"(vi) A detailed statement of the amounts
allocated to the national governing bodies.
"(vii) Such comments and information as the
auditor considers necessary to inform Congress of
the financial operations and condition of the
corporation.
"(viii) «NOTE: Recommenda- tions.»
Recommendations relating to the financial
operations and condition of the corporation.
"(ix) A description of any financial conflict
of interest (including a description of any
recusal or other mitigating action taken),
evaluated in a manner consistent with the policies
of the corporation, of—
"(I) a member of the board of
directors of the corporation; or
"(II) any senior management
personnel of the corporation.
"(C) Public availability.—
"(i) «NOTE: V/eb posting.» In general.—The
corporation shall make each report under this
paragraph available to the public on an easily
accessible internet website of the corporation.
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl2overview:

Page 13 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 i Congress.gov | Library of Congress

8/16/21, 12:58 AW

[[Page 134 STAT. 955])
''(ii) Personally identifiable information.—A
--------------------refter-t—mode avail-able under— e-lause (i) shal-l—net—
include the personally identifiable information of
any individual,11.
(2) Conforming amendment.—The table of sections for chapter
2205 of title 36, United States Code, «N0TE: 36 USC
220501 prec,» is amended by striking the item relating to
section 220511 and inserting the following:
''220511. Reports and audits.’'.
(g) Annual Amateur Athlete Survey.—
(1) In general.—Subchapter I of chapter 2205 of title 36,
United States Code, is amended by adding at the end the
following:
"Sec. 220513. «NOTE: 36 USC 220513.» Annual amateur athlete
survey
''(a) In General.—Not less frequently than annually, the
corporation shall cause an independent third-party organization, under
contract, to conduct an anonymous survey of amateur athletes who are
actively engaged in amateur athletic competition with respect to—
''(1) their satisfaction with the corporation and the
applicable national governing body; and
"(2) the behaviors, attitudes, and feelings within the
corporation and the applicable national governing body relating
to sexual harassment and abuse.
''(b) Consultation.—A contract under subsection (a) shall require
the independent third-party organization to develop the survey in
consultation with the Center.
''(c) «NOTE: Reports.» Prohibition on Interference.—If the
corporation or a national governing body makes any effort to undermine
the independence of, introduce bias into, or otherwise influence a
survey under subsection (a), such activity shall be reported immediately
to Congress.

"(d) «NOTE: Web posting.» Public Availability.— The corporation
shall make the results of each such survey available to the public on an
internet website of the corporation.11.
(2) Conforming amendment,—The table of sections for chapter
2205 of title 36, United States Code, «NOTE: 36 USC
220501 prec,» is amended by inserting after the item relating
to 220512 the following:
''220513. Annual amateur athlete survey.’’.
SEC. 7. MODIFICATIONS TO NATIONAL GOVERNING BODIES.
(a) Certification of National Governing Bodies,—
(1) In general,—Section 220521 of title 36, United States
Code, is amended—
(A) in the section heading, by striking
"Recognition of amateur sports organizations as
national governing bodies1' and inserting
"Certification of national governing bodies1';
(B) by amending subsection (a) to read as follows:

APf lOh

https://www.congress.gov/bill/116th-congress/senats-bill/2330/text/pl7overviewv=closeo

Page 14 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

"(a) In General.—With respect to each sport included on the
program of the Olympic Games, the Paralympic Games, the Pan-American
Games, or the Parapan American Games, the corporation—
l[Page 134 SIAI. 95FTT
"(1) may certify as a national governing body an amateur
sports organization, a high-performance management organization,
or a paralympic’ sports organization that files an application
and is eligible for such certification under section 220522; and
"(2) may not certify more than 1 national governing
body.1';
<C) in subsection (b), by striking "recognizing
and inserting " certifying11;
(D) in subsection (c), by striking "recognizing > i
and inserting "certifying'1; and
(E) by amending subsection (d) to read as follows:
"(d) «NOTE: Deadlines,» Review of Certification.—Not later than
8 years after the date of the enactment of the Empowering Olympic,
Paralympic, and Amateur Athletes Act of 2020, and not less frequently
than once every 4 years thereafter, the corporation—
"(1) shall review all matters related to the continued
certification of an organization as a national governing body;
"(2) may take action the corporation considers appropriate,
including placing conditions on the continued certification of
an organization as a national governing body;
"(3) «NOTE: Reports.» shall submit to Congress a summary
report of each review under paragraph (1); and
"(4) «NOTE: Public information.» shall make each such
summary report available to the public.''.
(2) Technical and conforming amendments.—
(A) Chapter 2205 of title 36, United States Code, is
amended—
(i) in section 220504(b), by amending
paragraph (1) to read as follows:
"(1) national governing bodies, including through
provisions that establish and maintain a National Governing
Bodies' Council that is composed of representatives of the
national governing bodies who are selected by their boards of
• directors or other governing boards to ensure effective
communication between the corporation and the national governing
bodies;'';
(ii) in section 220512, by striking "or
paralympic sports organization1';
(iii) in section 220522—
(I) by striking subsection (b); and
(II) in subsection (a)—
(aa) by striking
" recognized'' each place it
appears and inserting
certified' ';
(bb) by striking
"recognition1' each place it
appears and inserting
''certification11;
(cc) in paragraph (6), by
striking "the Olympic Games or
the Pan-American Games 1’ and
inserting "the Olympic Games,
https://www.congress.gov/bill/116th-congress/senats-bill/2330/text/pl?overview:

Page 15 of 3^

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

the Paralympic Games, the PanAmerican Games, or the Parapan
American Games1';
<dd) in paragraph (11)—
(AA)..in the matte r
preceding subparagraph (A),
by inserting ", highperformance management
organization, or paralympic
sports organization after
"amateur sports
organization11; and
I

I

[[Page 134 STAT. 957]]
(BB) in subparagraph
(B), by striking "amateur
sports l i and inserting
applicable'';
(ee) in paragraph (14), by
striking "or the Pan-American
Games i < and inserting "the Pan-

American Games, or the Parapan
American Games 1‘; and
(ff) by striking the
subsection designation and
heading and all that follows
through "An amateur sports
organization'' and inserting
"An amateur sports
organization, a high-performance
management organization, or a
paralympic sports
organization'';
(iv) in section 220524, by striking "amateur
sports I l each place it appears;
(v) in section 220528—
(I) by striking " recognition1' each
place it appears and inserting
certification'1;

(II) by striking " recognize1' each
place it appears and inserting
"certify'1; and
(III) in subsection (g), in the
subsection heading, by striking
"Recognition'' and inserting
''Certification1‘;

(vi) in section 220531—
(I) by striking ", each national
governing body, and each paralympic
sports organization l I each place it
appears and inserting ''and each
national governing body1'; and
(II) in subsection (c)(2), by
striking "each paralympic sports
organization,‘1;
(vii) in section 220541(d)(3), by striking
subparagraph (C);
(viii) in section 220542—
(I) by striking "or paralympic
htt ps://www.congress.gov/bill/116th-congress/senale-bill/2330/text/pl?overview|=cjps

Page 16 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

sports organization I I each place it
appears; and
(II) in subsection (a)(2) —
(aa) in subparagraph (A), in
the matter preceding clause (T)~7
by striking ", a paralympic
sports organization,'1;
(bb) in subparagraph (E), by
striking "or a paralympic
sports organization of each
national governing body and
paralympic sports
organization'1; and
(cc) in subparagraph
(F)(i)—

(AA) by striking ", or
an adult'' and inserting
’* or an adult'';
(BB) by striking ",
paralympic sports
organization,1'; and

(CC) by striking ",
paralympic sports
organizations,'',
(B) The table of sections for chapter 2205 of title
36, United States Code, «NOTE: 36 USC 220501 prec.»
is amended by striking the item relating to section
220521 and inserting the following;
"220521. Certification of national governing bodies.'1.
[[Page 134 STAT. 958]]

(b) Eligibility Requirements With Respect to Governing Boards.—
Section 220522 of title 36, United States Code, as amended by subsection
(a)(2), is further amended—
(1) in paragraph (2), by inserting ", including the ability
to provide and enforce required athlete protection policies and
procedures l ( before the semicolon;
(2) in paragraph (4)(B)—
(A) by striking "conducted in accordance with the
Commercial Rules of the American Arbitration
Association I i and inserting "which arbitration under
this paragraph shall be conducted in accordance with the
standard commercial arbitration rules of an established
major national provider of arbitration and mediation
services based in the United States and designated by
the corporation v/ith the concurrence of the Athletes'
Advisory Council and the National Governing Bodies'
Council1'; and
(B) by striking "Commercial Rules of Arbitration i i
and inserting "standard commercial rules of arbitration
of such designated provider'1;
(3) in paragraph (5), in the matter preceding subparagraph
(A), by inserting "except with respect to the oversight of the
organization,
after ''sport,1';
(4) by redesignating paragraphs (10) through (15) as
I

I

fop W

https://www.conoress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview=fcl(Jse(

Page 17 of 3'

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

paragraphs (11) through (16), respectively;

(5) by inserting after paragraph (9) the following:
''(10) «N0TE; Criteria«» ensures that the selection
criteria for individuals and teams that represent the United
''(A) «N0TE: Determination. Consultation.» fair,
as determined by the corporation in consultation with
the national governing bodies, the Athletes' Advisory
Council, and the United States Olympians and
Paralympians Association;
" (B) clearly articulated in writing and properly
communicated to athletes in a timely manner; and
"(C) consistently applied, using objective and
subjective criteria appropriate to the applicable
sport; ' 1;
(6) by striking paragraph (13), as so redesignated, and
inserting the following:
''(13) «N0TE: Guidelines.» demonstrates, based on
guidelines approved by the corporation, the Athletes' Advisory
Council, and the National Governing Bodies’ Council, that—
''(A) «N0TE: Criteria. Procedures.» its board of
directors and other such governing boards have
established criteria and election procedures for, and
maintain among their voting members, individuals who—
"(i) are elected by amateur athletes; and
"(ii) are actively engaged in amateur
athletic competition, or have represented the
United States in international amateur athletic
competition, in the sport for which certification
is sought;
"(B) any exception to such guidelines by such
organization has been approved by—
"(i) the corporation; and
"(ii) the Athletes' Advisory Council; and
''(C) the voting power held by such individuals is
not less than \l/3\ of the voting power held by its
board of directors and other such governing boards;'';
[[Page 134 STAT. 959]]
(7) in paragraph (15), as so redesignated, by striking
and1' and inserting a semicolon;
(8) in paragraph (16), as so redesignated, by striking the
period at the end and inserting a semicolon; and
(9) by adding at the end the following:
''(17) commits to submitting annual reports to the
corporation that include, for each calendar year—
"(A) a description of the manner in which the
organization—
"(i) carries out the mission to promote a
safe environment in sports that is free from abuse
of amateur athletes (including emotional,
physical, and sexual abuse); and
"(ii) addresses any sanctions or temporary
measures required by the Center;
"(B) a description of any cause of action or
complaint filed against the organization that was
pending or settled during the preceding calendar year;
and
"(C) a detailed statement of—
https://www.congress.gOv/bill/116th-congress/senate-bill/2330/text/pl7overview:Jclosed

Page 18 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

"(i) the income and expenses of the
organization; and
"(ii) the amounts expended on stipends,
bonuses, and services for amateur athletes,
organized by the level and gender ot the amateur
athletes;
''(18) commits to meeting any minimum standard or
requirement set forth by the corporation; and
"(19) provides protection from retaliation to protected
individuals.1’.
(c) General Duties of National Governing 8odies.—Section 220524 of
title 36, United States Code, is amended—
(1) in the matter preceding paragraph (1), by striking "For
the sport1' and inserting the following:
''(a) In General.—For the sport1’;
(2) in subsection (a), as so designated—
(A) in paragraph (8), by striking
and1’ and
inserting a semicolon;
(B) in paragraph (9), by striking the period at the
end and inserting a semicolon; and
(C) by adding at the end the following:
"(10) develop 1 or more policies that prohibit any
individual who is an employee, contractor, or agent of the
national governing body from assisting a member or former member
in obtaining a new job (except for the routine transmission of
administrative and personnel files) if the individual knows that
such member or former member violated the policies or procedures
of the Center related to sexual misconduct or was convicted of a
crime involving sexual misconduct with a minor in violation of
applicable law or the policies or procedures of the Center;
''(11) promote a safe environment in sports that is free
from abuse of any amateur athlete, including emotional,
physical, and sexual abuse;
"(12) take care to promote a safe environment in sports
using information relating to any temporary measure or sanction
issued pursuant to the authority of the Center;
''(13) immediately report to law enforcement any allegation
of child abuse of an amateur athlete who is a minor; and
[[Page 134 STAT. 960]]
''(14) have in place policies and procedures to report
immediately any allegation of child abuse of an amateur athlete
consistent with—
"(A) the policies and procedures developed under
subparagraph (C) of section 220541(a)(1); and
"(B) the requirement described in paragraph (2) (A)
of section 220542(a).11; and
(3) by adding at the end the following:
''(b) Rule of Construction.—Nothing in this section shall be
construed to preempt or otherwise abrogate the duty of care of a
national governing body under State law or the common law.11.
(d) Elimination of Exhaustion of Remedies Requirement.—Section
220527 of title 36, United States Code, is amended—
(1) by striking subsection (b);
(2) in subsection (c), by striking ''If the corporation
and all that follows through "subsection (b)(1) of this
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview='cl

i j

Page 19 of 3'

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

section, it t t and inserting "The corporation''; and
(3) by redesignating subsections <c) and (d) as subsections
(b) and (c), respectively.
----- te3-Arhit ration of Corporation Determinations Section 2-2-052-9-(-a-)—of
title 36, United States Code, is amended by striking "any regional
office of the American Arbitration Association 1 l and inserting "the
arbitration and mediation provider designated by the corporation under
section 220522(a)(4)''.
(f) Ensure Limitations on Communications Are Included in Limitations
on Interactions.—Section 220530(a) of title 36, United States Code, is
amended—
(1) in paragraph (2), by inserting ", including
communications, } i after "interactions l i ; and
(2) in paragraph (4), by striking "makes
and all that
follows through the period at the end and inserting the
following: "makes—
"(A) a report under paragraph (1); or
"(B) any other report relating to abuse of any
amateur athlete, including emotional, physical, and
sexual abuse.'1.
SEC. 8. MODIFICATIONS TO UNITED STATES CENTER FOR SAFESPORT.
(a) Designation of United States Center for SafeSport,—
(1) In general.—Section 220541 of title 36, United States
Code, is amended—
(A) in the section heading by striking "safe
spo rt l l and inserting "safesport'';
(B) by amending subsection (a) to read as follows:
"(a) Duties of Center.—
"(1) In general.—The United States Center for SafeSport
shall—
"(A) serve as the independent national safe sport
organization and be recognized worldwide as the
independent national safe sport organization for the
United States;
"(B) exercise jurisdiction over the corporation and
each national governing body with regard to safeguarding
amateur athletes against abuse, including emotional,
physical, and sexual abuse, in sports;
"(C) maintain an office for education and outreach
that shall develop training, oversight practices,
policies, and procedures to prevent the abuse, including
emotional,
[[Page 134 STAT. 9613]
physical, and sexual abuse, of amateur athletes
participating in amateur athletic activities through
national governing bodies;
"(D) maintain an office for response and resolution
that shall establish mechanisms that allow for the
reporting, investigation, and resolution, pursuant to
subsection (c), of alleged sexual abuse in violation of
the Center's policies and procedures;
"(E) ensure that the mechanisms under subparagraph
(D) provide fair notice and an opportunity to be heard
and protect the privacy and safety of complainants;
"(F) maintain an office for compliance and audit
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overview

Page 20 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

that shall—
"(i) ensure that the national governing
bodies and the corporation implement and follow
the policies and procedures developed by the
Ceiilei lu pi event and promptly fepdft instances'of
abuse of amateur athletes, including emotional,
physical, and sexual abuse; and
"(ii) establish mechanisms that allow for the
reporting and investigation of alleged violations
of such policies and procedures;
"(G) «N0TE: Public information. Website. List.»
publish and maintain a publicly accessible internet
website that contains a comprehensive list of adults who
are barred by the Center; and
"(H) ensure that any action taken by the Center
against an individual under the jurisdiction of the
Center, including an investigation, the imposition of
sanctions, and any other disciplinary action, is carried
out in a manner that provides procedural due process to
the individual, including, at a minimum—
"(i) «N0TE: Notice.» the provision of
written notice of the allegations against the
individual;
"(ii) a right to be represented by counsel or
other advisor;
"(iii) an opportunity to be heard during the
investigation;
"(iv) in a case in which a violation is
found, a reasoned written decision by the Center;
and
"(v) the ability to challenge, in a hearing
or through arbitration, interim measures or
sanctions imposed by the Center.
"(2) Rules of construction,—Nothing in this subsection
shall be construed—
"(A) to preclude the Center from imposing interim
measures or sanctions on an individual before an
opportunity for a hearing or arbitration;
"(B) to require the Center to meet a burden of
proof higher than the preponderance of the evidence;
"(C) to give rise to a claim under State law or to
create a private right of action; or
"(D) to render the Center a state actor.'1;
(C) in subsection (b), by striking "subsection
(a)(3) < I and inserting "subsection (a)(1)(C)'1;
(D) in subsection (d), as amended by section
7(a)(2) —
(i) in paragraph (3), by inserting after
subparagraph (B) the following:
"(C) the corporation;'';
([Page 134 STAT. 962]]
(ii) by redesignating paragraph (3) as
paragraph (4); and
(iii) by inserting after paragraph (2) the
following:
"(3) Removal to federal court.—
"(A) In general.—Any civil action brought in a
State court against the Center relating to the

App HA

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview=closedT «

* ,V“'

Page 21 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

responsibilities of the Center under this section,
section 220542, or section 220543, shall be removed, on
request by the Center, to the district court of the
United States in the district in which the action was
■brotrgfrtrr
jurisdiction over the action without regard to the
amount in controversy or the citizenship of the parties
involved.
"(B) Rule of construction.—Nothing in this chapter
shall be construed to create a private right of
action. ; and
(E) by adding at the end the following:
1 i

"(e) Training Materials.—The office for education and outreach
referred to in subsection (a)(1)(C) shall—
"(1) develop training materials for specific audiences,
including coaches, trainers, doctors, young children,
adolescents, adults, and individuals v/ith disabilities: and
"(2) <<fs}OTE: Deadlines. Updates.» not less frequently
than every 3 years, update such training materials.
"(f) Independence.—
"(1) «NOTE: Time period.» Prohibition with respect to
former employees and board members.—A former employee or board
member of the corporation or a national governing body shall not
work or volunteer at the Center during the 2-year period
beginning on the date on which the former employee or board
member ceases employment with the corporation or national
governing body.
"(2) Athletes serving on board of directors of national
governing body.—
"(A) In general.—An athlete serving on the board
of directors of a national governing body who is not
otherwise employed by the national governing body, may
volunteer at, or serve in an advisory capacity to, the
Center.
"(B) «NOTE: Time period.» Ineligibility for
employment.—An athlete who has served on the board of
directors of a national governing body shall not be
eligible for employment at the Center during the 2-year
period beginning on the date on which the athlete ceases
to serve on such board of directors,
"(3) Conflicts of interest.—An executive or attorney for
the Center shall be considered to have an inappropriate conflict
of interest if the executive or attorney also represents the
corporation or a national governing body,
"(4) Investigations.—
" (A) In general.—The corporation and the national
governing bodies shall not interfere in, or attempt to
influence the outcome of, an investigation.
"(B) Report.—In the case of an attempt to
interfere in, or influence the outcome of, an
investigation, not later than 72 hours after such
attempt, the Center shall submit to the Committee on
Commerce, Science, and Transportation of the Senate and
the Committee on Energy and
[[Page 134 STAT. 963]]
Commerce and the Committee on the Judiciary of the House

App im

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overviewMlosed l

’

Page 22 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

of Representatives a report describing the attempt.
''(C) Work product.—
"(i) In general.—Any decision, report,
memorandum, work product, notes, or case file of
tne tenter—
''(I) «NOTE: Confidentiality.»
shall be confidential; and
''(II) shall not be subject to
discovery, subpoena, or any other means
of legal compulsion in any civil action
in which the Center is not a party to
the action.
(ii) Rule of construction.—Nothing in this
subparagraph shall be construed to prohibit the
Center from providing work product described in
clause (i) to a law enforcement agency for the
purpose of assisting in a criminal investigation.
"(g) Funding.—
''(1) «NOTE: Time periods.» Mandatory payments.—
"(A) «NOTE: Effective date.» Fiscal year 2021.—
On January 4, 2021, the corporation shall make a
mandatory payment of $20,000,000 to the Center for
operating costs of the Center for fiscal year 2021.
"(8) «NOTE: Deadline.» Subsequent fiscal
years.—For fiscal year 2022 and each fiscal year
thereafter, the corporation shall make a mandatory
payment of $20,000,000 to the Center not later than the
close of business on the first regular business day in
January.
''(2) Funds from national governing bodies.—The corporation
may use funds received from 1 or more national governing bodies
to make a mandatory payment required by paragraph (1).
''(3) Failure to comply.—
''(A) In general.—The Center may file a lawsuit to
compel payment under paragraph (1).
''(B) Penalty.—For each day of late or incomplete
payment of a mandatory payment under paragraph (1) after
January 1 of the applicable year, the Center shall be
allowed to recover from the corporation an additional
$20,000.
"(4) Accountability.—
"(A) In general.—Amounts transferred to the Center
by the corporation or a national governing body shall be
used, in accordance with section 220503(15), primarily
for the purpose of carrying out the duties and
requirements under sections 220541 through 220543 with
respect to the investigation and resolution of
allegations of sexual misconduct, or other misconduct,
made by amateur athletes.
"(B) Use of funds.—
"(i) In general.—Of the amounts made
available to the Center by the corporation or a
national governing body in a fiscal year for the
purpose described in section 220503(15)—
"(I) not less than 50 percent shall
be used for processing the investigation
and resolution of allegations described
in subparagraph (A); and

App US'

https://www.congress.goV/bill/116th-congress/senate-bill/2330/text/pl7overviewr:closed

Page 23 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov [ Library of Congress

8/16/21, 12:58 AM

[[Page 134 STAT. 964]]
"(II) not more than 10 percent may
be used for executive compensation of
--------------crf-frcers—and—cHrectoi's-^f-^t+fe-GeirtefTi---"(ii) Reserve funds.—
"(I) In general.—If, after the
Center uses the amounts as allocated
under clause (i), the Center does not
use the entirety of the remaining
amounts for the purpose described in
subparagraph (A), the Center may retain
not more than 25 percent of such amounts
as reserve funds.
"(II) Return of funds.—The Center
shall return to the corporation and
national governing bodies any amounts,
proportional to the contributions of the
corporation and national governing
bodies, that remain after the retention
described in subclause (I).
"(iii) Lobbying and fundraising.—Amounts
made available to the Center under this paragraph
may not be used for lobbying or fundraising
expenses.
"(h) Compliance Audits.—
"(1) «NOTE: Deadlines.» In general.—Not less frequently
than annually, the Center shall carry out an audit of the
corporation and each national governing body—
"(A) «NOTE: Assessment.» to assess compliance
with policies and procedures developed under this
subchapter; and
"(B) to ensure that consistent training relating to
the prevention of child abuse is provided to all staff
of the corporation and national governing bodies who are
in regular contact with amateur athletes and members who
are minors subject to parental consent.
"(2) Corrective measures.—
"(A) In general.—The Center may impose on the
corporation or a national governing body a corrective
measure to achieve compliance with the policies and
procedures developed under this subchapter or the
training requirement described in paragraph (1)(B).
"(B) Inclusions.—A corrective measure imposed
under subparagraph (A) may include the implementation of
an athlete safety program or specific policies,
additional compliance audits or training, and the
imposition of a probationary period.
"(C) Enforcement.—
"(i) In general.—On request by the Center,
the corporation shall—
"(I) enforce any corrective measure
required under subparagraph (A); and
"(II) «NOTE: Reports.» report
the status of enforcement with respect
to a national governing body within a
reasonable timeframe.
"(ii) Methods.—The corporation may enforce a
corrective measure through any means available to
http$://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?ovefvi^=fk^ed

M ^
Page 24 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

the corporation, including by withholding funds
from a national governing body, limiting the
participation of the national governing body in
corporation events, and decertifying a national
governing body.
—
"(iii) «NOTE: Time period. Reports.»
Effect of noncompliance.—If the corporation fails
to enforce a corrective measure within 72
[[Page 134 STAT. 965]]
hours of a request under clause (i), the Center
may submit to the Committee on Commerce, Science,
and Transportation of the Senate and the Committee
on Energy and Commerce and the Committee on the
Judiciary of the House of Representatives a report
describing the noncompliance.
''(3) Annual report.—
''(A) In general.—['lot less frequently than
annually, the Center shall submit to Congress a report
on the findings of the audit under paragraph (1) for the
preceding year and the status of any corrective measures
imposed as a result of the audit.
''(B) Public availability.—
"(i) In general.—Each report under
subparagraph (A) shall be made available to the
public.
''(ii) Personally identifiable information.—A
report made available to the public shall not
include the personally identifiable information of
any individual.
"(i) Reports to Corporation.—Not later than 30 days after the end
of each calendar quarter that begins after the date of the enactment of
the Empowering Olympic, Paralympic, and Amateur Athletes Act of 2020,
the Center shall submit to the corporation a statement of the following:
''(1) The number and nature of misconduct complaints
referred to the Center, by sport.
"(2) The number and type of pending misconduct complaints
under investigation by the Center.
''(3) The number of misconduct complaints for which an
investigation was terminated or otherwise closed by the Center.
''(4) The number of such misconduct complaints reported to
law enforcement agencies by the Center for further
investigation.
"(5) The number of discretionary cases accepted or declined
by the Center, by sport.
''(6) The average time required for resolution of such cases
and misconduct complaints.
"(7) Information relating to the educational activities and
trainings conducted by the office of education and outreach of
the Center during the preceding quarter, including the number of
educational activities and trainings developed and provided.
"(j) Certifications of Independence.—
''(1) «NOTE: Deadline. Public information.» In general.—
Not later than 180 days after the end of a fiscal year, the
Comptroller General of the United States shall make available to
the public a certification relating to the Center's independence
from the corporation.
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl2overview:

Page 25 of 3r

Text - S.2330 - 116th Congress {2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

''(2) Elements.—A certification required by paragraph (1)
shall include the following:
"(A) A finding of whether a violation of a
prohibition on employment of former employees or board
----------- membe-r-s-of-^the corporatien-tt-nder—s-ubseet-±on—(-f-)—has----occurred during the year preceding the certification.
"(B) A finding of whether an executive or attorney
for the Center has had an inappropriate conflict of
interest during that year.
[[Page 134 STAT. 966]]
"(C) A finding of whether the corporation has
interfered in, or attempted to influence the outcome of,
an investigation by the Center.
"(D) «N0TE: Recommenda- tions.» Any
recommendations of the Comptroller General for resolving
any potential risks to the Center’s independence from
the corporation.
"(3) Authority of comptroller general.—
"(A) In general.—The Comptroller General may take
such reasonable steps as, in the view of the Comptroller
General, are necessary to be fully informed about the
operations of the corporation and the Center.
"(B) Specific authorities.—The Comptroller General
shall have—
"(i) access to, and the right to make copies
of, any and all nonprivileged books, records,
accounts, correspondence, files, or other
documents or electronic records, including emails,
of officers, agents, and employees of the Center
or the corporation; and
"(ii) the right to interview any officer,
employee, agent, or consultant of the Center or
the corporation.
"(C) Treatment of privileged information.—If,
under this subsection, the Comptroller General seeks
access to information contained within privileged
documents or materials in the possession of the Center
or the corporation, the Center or the corporation, as
the case may be, shall, to the maximum extent
practicable, provide the Comptroller General with the
information without compromising the applicable
privilege.’‘.
(2) Technical and conforming amendments.—
(A) Subchapter IV of chapter 2205 of title 36,
United States Code, as redesignated by section
5(a)(1), «NOTE: 36 USC 220541 prec.» is amended in
the subchapter heading by striking "SAFE SPORT’’ and
inserting ''SAFESPORT’’.
(B) The table of sections for chapter 2205 of title
36, United States Code, «NOTE: 36 USC 220501 prec,»
is amended by striking the item relating to section
220541 and inserting the following:
"220541. Designation of United States Center for SafeSport. 1 ’.
(b) Additional Duties of Center.—Section 220542 of title 36, United
States Code, is amended—
(1) in the section heading, by striking the period at the
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview

11/

Page 26 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 j Congress.gov | Library of Congress

8/16/21, 12:58 AM

end; and
(2) in subsection (a)—

(A) in paragraph (1), by striking
and l i and
inserting a semicolon; and
(B) ih paragraph (2)—
(i) in subparagraph (A), by striking clauses
(i) and (ii) and inserting the following:
"(i) law enforcement consistent with section
226 of the Victims of Child Abuse Act of 1990 (34
U.S.C. 20341); and
''(ii) the Center, whenever such members or
adults learn of facts leading them to suspect
reasonably that an amateur athlete who is a minor
has suffered an incident of child abuse;1';
(ii) by redesignating subparagraphs (B)
through (F) as subparagraphs (E) through (I),
respectively;
[[Page 134 STAT, 967]]
(iii) by inserting after subparagraph (A) the
following:
''(B) «NOTE: Requirement.» a requirement that the
Center shall immediately report to law enforcement
consistent with section 226 of the Victims of Child
Abuse Act of 1990 (34 U.S.C. 20341) any allegation of
child abuse of an amateur athlete who is a minor,
including any report of such abuse submitted to the
Center by a minor or by any person who is not otherv/ise
required to report such abuse;
''(C) 1 or more policies that prohibit any
individual who is an employee, contractor, or agent of
the Center from assisting a member or former member in
obtaining a new job (except for the routine transmission
of administrative and personnel files) if the individual
knows that such member or former member violated the
policies or procedures of the Center related to sexual
misconduct or was convicted of a crime involving sexual
misconduct with a minor in violation of applicable law;
''(D) «NOTE: Requirement.» a requirement that the
Center, including any officer, agent, attorney, or staff
member of the Center, shall not take any action to
notify an alleged perpetrator of abuse of an amateur
athlete of any ongoing investigation or accusation
unless—
"(i) the Center has reason to believe an
imminent hazard will result from failing to so
notify the alleged perpetrator; or
"(ii) law enforcement—
"(I) authorizes the Center to take
such action; or
"(II) «N0TE: Time period.»
declines or fails to act on, or fails to
respond to the Center with respect to,
the allegation within 72 hours after the
time at which the Center reports to law
enforcement under subparagraph (B);‘1;
(iv) in subparagraph (F), as so redesignated,
by inserting ", including communications,
after
interactions‘';
i

APP Itf

https://www.cong ress.oov/bi 11/116th-congress/senate-bill/2330/text/pl?overview=cl&se'd

i

Page 27 of 3^

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 [ Congress.gov | Library of Congress

8/16/21, 12:58 AM

(v) by amending subparagraph (G), as so
redesignated, to read as follows:
<G) procedures to prohibit retaliation by the
corporation or any national governing body against any
■±iTdcnrrdtral who makes—----------------------------------------------------''(i) a report under subparagraph (A) or (E);
or

"(ii) any other report relating to abuse of
any amateur athlete, including emotional/
physical, and sexual abuse;'
<vi) in subparagraph (H), as so redesignated,
by striking
and'1 and inserting a semicolon;
(vii) in subparagraph (I), as so redesignated,
by striking the period at the end of clause (ii)
and inserting a semicolon; and
(viii) by adding at the end the following:
" (J) «NOTE: Determination.» a prohibition on the
use in a decision of the Center under section
220541(a)(1)(D) of any evidence relating to other sexual
behavior or the sexual predisposition of the alleged
victim, or the admission of any such evidence in
[[Page 134 STAT, 968]]
arbitration, unless the probative value of the use or
admission of such evidence, as determined by the Center
or the arbitrator, as applicable, substantially
outweighs the danger of—
"(i) any harm to the alleged victim; and
"(ii) unfair prejudice to any party; and
"(K) training for investigators on appropriate
methods and techniques for ensuring sensitivity tov/ard
alleged victims during interviews and other
investigative activities.''.
(c) Records, Audits, and Reports.—Section 220543 of title 36,
United States Code, is amended—
(1) by striking subsection (b) and inserting the following:
"(b) Audits and Transparency.—
" (1) Annual audit.—
"(A) In general.—Not less frequently than
annually, the financial statements of the Center for the
preceding fiscal year shall be audited by an independent
auditor in accordance with generally accepted accounting
principles—
"(i) to ensure the adequacy of the internal
controls of the Center; and
"(ii) to prevent waste, fraud, or misuse of
funds transferred to the Center by the corporation
or the national governing bodies.
"(B) Location.—An audit under subparagraph (A)
shall be conducted at the location at which the
financial statements of the Center normally are kept.
"(C) Report,—Not later than 180 days after the
date on which an audit under subparagraph (A) is
completed, the independent auditor shall issue an audit
report.
"(D) Corrective action plan.—
"(i) In general.—On completion of the audit
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7overvie

Page 28 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

report under subparagraph (C) for a fiscal year,
the Center shall prepare, in a separate document,
a corrective action plan that responds to any
corrective action recommended by the independent
auditor.
'(ii) Matters to be included.—A corrective
action plan under clause (i) shall include the
following for each such corrective action:
"(I) The name of the person
responsible for the corrective action.
"(II) A description of the planned
corrective action.
"(Ill) The anticipated completion
date of the corrective action.
"(IV) In the case of a recommended
corrective action based on a finding in
the audit report with which the Center
disagrees, or for which the Center
determines that corrective action is not
required, an explanation and a specific
reason for noncompliance with the
recommendation.
"(2) Access to records and personnel.—With respect to an
audit under paragraph (1), the Center shall provide the
independent auditor access to all records, documents, and
personnel and financial statements of the Center necessary to
carry out the audit.
"(3) Public availability.—
[[Page 134 STAT. 969]]
"(A) «NQTE: Web posting.» In general.—The
Center shall make available to the public on an easily
accessible internet website of the Center—
"(i) each audit report under paragraph
(1)(C);
"(ii) the Internal Revenue Service Form 990
of the Center for each year, filed under section
501(c) of the Internal Revenue Code of 1986; and
"(iii) the minutes of the quarterly meetings
of the board of directors of the Center.
"(B) Personally identifiable information.—An audit
report or the minutes made available under subparagraph
(A) shall not include the personally identifiable
information of any individual.
"(4) Rule of construction.—For purposes of this
subsection, the Center shall be considered a private entity.
"(c) Report.—The Center shall submit an annual report to Congress,
including—
"(1) «NOTE; Strategic plan.» a strategic plan with
respect to the manner in which the Center shall fulfill its
duties under sections 220541 and 220542;
"(2) «WOTE: Compliance.» a detailed description of the
efforts made by the Center to comply with such strategic plan
during the preceding year;
"(3) any financial statement necessary to present fairly
the assets, liabilities, and surplus or deficit of the Center
for the preceding year;
"(4) «NOTE: Analysis.» an analysis of the changes in the

mw

htt ps://www.cong ress.gov/bi 11/116th-congress/senate-bill/233C/text/pl?overview=

Page 29 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 j Congress.gov | Library of Congress

8/16/21, 12:58 AM

amounts of such assets, liabilities, and surplus or deficit
during the preceding year;
''{5) a detailed description of Center activities,
including—
------'' (A) the-number and-natu-re-of-mis-eonduet- compl-a-i-nt-sreferred to the Center;
"(B) the total number and type of pending
misconduct complaints under investigation by the Center;
"(C) the number of misconduct complaints for which
an investigation was terminated or otherwise closed by
the Center; and
"(0) the number of such misconduct complaints
reported to law enforcement agencies by the Center for
further investigation;
"(6) a detailed description of any complaint of retaliation
made during the preceding year by an officer or employee of the
Center or a contractor or subcontractor of the Center that
includes—
"(A) the number of such complaints; and
"(8) the outcome of each such complaint;
"(7) information relating to the educational activities and
trainings conducted by the office of education and outreach of
the Center during the preceding year, including the number of
educational activities and trainings developed and provided; and
"(8) a description of the activities of the Center,
"(d) Definitions,—In this section—
"(1) «NOTE: Assessments,» 'audit report' means a report
by an independent auditor that includes—
"(A) an opinion or a disclaimer of opinion that
presents the assessment of the independent auditor with
respect to the financial records of the Center,
including whether
[[Page 134 STAT. 970]]
such records are accurate and have been maintained in
accordance with generally accepted accounting
principles;
''(B) an assessment of the internal controls used by
the Center that describes the scope of testing of the
internal controls and the results of such testing; and
''(C) a compliance assessment that includes an
opinion or a disclaimer of opinion as to whether the
Center has complied with the terms and conditions of
subsection (b); and
''(2) 'independent auditor1 means an independent certified
public accountant or independent licensed public accountant,
certified or licensed by a regulatory authority of a State or a
political subdivision of a State, who meets the standards
specified in generally accepted accounting principles.11.
SEC. 9. EXEMPTION FROM AUTOMATIC STAY IN BANKRUPTCY CASES.
Section 362(b) of title 11, United States Code, is amended—
(1) in paragraph (27), by striking "and at the end;
(2) in paragraph (28), by striking the period at the end and
inserting "; and’’; and
(3) by inserting after paragraph (28) the following:
"(29) under subsection (a)(1) of this section, of any
action by—
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl7ovsrview

Page 30 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

(A) an amateur sports organization, as defined in
section 220501(b) of title 36, to replace a national
governing body, as defined in that section, under
section 220528 of that title; or
~'
^TBI
poraliun, as-def-i-ned in—sect-ton---------220501(b) of title 36, to revoke the certification of a
national governing body, as defined in that section,
under section 220521 of that title.''.
SEC. 10. ENHANCED CHILD ABUSE REPORTING.
Section 226(c)(9) of the Victims of Child Abuse Act of 1990 (34
U.S.C. 20341(c)(9)) is amended—
(1) by striking ''adult who is authorized and inserting
the following: ''adult who—
''(A) is authorized;
(2) in subparagraph (A), as so designated, by inserting
or ‘' after the semicolon at the end; and
(3) by adding at the end the following:
''(8) is an employee or representative of the United
States Center for SafeSport;'',
SEC. 11. COMMISSION ON THE STATE OF U.S. OLYMPICS AND PARALYMPICS.

(a) Establishment.—There is established within the legislative
branch a commission, to be known as the "Commission on the State of
U.S. Olympics and Paralympics < i (referred to in this section as the
Commission'‘).
(b) Composition.—
(1) «NOTE: Appointments.» In general.—The Commission
shall be composed of 16 members, of whom—
(A) 4 members shall be appointed by the chairman of
the Committee on Commerce, Science, and Transportation
of the Senate;
[[Page 134 STAT. 971]]
(B) 4 members shall be appointed by the ranking
member of the Committee on Commerce, Science, and
Transportation of the Senate;
(C) 4 members shall be appointed by the chairman of
the Committee on Energy and Commerce of the House of
Representatives; and
(D) 4 members shall be appointed by the ranking
member of the Committee on Energy and Commerce of the
House of Representatives.
(2) «NOTE: Designations.» Co-chairs.—Of the members of
the Commission—
(A) 1 co-chair shall be designated by the chairman
of the Committee on Commerce, Science, and
Transportation of the Senate; and
(B) 1 co-chair shall be designated by the chairman
of the Committee on Energy and Commerce of the House of
Representatives.
(3) Qualifications.—
(A) In general.—Each member appointed to the
Commission shall have the following qualifications:
(i) Experience in 1 or more of the following:
(I) Amateur, Olympic and Paralympic,
or professional athletics.
(II) Elite athletic coaching.
(III) Public service relating to
h ttps://www.cona ress.gov/bi 11/116th-oongress/senate-bill/2330/text/pl?overvie'

Page 31 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

sports.

(IV) Professional advocacy for
increased minority participation in
sports.
------(-V-)—Qi-yirtple—and Paralympic sports
administration or professional sports
administration.
(ii) Expertise in bullying prevention and the
promotion of a healthy organizational culture.
(B) Olympic or paralympic athletes.—Not fewer than
8 members appointed under paragraph (1) shall be current
or former Olympic or Paralympic athletes.
(c) «NOTE: Deadline.» Initial Meeting.—Not later than 30 days
after the date on which the last member is appointed under paragraph
(1), the Commission shall hold an initial meeting.
(d) Quorum.—11 members of the Commission shall constitute a quorum.
(e) No Proxy Voting.—Proxy voting by members of the Commission
shall be prohibited.
(f) Staff. <440TE: Appointments.» —The co-chairs of the Commission
shall appoint an executive director of the Commission, and such staff as
appropriate, with compensation.
(g) Public Hearings.—The Commission shall hold 1 or more public
hearings.
(h) Travel Expenses.—Members of the Commission shall serve without
pay, but shall receive travel expenses in accordance with sections 5702
and 5703 of title 5, United States Code.
(i) Duties of Commission,—
(1) Study.—
(A) In general.—The Commission shall conduct a
study on matters relating to the state of United States
participation in the Olympic and Paralympic Games.
(B) Matters studied.—The study under subparagraph
(A) shall include—
[[Page 134 STAT. 972]]
(i) «NOTE: Review.» a review of the most
recent reforms undertaken by the United States
Olympic and Paralympic Committee;
(ii) a description of proposed reforms to the
structure of the United States Olympic and
Paralympic Committee;
(iii) «NOTE: Assessment.» an assessment as
to whether the board of directors of the United
States Olympic and Paralympic Committee includes
diverse members, including athletes;
(iv) «NOTE: Assessment.» an assessment of
United States athlete participation levels in the
Olympic and Paralympic Games;
(v) a description of the status of any United
States Olympic and Paralympic Committee licensing
arrangement;
(vi) «NOTE: Assessment.» an assessment as
to whether the United States is achieving the
goals for the Olympic and Paralympic Games set by
the United States Olympic and Paralympic
Committee;
https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview=d(oslld

Page 32 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa... Amateur Athletes Act of 2020 | Congress.gov | Library of Congress

8/16/21, 12:58 AM

(vii) «N0TE: Analysis.» an analysis of the
participation in amateur athletics of—
(I) women;
_____________(II) disabled individuals: and_____
(III) minorities;

(viii) a description of ongoing efforts by the
United States Olympic and Paralympic Committee to
recruit the Olympic and Paralympic Games to the
United States;
(ix) «NOTE: Evaluation. Analysis.» an
evaluation of the functions of the national
governing bodies (as defined in section 220501 of
title 36, United States Code) and an analysis of
the responsiveness of the national governing
bodies to athletes with respect to the duties of
the national governing bodies under Section
220524(a)(3) of title 36, United States Code; and
(x) «NOTE: Assessment.» an assessment of
the finances and the financial organization of the
United States Olympic and Paralympic Committee.
(2) Report.—
(A) In general.—Not later than 270 days after the
date of the enactment of this Act, the Commission shall
submit to Congress a report on the results of the study
conducted under paragraph (1), including a detailed
statement of findings, conclusions, recommendations, and
suggested policy changes.
(B) «NOTE: Web posting.» Public availability.—
The report required by subparagraph (A) shall be made
available to the public on an internet website of the
United States Government that is available to the
public.
(j) Powers of Commission.—
(1) Subpoena authority.—The Commission may subpoena an
individual the testimony of whom may be relevant to the purpose
of the Commission.
(2) Furnishing information.—On request by the executive
director of the Commission, the head of a Federal agency shall
furnish information to the Commission.
[[Page 134 STAT. 973]]
(k) Termination of Commission.—The Commission shall terminate 90
days after the date on which the Commission submits the report under
subsection (i)(2).
(l) Authorization of Appropriations.—There is authorized to be
appropriated such sums as may be necessary to carry out this section.
SEC. 12. «NOTE: 36 USC 220501 note.» SEVERABILITY.
If any provision of this Act, or an amendment made by this Act, is
determined to be unenforceable or invalid, the remaining provisions of
this Act and the amendments made by this Act shall not be affected.
Approved October 30, 2020.
LEGISLATIVE HISTORY—S. 2330:
SENATE REPORTS: No. 116-245 (Comm, on Commerce, Science, and

APp

htt ps://www.congress.gov/bi 11/116th-congress/senate-bill/2330/text/pl?overviev\j= close:

Page 33 of 34

Text - S.2330 - 116th Congress (2019-2020): Empowering Olympic, Pa:.. Amateur Athletes Act of 2020 | Congress.gov ] Library of Congress

8/16/21, 12:58 AM

Transportation),
CONGRESSIONAL RECORD, Vol. 166 (20205:
Aug, 4, considered and passed Senate.
Oct, 1, considered and passed House,
<ail>

https://www.congress.gov/bill/116th-congress/senate-bill/2330/text/pl?overview=close'

Page 34 of 34

(sm)

Great Day For Athlete Safety As U.S. House
Matches Senate To Pass Empowering
Olympic, Paralympic, and Amateur Athlete
Act (S2330)
& Craig Lord

£3 2020-10-01

0 Reading Time: 11 minutes

APP (W

https,//www. stateofswimming. com/great-day-f or-athlete-safety-as-u-s. ..-pass-empowering-oiympic-paralympic-and-amateur-athlete-act-s2330/

Page 1 of 17

s

s
J

PROTECT

WIN

m

E
3

AOVANCE

SERVE

m
SAFETY &
EIGHTS

RESPONSIBILITY
& RESULTS

11

[t
TH;

GROWTH &
CAPACITY

LEAD

a

HEALTH A
MONEY

51
GOVERNANCE A

[ij

COMfcMftCAnONS

P5]

Greater protection, rights, funding, development, governance, and leadership for ATHLETES
Athletes, Survivors, & Supporters of
Olympic Sport
k

, ».

f '

£3

I i

■*L

.rf *1

I •

U“

SMS*

no} in
SR

L?- ■»- —

S3

u

-

-<■

USAAthletilWfgl^^-

1'

^

'

Greater protection, rights, funding, development, governance, and leadership for ATHLETES'- ■
-- -

ft*
“
.

i,. ■ ’

V.»

.

',

•'CM:

-i ,

*x

<;
.

"'

*

■

Team Integrity asked Congress to back athlete safety in law - today the dream came true

The United States House of Representatives has matched the Senate's unanimous vote in
passing (in just eight minutes) transformative Olympic reform legislation - the
Empowering Olympic, Paralympic, and Amateur Athlete Act (S2330) - today.
■ The end of the autonomy of Olympic governance is nigh: the Act, which now heads to the
White House for final thumbs up and seal, grants Congress the power to dissolve the United
States Olympic and Paralympic Committee (USOPC) Board of Directors.
f In a vote today, The House ensured that the powers extend to decertifying National
'Governing Bodies (NGBs) of individual sports if federations are deemed to have failed to
represent the best interests of athletes.

i

t

The Empowering Olympic, Paralympic, and Amateur Athlete Act (S2330) transcends its

https://www.stateofswimming.com/great-day-for-athlete-safety-as-u ..-pas|-ernpowering-olympic-paralympic-and-amateur-athlete-act-s2330/

Page 2 of 17

towering American context and is a triumph for Team Integrity advocates such as 1984
Olympic 100m freestyle champion Nancy Hogshead-Makar, coach advocates such as Dia C.
Rianda, and the victims of abuse, such as USA gymnasts who helped jail Larry Nasser, and
©ther-s-4
confirmation about the abuse she suffered between the ages of 11 and 15 gave others the
courage to come forward to name and shame their abusers and force reform at
organisations such as USA Swimming.
In the past, the International Olympic Committee has suspended nations if it perceives
political "interference" in matters such as selection of (or deselection of) National Olympic
Committee officials. The S2330 legislation effectively makes it game, set and match on that
IOC approach, unless they ever opt for suspending the USA and waving goodbye to NBC
rights contract, the vast sums of money that flow - and related arrangements.
In the United States, the need for Olympic reform legislation grew out of anger and
frustration over what has widely been seen as unchecked abuse of athletes, sexual, physical
and psychological, at the heart of Olympic sports. The issues are highlighted in
the documentary Athlete A but date back much further to cases reported in the 1970s but
ignored for decades.
The S2330 bill "potentially places the U.S. Olympic & Paralympic Committee on a path to
suspension by the International Olympic Committee, the Sports Examiner noted in its Big
Picture column. It reported the following remarks made by Democratic Rep. Karen Bass (DCalifornia) and Guy /tesdienf/io/er (R-Pennsylvania).
Bass:
'This comes in the wake of Larry Nassau's sexual abuse scandal. Bi-partisan investigations
launched in the House and Senate revealed systemic failures within the Olympic Committee that
contributed to widespread instances of sexual abuse of athletes, including minors. These include a
lack of effective oversight of the U.S. Olympic and Paralympic Committee and National Governing
Bodies, the failure of these organizations to uphold their duty to protect athletes from abuse by
failing to report allegations of wrongdoings to appropriate law enforcement authorities, and
concealing these failures and neglecting to enact serious reforms.

j\09

https://www.st3teofswimming.com/great-day-for-athlete-safety-as--a-.J-pass-ernpowering-olyrnpic-paralympic-ancl-amateur-athlete-act-s2330/

Page 3 of 17

"S. 2330 addresses these issues through a series of governance and
oversight reforms, including increasing the liabiiity of the USOPC
and NGBs, providing Congressional authority to decertify NGBs,
iDcrRQsm£theJeyelofam(^euL.QthleterepreseMC!tiQns.Qn..the____
USOPC board and NGB governing structures and requiring the
USOPC to establish clear procedures and reporting requirements
to protect athletes. It strengthens the work of the nonprofit
organization, that js responsible for investigating allegations of __
sexual abuse against athletes.

'"The bill requires $20 million in funding for the Center for SafeSport each year to cover its
operating costs. The bill also prevents potential conflicts of interest by prohibiting individuals who
are employed by the USOPC or an NGB from serving the Center for SafeSport and limiting the
, ability offormer employers and Board members from serving.
"S. 2330 is supported by the USOPC, the Center for SafeSport and a coalition of hundreds of
Olympic and Paralympic athletes, sports leaders and sexual abuse survivors. The bill was passed ■
by the Senate by unanimous consent on August 4, 2020, and its companion bill has bi-partisan
support here in the House as well."
Reschenthaler:
"In 2016, we were shaken by the revelations of abuse that permeated USA Gymnastics in the
Olympic community. While the blame for this abuse falls squarely at the feet of the predator, USA
Gymnastics and the U.S. Olympic and Paralympic Committee also failed the victims....
"S. 2330 supports the work that [the U.S. Center for SafeSport] is doing. It helps address the
shortcomings in the Committee that allowed the abuse to occur. One of the most important
■ reforms in this bill is a requirement that athletes serve on the governing bodies that oversee their
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u

)3o

paralympic-and-amateur-athlete-act-s2330/

Page 4 of 17

sports, ensuring that athletes finally get a seat at the table."
Abuse is a worldwide crisis in sport and unfolds in a largely autonomous bubble of Olympic
governance, in which authorities serving as guardians and regulators have been accused of
failing to take responsibility for events that unfold on their watch, including various forms of
abuse, doping in the mix.
Power of states to eject those at the helm of national Olympic committees has been fiercely
resisted by the International Olympic Committee (IOC), with nations such as Kuwait
suspended from the Olympic Movement when its Government sought to exercise control
over Olympic matters, including calls to replace key power-brokers at the heart of the IOC.
Events surrounding the second suspension of Kuwait from the Olympic Movement in 2015,
highlight the issue of Olympic autonomy and how that sits with the right of states to say who
represents them in international forums (fora).
Upon suspending Kuwait in 2015, the IOC stated:

"The Olympic Movement in Kuwait has faced a number of issues to
preserve its autonomy, in particular due to recently amended
sports legislation in Kuwait"..................

The new legislation in the United States grants democratically elected politicians the power
to determine who represents the country and its athletes at the helm of the Olympic
Movement in the United States, the power to decide if those in charge are fit for purpose
and following the laws and standards set for all citizens of the country. The priority issue in
focus: the protection and welfare of athletes, Olympic sports underpinned by a massive
worldwide community of children.
S2330 Olympic reform legislation makes provision for whistleblowers and renders retaliation
a crime.
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u

ssl-empowering-olympic-paralympic-and-amateur-athlete-act-s2330/

Page 5 of 17

The Act was founded in the hard work and courage of victims and their advocates, its
importance to Olympic sport hard to overstate, say the architects of S2330.
v

Calls for the Senate to back the Olympic reform legislation included a Who's Who of Olympic
medallists in swimming, alongside some swim coaches and supporters.
Nancy Hogshead-Makar, the 1984 Olympic 1500m freestyle champion, helped frame the
Act as co-chairman of Team Integrity, the committee of Olympians and member of the
■ American Olympic community advocating for an overhaul of the USOPC. Hogshead-Makar
told reporters in August after the Senate vote in favour:

m

.212L_........ ......... ____ ___________ __ ___ ______ _____
"This bill is a repudiation of the USOPC board's adoption of a
'money and medals' corporate culture. This bill gives athletes far
more rights, while holding the corporation to a higher standard of
care for the athletes compromising our youth sports; feeder sports
and elite sports programming. ...lam grateful that after many
years of bipartisan collaboration, this legislation will benefit those
participating in the U.S. Olympic Movement. The Olympics are a
VHixfawtreasureformTStWingforTxWlmceTTo^xh^lois^of-thi^best, reflects our American identity... Our quest remains: to fix a
broken sport governance system on behalf of those most
vulnerable in the Olympic Movement, and those most impacted by
the Sports Act; Theselegislators answered the c~a11.1 Tookforward To
working collaboratively to assure that athletes are equal
stakeholders in USOPC governance."

The bill was backed by the U.S. House of Representatives today.
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u-‘/...-pass|em

2ic-paralympic-and-amateur-athlete-act-s2330/

Page 6 of 17

The Olympic reform legislation requires the USOPC to contribute $20 million annually to the
operation of the U.S. Center for SafeSport. In 2019, the NOC contributed $7.5 million. As the
Orange County Register reported, that contribution is "some $300,000 less than the $7.8
frti+ltomtve4J-SOP€qD-aid-to-jiet"Set-SpOTts7a_New Jersey firm specializing in Olympic-related
corporate hospitality, according to financial records".
NGB exemption from decertification in bankruptcy proceedings is brought to an end by the
new Act, which calls for the creation of 16-member commission on the state of the USOPC
and American Olympic movement. Congress will select the members of the commission,
with a requirement that at least eight members must be current or former Olympic or
Paralympic athletes.
USOPC CEO Sarah Hirshland welcomed the legislation in a statement after the Senate vote,
saying:

"We would like to thank Chairman Moran and Senator Blumenthal
for their work in drafting and advancing this important legislation.
It will cement increases in athlete representation in the U.S.
Olympic and Paralympic movements, improvements in athlete
safety protections, and increases in transparency and
accountability in our system. The USOPC board recently approved
the second phase of the most sweeping governance reforms in
recent history. Building on that commitment and this legislation,
we will move rapidly to implement reforms to address any
outstanding provisions from this bill."

Hirschland and others face questions over financial records released on Monday by the
USOPC showing that the organization spent nearly $20 million more in 2019 on its
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u

aralympic-and-amateur-athlete-act-s2330/

Page 7 of 17

employees than it did on direct financial support to American elite athletes. The accounts
showed that nearly $26 million was spent by USOPC in legal-process related expenses in
2018 and 2019, after $667,300 were paid out in legal expenses in 2017. The 2019 lobbying
'b1tl~for-bS0P€-was-$-1-8Or3-66,--------------- -------------

Joy Over Bipartisan Support For Athlete Safeguarding Through
Olympic Reform Legislation
News of the unanimous Senate vote in August was received with joy by those who fought
hard for the protection of athletes to be enshrined in law.
Among them is Dia C. Rianda, who was forced to walk a tightrope of official resistance and
legal threat after reporting the abusive behaviour of a coach in California.
Today, Rianda said of the unanimous support for S2330:

"This is a huge milestone for American athletes."

After the Senate voted unanimously in favour back in August, Coach Rianda told this author:

55
"This news gives me hope in humanity. This is the beginning of the
End of the Olympic Movement as we have known it in the USA and
it is a good thing.
-.....

https://www.stateofswimming.com/great-day-for-athlete-safety-as-u-...-pass-empowering-ni''m-:- -

a?v

m

■•/mpic-and-amateur-athlete-act-s2330/

Page 8 of 17

I worked so very hard to get this passed, as did a few others..........
'Passed Unanimously'. I'm hopeful for the future, but there is still so
much more work to be done."

"The message is now crystal clear how - 'Ifyou are an abuser,
exploiter of athletes, an abuse enabler, part of cover up and
silencing athlete / child / victims it is time to go. There will be no
place for you in the future of Olympic Sport and history will not—
rerhemberyou kindly even as you take credit fd rath Iete successes^

■ :She added: "For the first time in 8 years I feel hope in my heart for athletes in the Olympic
Movement."
Rianda lamented that more coaches had not signed up to the process of backing and
supporting the Act but the job now almost done as far as getting the Olympic reform
legislation on the books, she noted that the pathway to progress required stakeholders to
play an active role in forcing change:

https://www.stateofswimming.com/great-day-for-athlete-safely-as-u

"’pic-paralympic-and-amateur-athlete-act-s2330/

Page 9 of 17

"I spoke up loudly. I reported and I openly advocated. I paid a
heavy price for that but that price was worth every tear and all the
crap I have experienced because things are changing in my country
for better for children who .aspire and work for the Olympic .Dream.
The price albeit high was worth a better future."

Rianda noted one of the most heartening aspects of the Olympic reform legislation:
Bipartisan support. In other words, no hiding place behind any political flag or colour;
surround-sound support for the empowerment and protection of athletes in law, the notion
of Olympic autonomy beyond the law of the land whacked out of the park.
Hailing bipartisan support and backing for the Olympic reform legislation as a great moment
for athletes, for those who support their right to work in a safe environment that affords
them protection from rogues, Rianda recalled the long road of campaigning and the work of
Senators:

"When I met with Richard Blumenthal and his aides I felt sincere
empathy and they took much time to listen and ask questions; He
and Jerry Moran showed extreme care and respect for athletes
speaking up. They were not the only ones. Many on both sides of
the political spectrum on the House side showed extreme interest_
and concern. I don't think there will be any issue of this clearing the
House of Representatives."

, The new athlete safety Act brings pressure to bear on Olympic sports federations who have
https://www. stateofswimming.com/great-day-for-athlete-safety-as-u-... pass-empoy'"’" * i

Apr )3fc>

paralympic-and-amateur-athlete-act-s2330/

Page 10 of 17

lent on legal advice designed to represent and protect them, as opposed to the athletes and
survivors of abuse - in some cases with obvious push-back against those coming forward
with allegations. Victims and the advocates will now have a law to lean on.

An Athlete Act With The Power To Dissolve NOC Board & Decertify
NGBs
The Empowering Olympic, Paralympic, and Amateur Athlete Act places far greater legal
liability on the USOPC and NGBs for sexual abuses by coaches, officials and employees than
has existed to date.
It also provides Congress with mechanisms to dissolve the USOPC's board of directors and
decertify NGBs, groups that Congress and athletes allege have put Olympic success and
attracting corporate sponsors over the safety and welfare of every athlete.
The Olympic reform legislation is designed to transform the toxic culture within American
Olympic sports that enabled and then ignored sexual abuse of the kind seen in the case of
Larry Nassar in gymnastics but suffered by victims working with predatory coaches and
officials in sports far and wide, swimming included, as USA Swimming list of the permanently
banned.
That list is incomplete as far as survivors and advocates are concerned as they ponder the
vexed question of historic abuse and allegations of abuse that went unheeded for decades.
Among outstanding cases is that of coach Paul Bergen, accused of sexual abuse of minors
by the women who trained in his programs as teenagers in the 1970s. The abuse was first
reported to police authorities in the 1970s and the predecessor, in name, of USA Swimming.
It came up again during meetings of USA Swimming's Abuses Committee in 1991 but never
resulted in any inquiry nor action. Allegations of abuse by Bergen have been widely
reported since Deena Deardurff made an excruciating and damning statement in 2010
confirming what she had told others in the sport on many occasions down the years.

aralympic-and-amateur-athlete-act-s2330/

Page 11 of 17

u

Critical step towards providing effective safeguards and
protections"

Back in August when the Senate voted in favour of S2330, U.S. Senators Jerry Moran (RKansas) and Richard Blumenthal (D-Connecticut), the Olympic athlete safety reform
legislation bill's sponsors, issued a statement saying:

"Today's Senate passage of our Olympic reform legislation marks a
critical step towards providing effective safeguards and protections
to Olympic, Paralympic and amateur athletes pursuing the sports
they love. We could not have passed this bill in the Senate today without the input and guidance of the survivors - athletes who
traveled to Washington countless times, shared their stories and
demanded change. While powerful institutions failed these
survivors in the past, we aren't going to.".........—
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u-...pass-ei

-paralympic-and-amateur-athlete-act-s2330/

Page 12 of 17

The legislation was introduced in July 2019 in response to the Nassar case. After the
wan4mQys-VQte-onJ-uesdav^e.a^BJumenthal told reporters:
_______

v>.,

J

"Larry Nassar became the face of a pattern of systemic failure and
abuse and he reflected a culture of putting medals and money
above the lives of athletes, prioritizing those tangible signs of
victory above the human lives that were impacted so adversely.
"Systematic failures were reflected in Larry Nassar's success in
terrorizing these young athletes and it affected other trainers,
other coaches who similarly betrayed trust, it affected other sports,
figure skating and swimming as well as gymnastics. None were
immune to this sexual, physical or emotional abuse."

The Bill's passage follows an 18-month Senate investigation into abuse in Olympic sports
sanctioned by the USOPC, a Colorado Springs-based tax exempt, non-profit organisation.
"Sen. Moran and I heard again and again and again that the USOPC and NGBs have failed
their athletes at every turn," Blumenthal said.

"Men and women in these organizations knew what was

https ://www.stateof swimming. com/great-day-for-athlete-safety-as-u-...pass-empowerino-^i‘'"‘-»ic-paralympic-and-amateur-athlete-act-s23 30/

Page 13 of 17

happening. They did nothing. They already had a legal duty under
the law to report what was going on, clearly laying out in the law
what should be obvious, that you must report allegations of sexual
misconduct involving minors was not enough for them. They
betrayed not only their trust with these athletes but their legal and
moral responsibility."

Companion legislation was introduced in the U.S. House of Representatives by Rep. Ted Lieu
(D-California) and others.
The Olympic reform legislation requires the USOPC to assert greater oversight of the NGBs
and provides the USOPC with bigger weapons to discipline federations judged to have failed
when it comes to protecting athletes. The Bill obliges the USOPC to establish clear
procedures and reporting requirements on abuse.
Athletes are also guaranteed a third of all NGB governing structure presence under the bill.

Questions Over Olympic Governance Autonomy
The Olympic athlete safety reform legislation in the United States brings into focus the wider
world of Olympic governance and accountability to stakeholders.
FINA, the international swimming federation, backed the IOC suspension of Kuwait with its
own but did not extend that to the Kuwaiti member of the ruling Bureau, Hussain AlMusaiiam, who next year will stand unopposed for the FINA presidency as the latest head of
the federation who hails from a country with no world-class swimming program back home.
Of late, there have been reports that Al-Musallam's candidature is backed by the Kuwaiti
regime. If that were true, then it would amount to political interference in the process under
the same terms as those cited when Kuwait was suspended by the IOC. Beyond that, there
are more serious issues yet to be tested in a court of law.
Al-Musallam and his fellow Kuwaiti and boss at the Olympic Council for Asia (OCA), Sheikh
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u-...pass-empc

App iw

:-paralympic-and-amateur-athlete-act-s2330/

Page 14 of 17

Ahmad al-Fahad al-Sabah, were cited by the United States Department of Justice in 2017 as
co-conspirators to fraud in the guilty-plea case of Guam soccer official Richard lai, who
received more than $800,000 in payments from a bank account said to be in the sole control
if-tbe-two-Kuwaitis:---------------------------------------------------------------------------------------------------When Kuwait's swimming federation sought to remove Al-Musallam from candidacy for
office at FINA in 2017 - in accordance to its right as a member federation - FINA's leadership
rejected the plea on grounds that the nation was suspended. Instead, as time of Kuwait's
suspensions it pressed ahead with an election that saw a Kuwaiti official confirmed as "first
vice-president" of the organisation.
Related complaints made to the FINA Ethics Panel at the time highlighted the lack of
independence in the integrity process at the swimming federation.
The IOC has urged FINA to move to a system akin to that World Athletics has adopted, the
establishment of the Athletics Integrity Unit having established an independent body open
to hearing complaints of stakeholders without the risk of interference from federation
officials.

©

Another COVID-19 Victim: The Seven Network & Swimming Australia End Broadca...
In Memory of Nick Thierry, Father Of World Rankings & Swimming's Great Altruist

FOLLOW US
https://www.stateofswimming.com/great-day-for-athlete-safety-as-u-...pass-empowr '

Aff in

)aralympic-and-amateur-athlete-act-s2330/

Page 15 of 17

Abuse Prevention
Preventing Child Sexual Abuse in Youth Sport New Federal Legislation Takes Extraordinary Step
Gregory S. Love, Esq.
Kimberlee D. Norris, Esq.
February 2, 2018

-Protecting Young Victims from Sexual Abuse and Safe Sport Authorization Act of 2017
-Impact of new ‘Safe Sport Act’ will impact all of youth sport - directly or indirectly
-Finally ... legislation that is preventative and not just reactive

Analysis of New Law - Overview
This article attempts to describe the highlights and ramifications (direct and indirect) of
Protecting Young Victims from Sexual Abuse and Safe Sport Authorization Act of 2017
(hereinafter: ‘Safe Sport Act’) for those entities involved in youth sport. Clearly, the Act
contemplates many direct ramifications - especially for NGBs. An important indirect
ramification is the creation of a ‘standard of care’ for all youth sport organizations, including
athletic and sport programs offered by local leagues, churches, schools, camps and non-profits.
Ail aspects of the Act are meant to prevent sexual abuse in youth sport, primarily through
prevention training, prevention policies, and mandatory reporting.

Analysis of New Law - Background
In March 2017, the United States Senate introduced Senate Bill 534 fS.5341 aimed at preventing
child sexual abuse in youth sport contexts. In May of 2017, the United States House of
Representatives introduced House Bill 1973 (H.R. 19731: virtually identical to its sister bill in the
Senate, but more expansive. Both were passed unanimously, sending a clear message that all
elected officials were ready to respond to the unfolding tragedy in gymnastics.
Representatives from the Senate and the House worked together in the Fall of 2017 to create a
bill that would satisfy lawmakers in both chambers. The amended version of S.534 was passed
in the Senate on November 14, 2017; S.534 was passed in the House on January 29, 2018.
Signature by the President is expected within the month; S.534 as submitted to White House.

Analysis of New Law - Construction
Many struggle to understanding the legislative process, relying on analysis from the media,
organizational leaders or licensing bodies. Reading legislation - like the Safe Sport Act - can be
confusing, because legislation does not ‘read like a book’ (introduction, body and conclusion).
Instead, it is akin to reading modifications and edits to other, preexisting books. For example,
the first section of the Act addresses the legislative intent to expand the list of federallyCopyright © Abuse Prevention Systems
All Rights Reserved 2018

ApP \L\7^

ww\a'. Abuse Prevention Systems, co m

(817) 737-SAFE

mandated child abuse reporters to include adults involved in youth sport. To accomplish this, the
Act modifies an existing piece of legislation: Section 226 of the Victims of Child Abuse Act of
1990 (34 USC 20341: Child Abuse Reporting). Another section relates to legislative intent to
authorize the US Center for Safe Sport to address the risk of sexual abuse in youth sport. To
accomplish this, Safe Sport Act modifies the Ted Stevens Olympic and Amateur Sports Act
(36 USC 2205: United States Olympic Committee!.
In short, understanding the Safe Sport Act requires an understanding of existing law, and this is
particularly true regarding the changes in reporting requirements.

Who is Impacted and How
In 2017, federal lawmakers set out to address the issue of child sexual abuse in youth sports,
generally, not limited to gymnastics. Attempting to address the risk of child sexual abuse at the
federal level has both an upside and a downside, in terms of who is impacted by the new law.
The primary upside is the breadth of coverage; federal legislation impacts a specific activity in
every state. Though each state should actively pursue legislation that protects its citizens from
sexual abuse (i.e., Texas Youth Camp Act), the states generally failed to pass legislation creating
safeguards in youth sport. Federal lawmakers have now created nationally what states should
have created locally.
The upside is breadth of coverage; the downside is depth of coverage. Clearly, federal
lawmakers can enact legislation that governs youth sport organizations or individuals that
‘participate in interstate or international amateur athletic competition’, like a National Governing
Body (i.e., USA Gymnastics), but how does the Act impact the Ladybugs - a team of 5-year olds
who do not compete in interstate or international competition? The power of federal lawmakers
is broad, particulary given use of the commerce clause, but not unlimited. For jurisdiction to
exist, the individuals and organizations subject to the legislation must be engaged in interstate
commerce or activities.
Organizations and individuals involved in youth sport that do not compete in ‘interstate or
international competition’ are still impacted by the requirements of the Safet Sport Act. At a
minimum, the Safe Sport Act creates a ‘standard of care’ for the Ladybugs and all other youth
sport organization participants (camps, public and private schools, country clubs, sport
facilities).1
In general, the essential ‘categories’ of those impacted by the Safe Sport Act are as follows:
-a National Governing Body;
-a Paralympic Sports Organization;
-an Amateur Sports Organization sanctioned by an NGB (§220525); and
-an Amateur Sports Organization not sanctioned by an NGB (§220530).
1 Expect state legislatures to ‘close the loop’ by enacting similar legislation to prevent sexual abuse in
youth snort at the state level.____________
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

www.AbusePreventionSystems.com
(817) 737-SAFE

The first three categories are clearly covered by the Act and under the direct jurisdiction of the
US Center for Safe Sport. The ‘catch-all’ is the last category: an Amateur Sports Organization
not sanctioned by anNGB. This category is defined in §220530(b) as follows:
An amateur sports organization that... participates in interstate or international amateur
athletic competition, and whose membership includes any adult who is in regular contact with an
amateur athlete who is a minor.
Caution: Do not read this definition, above, and quickly assume the Act does not impact or
apply to an organization or individual. The Safe Sport Act is creating an unmistakeable
‘standard of care’ for all amateur sport organizations and those participating in youth sport. (See
‘Standard of Care’ below.)
USA Gymnastics and the Ladybugs are the extremes; a wide spectrum of amateur youth sport
organizations exist in between. An organization’s first challenge is to determine ‘who am I’
under the new Safe Sport Act. Secondarily, an organization must determine what the Act
requires of the organization and its participants. Finally, each organization must determine
how/where to access prevention training and policies, which meet the new standard of care.
What follows is a brief discussion of the changes mandated by the Safe Sport Act.2

Legislative Change - Mandatory Reporting in Youth Sport
The Safe Sport Act expands the list of individuals required to report child sexual abuse by
modifying Section 226 of the Victims of Sexual Abuse Act of1990 (34 U.S.C. 20341). The list of
mandatory reporters now includes:
(9) ‘covered individual’.
The term ‘covered individual ’ means an adult who is authorized by a national governing
body, a member of a national governing body, or an amateur youth sport organization
that participates in interstate or international amateur athletic competition, to interact
with a minor or amateur athlete at an amateur sports organization facility or at an event
sanctioned by a national governing body, a member ofa national governing body, or
such an amateur sports organization;
Note the breadth of the federal legislation AND the interstate competition qualification for
amateur youth sport organizations not sanctioned by a National Governing Body.
The Safe Sport Act also extends the mandatory reporting requirement to each ‘covered
individual’, interpreted broadly as an adult authorized to interact with minor or amateur
athletes3 Safe Sport Act §220530(a)(2)(A) requires all adults working with a National
2 Safe Sport Act expands access to civil courts and civil redress for sexual abuse victims through a
broader interpretation of the civil discovery rule and availability of monetary damages. The scope of this
article is limited to the required changes affecting youth sport organizations.
3 See Purpose & Summary ofthe House Bill; H. Rep. No. 115-136 (2017-18). Link to Highlighted Text.
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

AppM

www.Ahu.sePreventionSystems.com
(817) 737-SAFE

Governing Body (NGB) or Paralympic Sports Organization to immediately report suspicions of
abuse to the US Center for Safe Sport (‘Center’) and the appropriate law enforcement agencies,
as determined by state and federal law.
For Amateur Sports Organization not sanctioned by an NGB (§220530), participating adults are
included in the list of‘covered individuals’ required to report suspicions ofabuse to the
appropriate law enforcement agencies, as determined by state and federal law - but do not appear
to be required to report suspicions of abuse to the Center.
In essence, the anticipated legislation creates a mandatory reporting obligation in youth sport,
regardless of whether the program is USA Gymnastics or the Ladybugs. Each organization
needs to determine whether a report to the US Center for Safe Sport is also required.
Further, each state has a reporting statute related to child abuse and neglect; some states require
every adult to report suspicions of abuse and neglect, other states list categories of individuals or
circumstances triggering a mandatory report. The Protecting Young Victims from Sexual Abuse
Act of 2017 has created a federal mandatory reporting obligation for all ‘covered individuals’
(see above). It is imperative that each youth sport organization, and the individuals within that
organization, understand the new federal obligations, as well as the respective state-specific
obligations.

New Requirement for All - Prevention Training
As referenced above, an organization’s first challenge is to determine ‘who I am’ under the Act.
Secondarily, an organization must determine what the Act requires of the organization and its
participants. For National Governing Bodies and Paralympic Sports Organizations, there is
clearly additional oversight and requirements are spelled out in the Act. Some requirements,
however, are applicable to all youth sport organizations: ‘prevention training’ and ‘prevention
policies’.
While changes in mandatory reporting requirements are vital, a requirement for ‘prevention
training’ may be the most significant feature of the Safe Sport Act.
Prevention Training - Required for All
For an Amateur Sports Organizations not sanctioned by an NGB (Ladybugs), the requirement for
prevention training is found in §220530:
§220530. Other amateur sports organizations
“(a) In General - An applicable amateur sports organization shall (3) offer and provide consistent training to all adult members who
are in regular contact with amateur athletes who are minors, and
subject to parental consent, to members who are minors, regarding
prevention and reporting of child abuse ....
[elipses and emphases added]
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

www.AhusePreventionSysteins.com
(817) 737-SAFE

For Paralympic Sports Organizations and National Governing Bodies - and, presumably, those
people/organizations sanctioned by an NGB - the requirement for prevention training is more
difficult to find; contained in the Act’s provision related to audits (§220542):
§220542. Additional duties.
“(a) In General - The Center [US Center for Safe Sport] shall (1) develop training, oversight practices, policies, and procedures for
implementation by a national governing body or paralympic sports
organization to prevent abuse, including emotional, physical, and
sexual abuse, of any amateur athlete; and
(2) include in the policies and procedures ...
(A) [mandatory reporting]
(B) [mechanism for reporting]
(C) [prevention policies]
(D) [procedures to prohibit retaliation]
(E) Oversight procedures, including regular and random audits
conducted by subject matter experts,... to ensure that policies
and procedures developed under that section are followed
correctly and that consistent training is offered and given to
all adult members who are in regular contact with amateur
athletes who are minors,... regarding prevention of child abuse;
[elipses and emphases added]
Prevention Training - not ‘Indicators Training’
The requirement for consistent training related to prevention of sexual abuse may be the most
significant element of the Safe Sport Act. Teaching millions of parents, coaches and league
officials how to prevent sexual abuse is truly ambitious and groundbreaking. The key to
prevention is an understanding of the ‘grooming process’ of the sexual offender - the process
utilized by an offender to gain access to a child within the offender’s age and gender of
preference, groom that child for sexual interaction, then keep the child silent.
Sexual abusers have no visual profile, but can be recognized by their behavior. This is a risk that
must be addressed behaviorally. Prevention training highlighting the abuser’s grooming process
gives each trainee ‘eyes to see’ the grooming process and common grooming behaviors before a
child is victimized. Effective prevention training must be proactive, rather than reactive, and
therefore preventative ,4
This is a fundamental distinction between ‘prevention training’ and ‘abuse indicators’ or ‘abuse
recognition’ training: one is proactive, the others are reactive. Abuse indicators and recognition
trainings provide signs, traits, behaviors, and indicators that may reveal a child has been abused
- followed by the instructions concerning how and to whom to report the abuse. Prevention
training, by contrast, provides information related to behaviors and circumstances
4 For a sample sport-specific sexual abuse prevention training, contact Abuse Prevention Systems or
MimstrvSafe.
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

www.AbusePrevention.Svstems.com
(817] 737-SAFE

(i.e., unsupervised one-on-one interaction) that may place a child at risk of abuse. Effective
prevention training allows adults to see and recognize problematic behaviors before the child is
abused... it is preventative.
-If_2.0_mi.ili.on_Ameri can adults are trained to understand the offender’s grooming process through
the training requirements of the Safe Sport Act, 20 million sets of eyes will be better equipped to
recognize predatory behaviors before a child is victimized. As a result, children will be safer in
youth sport programs.

New Requirement for All - Prevention Policies
In addition to prevention training, each youth sport organization - regardless of category - is
required to establish policies and procedures to prevent abuse of young athletes.
Prevention Policies - Required for All
For Amateur Sports Organizations not sanctioned by an NGB (Ladybugs), the requirement for
prevention policies is found in §220530:
§220530. Other amateur sports organizations
“(a) In General - An applicable amateur sports organization shall (2) establish reasonable procedures to limit one-on-one interactions
between an amateur athlete who is a minor and and adult... without
being in an observable and interruptible distance from another adult,...
[elipses and emphases added]
For Paralympic Sports Organizations and National Governing Bodies - and, presumably, those
people/organizations sanctioned by an NGB - the requirement for prevention policies, again, is
more difficult to find, contained in the Act’s provision related to audits (§220542):
§220542. Additional duties.
“(a) In General - The Center [US Center for Safe Sport] shall (1) develop training, oversight practices, policies, and procedures for
implementation by a national governing body or paralympic sports
organization to prevent abuse, including emotional, physical, and sexual
abuse, of any amateur athlete; and
(2) include in the policies and procedures ...
(A) [mandatory reporting]
(B) [mechanism for reporting]
(C) [prevention policies]
(D) [procedures to prohibit retaliation]
(E) oversight procedures, including regular and random audits
conducted by subject matter experts,... to ensure that policies
and procedures developed under that section are followed
correctly and that consistent training is offered and given to
all adult members who are in regular contact with amateur
athletes who are minors,... regarding prevention of child abuse;
[elipses and emphases added]
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

AfPW

www.AbusePreventionSystems.com
(817) 737-SAFE

Prevention Policies - Limited to ‘one-on-one’ Interaction?
Though all categories of youth sport organizations are required to establish reasonable
procedures to protect young athletes, the legislation on this point is weak. Clearly, the intent is
am
Sport Act, however, provides little direct guidance. Again, an understanding of the grooming
process is the key to establishing such procedures.
Child protection safety principle: In general, the type of fence built is driven by what is desired
to be kepi out. When youth sport leaders understand the grooming process, they are equipped to
understand the patterns and behaviors an abuser employs to victimize children. As a
fundamental premise, molesters are desirous of trusted time alone with a child being groomed
for sexual interaction. Creating opportunity for unobserved and uninterruptible one-on-one is
certainly a key element of the abuser’s grooming process. Prior to the one-on-one interaction,
however, the abuser is grooming the gatekeepers (parents, other coaches) as well as the minor
athlete. Prevention policies should address far more than one-on-one interactions. A deeper
understanding of the grooming process through effective training provides the foundation of
policies and procedures that prevent abuse.
What follows is a brief overview of the abuser’s grooming process:
-Gaining Access: through a program serving children1within an age and gender ofpreference;
-Selecting a Child: often a child easily isolatedfrom the group (elite skill, single-parent home)-,
-Introducing Nudity and Sexual Touch: abuser engages in ‘barrier testing and erosion
-Keeping the Victim Quiet: subtle or direct threats, shame, embarrassment, access to team.
Though it follows a predictable pattern, the grooming process may play out in different forms
depending on the sport, age and gender of victim, facility, and other factors.
The Safe Sport Act calls for Prevention Policies, but stops short of providing specific direction
beyond limiting one-on-one interaction between adult and minor athlete.5

5 Sample Codes of Conduct rooted in the grooming process (prevention policies) are available through
AbusePreyentioiiSystems and MinistrvSafe.
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

hw m

www.AbusePreventionSystems.coni
(817) 737-SAFE

Regular and Random Audits to Ensure Compliance
Safe Sport Act §220542(a)(2)(E) seems to call for a periodic audit of each National Governing
Body and Paralympic Sports Organization to ensure that prevention policies are developed and
followedxorrectlv. and that prevention training is offered and completed.6
§220542. Additional duties.
“(a) In General - The Center [US Center for Safe Sport] shall (1) develop training, oversight practices, policies, and procedures for
implementation by a national governing body or paralympic sports
organization to prevent abuse, including emotional, physical, and
sexual abuse, of any amateur athlete; and
(2) include in the policies and procedures...
(E) oversight procedures, including regular and random audits
conducted by subject matter experts,... to ensure that policies
and procedures developed under that section are followed
correctly and that consistent training is offered and given to
all adult members who are in regular contact with amateur
athletes who are minors,... regarding prevention of child abuse;
[elipses and emphases added]
There appears to be no corresponding ‘regular and random audit’ requirement for an Amateur
Sports Organization not sanctioned by an NGB (§220530).

New Standard of Care in Youth Sport - Indirect Application
Safe Sport Act has direct application to many youth sport organizations, like USA Gymnastics.
But how does the Act impact youth sport organizations that do not participate in interstate or
international athletic competitions? Or athletic programs in public and private schools? What
about private and parochial athletic associations that do not compete out of state? What about
the sport camps and country club leagues?
At a minimum, all youth sport organizations that are not directly impacted by the Safe Sport Act
are impacted indirectly through Safe Sport Act’s creation of a new ‘standard of care’: a
reasonable standard for all organizations providing youth sport programming or activities.
Now, all youth sport organizations are on notice that child sexual abuse is a real risk in youth
sport, and reasonable steps should be taken to protect young athletes - including reporting,
effective training, tailored policies, oversight practices and periodic safety system reviews. As to
this risk, Safe Sport Act will provide a yardstick measuring the efforts of all youth sport
programs.

6 It is unclear from Safe Sport Act whether Amateur Youth Sports Organizations sanctioned by a NGB
are subject to ‘regular and random audits’ to ensure compliance._____________
Copyright © Abuse Prevention Systems
All Rights Reserved 2018

saamAhusePr.eyentjpnSystems.com
(817] 737-SAFE

Summary
Involvement in youth sport provides enormous benefit to young athletes. The Protecting Young
Victims from Sexual Abuse Act of 2017 will attempt to preserve those benefits by addressing the
■risk-of-child sexual abuse inherent in youth sport.

Appendix - Latest Version of S.534 (with highlights)
Click [here] to access a highlighted version of S.534 as passed by the US Senate on November
14, 2017 and the US House on January 29, 2018.

Love & Norris, Attorneys at Law. Gregory Love and Kimberlee Norris have a nationwide sexual abuse
litigation practice representing victims of sexual abuse throughout the country. In addition, Love and
Norris provide consulting services to secular and ministry organizations that provide services to children.
Consulting services often include safety effort evaluations, assessments and audits. Representative clients
include the United States Olympic Committee, US Center for SafeSport, Awana International, Bright
Horizons Daycare, Gladney Center for Adoption, and many schools, camps, non-profits and ministries.
Abuse Prevention Systems and MinistrySafe. In addition to an active law practice. Love and Norris are
co-founders and Directors of Abuse Prevention Systems and MinistrySafe, entities dedicated to sexual
abuse awareness and prevention. Abuse Prevention Systems provides Sexual Abuse Awareness Training
(live and online) and assists child-serving organizations in the design and implementation of safety
systems that reduce the risk of child sexual abuse. Love and Norris are frequent speakers before youth
sport organizations and associations, educational entities, adoption and foster care organizations, youth
camps, and other non-profits. They have addressed national and regional audiences for organizations such
as USA Volleyball, US RoAving, US Youth Soccer (USYS), NorCal State Soccer Association, Tennessee
State Soccer Association, Major League Lacrosse, the Risk Management Society (RTMS), Principles of
Large Schools (POLS), National Council for Adoption (NCFA), American Camp Association (ACA), and
the Christian Camp and Conference Association (CCCA).
Abuse Prevention Systems and MinistrySafe are endorsed by Philadelphia Insurance Companies, the
American Camp Association and the Christian Camp and Conference Association. MinistrySafe and
Abuse Prevention Systems’ Sexual Abuse Awareness Training is approved by the Texas Department of
State Health Services and the Departments of Insurance for Texas, New York, Pennsylvania, Washington,
Oregon, California, Nebraska, Missouri, Iowa, Kansas, Oklahoma and other states. MinistrySafe’s
Sexual Abuse Awareness Training is an approved CEU for the Association of Christian Schools
International (ACSI).

Copyright © Abuse Prevention Systems
All Rights Reserved 2018

AW

www.AbusePreventionSystems.com
(817) 737-SAFE

